<html>
<title> - DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, EDUCATION, AND RELATED AGENCIES APPROPRIATIONS FOR 2015</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




                 DEPARTMENTS OF LABOR, HEALTH AND HUMAN
                SERVICES, EDUCATION, AND RELATED AGENCIES
                         APPROPRIATIONS FOR 2015
_______________________________________________________________________

                                 HEARINGS

                                 BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                     ONE HUNDRED THIRTEENTH CONGRESS

                              SECOND SESSION
                                 _______

  SUBCOMMITTEE ON THE DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, 
                    EDUCATION, AND RELATED AGENCIES

                     JACK KINGSTON, Georgia, Chairman

  STEVE WOMACK, Arkansas               ROSA L. DeLAURO, Connecticut
  CHARLES J. FLEISCHMANN, Tennessee    LUCILLE ROYBAL-ALLARD, California
  DAVID P. JOYCE, Ohio                 BARBARA LEE, California
  ANDY HARRIS, Maryland                MICHAEL M. HONDA, California
  MARTHA ROBY, Alabama                 
  CHRIS STEWART, Utah  
 
  NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mrs. Lowey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

                Susan Ross, John Bartrum, Allison Deters,
              Jennifer Cama, Justin Gibbons, and Lori Bias,
                            Subcommittee Staff
                                 _______

                                  PART 6

                                                                   Page
  Budget Hearing--Department of Labor............................     1
  U.S. Department of Education...................................   129

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              _______

          Printed for the use of the Committee on Appropriations
                              _______

                    U.S. GOVERNMENT PRINTING OFFICE

  92-630                  WASHINGTON : 2015



                      COMMITTEE ON APPROPRIATIONS

                                ----------                              
                   HAROLD ROGERS, Kentucky, Chairman

 FRANK R. WOLF, Virginia               NITA M. LOWEY, New York
 JACK KINGSTON, Georgia                MARCY KAPTUR, Ohio
 RODNEY P. FRELINGHUYSEN, New Jersey   PETER J. VISCLOSKY, Indiana
 TOM LATHAM, Iowa                      JOSE E. SERRANO, New York
 ROBERT B. ADERHOLT, Alabama           ROSA L. DeLAURO, Connecticut
 KAY GRANGER, Texas                    JAMES P. MORAN, Virginia
 MICHAEL K. SIMPSON, Idaho             ED PASTOR, Arizona
 JOHN ABNEY CULBERSON, Texas           DAVID E. PRICE, North Carolina
 ANDER CRENSHAW, Florida               LUCILLE ROYBAL-ALLARD, California
 JOHN R. CARTER, Texas                 SAM FARR, California
 KEN CALVERT, California               CHAKA FATTAH, Pennsylvania
 TOM COLE, Oklahoma                    SANFORD D. BISHOP, Jr., Georgia
 MARIO DIAZ-BALART, Florida            BARBARA LEE, California
 CHARLES W. DENT, Pennsylvania         ADAM B. SCHIFF, California
 TOM GRAVES, Georgia                   MICHAEL M. HONDA, California          
 KEVIN YODER, Kansas                   BETTY McCOLLUM, Minnesota
 STEVE WOMACK, Arkansas                TIM RYAN, Ohio       
 ALAN NUNNELEE, Mississippi            DEBBIE WASSERMAN SCHULTZ, Florida         
 JEFF FORTENBERRY, Nebraska            HENRY CUELLAR, Texas        
 THOMAS J. ROONEY, Florida             CHELLIE PINGREE, Maine    
 CHARLES J. FLEISCHMANN, Tennessee     MIKE QUIGLEY, Illinois  
 JAIME HERRERA BEUTLER, Washington     WILLIAM L. OWENS, New York 
 DAVID P. JOYCE, Ohio                 
 DAVID G. VALADAO, California          
 ANDY HARRIS, Maryland                 
 MARTHA ROBY, Alabama                 
 MARK E. AMODEI, Nevada
 CHRIS STEWART, Utah     

                William E. Smith, Clerk and Staff Director

                                   (ii)

 
DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, EDUCATION, AND RELATED 
                    AGENCIES APPROPRIATIONS FOR 2015

                              ----------                              

                                          Wednesday, April 2, 2014.

                  BUDGET HEARING--DEPARTMENT OF LABOR

                                WITNESS

HON. THOMAS E. PEREZ, SECRETARY, DEPARTMENT OF LABOR

                        Welcome Secretary Perez

    Mr. Womack. Good morning. The committee will come to order.
    It should be noted at the outset that we have a number of 
members on this subcommittee who are also members of other 
subcommittees who are having hearings going on simultaneous to 
this one. So there will be an ebb and flow of Members coming in 
and out for various timeframes, and we will yield to them in 
the order that they arrive.
    And I am hopeful that the ranking member will be here 
momentarily so that she can participate also in the early 
stages of this hearing as we welcome our guest, the Secretary 
of Labor.
    Secretary Perez, welcome to the committee.
    Secretary Perez. It is an honor to be here, sir.
    Mr. Womack. Mr. Perez was confirmed as Secretary of the 
Labor Department last July, and although this is his first 
budget hearing before the subcommittee, I have no doubt that by 
now, Mr. Perez knows the programs, the policies, and the 
priorities reflected in this budget request.
    Mr. Perez, thank you for stepping into such a demanding 
role at such a demanding time. In the midst of an unacceptably 
slow economic recovery, millions of Americans are still unable 
to find work. I am sure these last months have been quite a 
challenge, but I appreciate your role and your attendance here 
today to discuss the fiscal 2015 budget for the Department of 
Labor.
    I intend to be brief in my remarks. But before I yield to 
the ranking member, should she arrive, I do have some concerns 
that I would like to address at the outset of this morning's 
hearing.

                            Opening Remarks

    I believe this must be the most anemic recovery to any 
recession we have endured in recent memory. According to a 
report by the Center on Budget and Policy Priorities, now 
almost 5 years into the recovery, the economy has replaced only 
7.8 million of the 8.7 million jobs lost since the start of the 
recession in December of '07.
    To make matters worse, the labor force participation rate 
is the lowest level since 1978 and has declined each year since 
the recession began. The current unemployment rate of 6.7 
percent belies the fact that millions of Americans have simply 
given up looking for work and are no longer counted as part of 
the labor force.
    And yet there are currently over 4 million job openings. 
These openings go unfulfilled due to a persistent skills gap in 
this country. Employers tell us that they can't find enough 
skilled workers for the positions they need to fill. I hear it 
when I circulate through my district, and I am sure my 
colleagues hear the same.
    The department has spent more than $35,000,000,000 over the 
past 10 years in training and employment services. It is clear 
to me that these job training programs are not working.
    It begs the question, why does job creation in this country 
continue to be so slow? At last week's public witness hearing, 
it was made clear to me that the regulatory environment, while 
not the only factor, is certainly a contributing factor.
    Businesses are so concerned about many of the regulations 
pending at the department that they are hesitant to hire new 
workers. I don't blame them. There is simply no certainty 
surrounding the regulatory environment in which they will find 
themselves operating.
    Another factor impeding job growth is excessive 
enforcement. I look at this request and descriptions in the 
justification material, there is no ambiguity as to where the 
department's priorities are. Once again, this administration 
proposes to shift funds from compliance assistance to 
enforcement.
    Enforcement does not create jobs. It has real costs for 
employers and is especially burdensome for the small businesses 
we rely on as the biggest drivers of job growth. Excessive 
enforcement has only created an adversarial relationship 
between business and the Federal Government.
    Instead, we need to be working together to ensure safe 
workplaces and to create jobs. We need to give businesses 
incentives to hire more workers. Bad actors should be held 
accountable, there is no question. But I believe this proposal 
represents a backward approach to job creation.
    Job training programs are not working. Employers are facing 
onerous and overreaching new regulations. And with this budget, 
there is an additional burden of yet more punitive enforcement. 
So I intend to ask questions along these lines in a moment.
    Again, I would like to thank you, Mr. Secretary, for being 
here at this time.
    And I would like to yield to the ranking member, Ms. 
DeLauro, for her opening statement.
    Ms. DeLauro. Thank you very much, Mr. Chairman. My 
apologies. The Agriculture Subcommittee was meeting at the same 
time.

                     Opening Remarks, Rep. DeLauro

    But welcome to you, Mr. Secretary. So delighted you are 
joining us this morning. I welcome you to the subcommittee for 
your first appropriations hearing. Thank you for your 
leadership on behalf of working families, including pushing for 
higher wages and support for the unemployed since becoming the 
Secretary of Labor.
    We are here today to talk about the budget for the 
Department of Labor, an agency whose mission is to help to 
create jobs, to build a strong middle class, to support a 
strong economy for everyone by increasing opportunities for 
economic mobility, by providing temporary assistance to the 
disadvantaged, and by protecting the health and the safety of 
our workforce.
    As a matter of fact, to quote you, Mr. Secretary, in your 
testimony, it is about making good on the promise of 
opportunity, which is central to the mission.

                       REDUCTIONS TO DOL FUNDING

    As we look toward the coming fiscal year, I think it is 
important to keep in mind the bigger picture and the severe 
budget constraints the Department of Labor has been facing in 
recent years. For even as we have been trying to get people 
across the country back to work after an historic recession, 
the overall discretionary budget for this department has been 
slashed by one-sixth, adjusted for inflation, since 2010. These 
cuts have damaged our priorities across the board.
    The future of the economy lies in jobs that require 
knowledge and skills, and those jobs also offer the best chance 
for decent, livable wages and benefits. But despite a clear 
need for a highly skilled workforce and with this majority--
House majority's intent on slashing needed investments rather 
than creating jobs, Congress has cut funding for job training 
and reemployment programs by nearly 20 percent since fiscal 
year 2010.
    Training programs for dislocated workers have also been cut 
by a full 20 percent, despite the fact that employers continue 
to claim they cannot qualified workers to fill job openings. 
Job training programs for at-risk youth have been cut by 
hundreds of millions of dollars per year, even though teen 
unemployment remains above 20 percent.
    I might add that--and I will mention it in a moment on my 
strong support, as you know, Mr. Secretary, for the Job Corps 
program. And despite its budgetary challenges, even in this 
current budget, we are looking at it being below--about 20 
percent below where we, in my view, need to be.

                           WORKER PROTECTION

    So on the worker protection side, Occupational Safety and 
Health Administration funding has declined by nearly 10 percent 
since fiscal year 2010. Wage and Hour Division has seen its 
budget decline by 8 percent. This means it is now limited to 
investigating less than 0.5 percent of workplaces in industries 
with a history of wage violations. Once again, we are doing 
less with less.
    All of these cuts have real-life repercussions that 
negatively impact both workers and the economy. More unemployed 
workers are denied access to job training. More low-wage 
workers are exploited in the workplace, and more jobs, the 
critical jobs that Americans need and that we should be working 
hard to restore, are lost.

                 EFFECT OF SEQUESTRATION ON JOB LOSSES

    According to an estimate by the nonpartisan Congressional 
Budget Office, full implementation of sequestration in 2014 
would have resulted in as many as 1.2 million fewer jobs by the 
end of that year. That is 100,000 jobs lost each month because 
of sequestration cuts at a time when millions of Americans 
continue to look for work.
    Fortunately, last year's budget agreement reversed some, 
and only some, of those sequestration cuts. But we still have a 
long way to go to reverse the damage that has been done.
    This majority is moving in the wrong direction. The House 
Budget Committee is meeting today to mark up the latest 
iteration of Chairman Ryan's budget, and he is pushing for even 
deeper cuts to priorities like job training, health, and 
education. That is the big picture, which is very troubling to 
me.
    Labor, HHS programs make up roughly a third of total 
nondefense discretionary spending. In the current fiscal year, 
they are receiving only one-eighth of the increased funding 
provided under Ryan-Murray. This has consequences, and as long 
as this subcommittee's allocation continues to be less than its 
proportional share should be, as was the case in 2014, we will 
continue to lack the funding we need to make critical 
investments for the Department of Labor.
    Let me just take a moment on the current--the department's 
current budget request for fiscal 2015. We clearly need to help 
our workers learn the skills and credentials necessary for the 
high-skill jobs of a modern economy. So I am glad to see that 
there are some modest, but important increases this year.
    Also happy to see the request of $1,500,000,000 to continue 
the partnerships between community colleges, private employers, 
and training providers. But these funds are requested in a 
supplemental initiative outside this year's discretionary 
funding caps. So I want to know how hard the administration 
plans to fight for them.

                       WORKER PROTECTION AGENCIES

    With regard to worker protection agencies, I support the 
requested increases for priorities such as wage and hour 
investigations and whistleblower protections in this request. 
Adding 300 investigators, updating important rules and 
regulations will help to ensure that our workers receive the 
wages, benefits, and legal protections that they deserve.
    So I think the Department of Labor is doing many good 
things and is moving in the right direction, albeit more slowly 
than I would prefer. But I do have some concerns.

                 FUNDING REDUCTION TO WOMEN'S PROGRAMS

    One example, the administration continues to propose 
funding cuts to the Women's Bureau, Women in Apprenticeship 
program. Both of these programs serve to improve career 
opportunities for women, and I plan to fight for their 
continuation.
    Women now make up half the Nation's workforce, but they 
face a host of unique and disproportionate challenges in the 
workplace from unequal pay to continuing barriers to 
nontraditional employment. So I am interested to know what the 
department is doing in light of these funding cuts to improve 
economic opportunities for women.
    There is much to discuss today. I thank you again for 
joining us, Secretary Perez. Looking forward to your testimony 
and to working with you to advance the President's economic 
agenda and support our Nation's workers and their families and 
to build a strong economy.
    Many thanks.
    Mr. Womack. Thank you, Ms. DeLauro.
    Members are advised that we will be honoring the 5-minute 
rule during our Q and A portion of the hearing today, and that 
rule will also be in effect for the Secretary this morning. 
Note that there is a device on the table that operates like a 
stoplight. It has a green, a yellow, and a red, and that is 
exactly just like you would be if you were traveling. That is 
exactly what it means.
    Green, you are good to go. Yellow, there is a warning that 
you have got 1 minute to go. And red means it is time to stop.
    Now in the event that you fail to stop, we have now 
installed red light cameras in the room, and you will receive a 
bill at your home should you fail to--I am only kidding.
    [Laughter.]
    Mr. Womack. Please help us honor the 5-minute rule so we 
can give everybody the same amount of time and get as many 
rounds in as is possible.
    Mr. Secretary, again, it is a delight to have you in front 
of the committee this morning. Look forward to your testimony. 
The entire content of your opening statement will be entered 
into the record, but for the moment, the time is yours.

                           Opening Statement

    Secretary Perez. Thank you, Congressman Womack and Ranking 
Member DeLauro and other members of the committee. Thank you 
for this chance to testify about the Labor Department's fiscal 
year 2015 budget request.
    This budget, like any other, is more than a compilation of 
dollar figures. It is an expression of our values, and the 
Labor Department's values include helping people acquire the 
skills they need to succeed in the jobs of today and tomorrow, 
helping employers to get those skilled workers that enable them 
to grow their businesses, making sure hard work is rewarded 
with a fair wage, and enhancing our enforcement capacity to 
protect workers' wages, benefits, and safety on the job.

                          American Job Centers

    Our budget calls for the funding necessary to make 
meaningful progress toward these goals, and I would like to 
take a few minutes to highlight some of the key items. We 
continue our investment in training and employment services to 
the more than 20 million Americans at our 2,500-plus American 
Job Centers nationwide. At the height of the recession, these 
centers were the Nation's emergency rooms for job seekers, 
administering the critical care necessary to restore economic 
health and get people back to work.
    The American Job Centers are resources for businesses as 
well. During the State of the Union, the President singled out 
Andra Rush, a small businesswoman from Detroit. Her 
manufacturing firm is thriving because she found 700 of her 
workers through the local American Job Center. We effectively 
served as her human resource department. I would like to think 
of the Labor Department as playing a match.com kind of role, 
helping workers and employers find the right fit.

                          LONG-TERM UNEMPLOYED

    One of the most vexing challenges that we are confronting 
continues to be the plight of the long-term unemployed. 
Frankly, it is the one issue on my plate that keeps me up more 
than any other issue at the Department of Labor.
    Even as the economy continues to recover, the rate of long-
term unemployment remains at or near unprecedented highs. I 
have met with so many of these people and they are hard-
working, diligent. They are pounding the pavement every single 
day in search of a job. They want nothing more than the dignity 
of work.
    As one person said to me last week in a focus group of 
long-term unemployed, ``I got no quit in me.'' And we got no 
quit in them. We are not going to quit on them because we are 
going to continue to fight to make sure that they have the 
resources they need to get back on their feet.
    And I am pleased that the Senate is poised to pass a 
bipartisan bill this week that will finally extend emergency 
unemployment benefits, which were cut off when Congress failed 
to act at the end of last year. More than 2.2 million people 
are somehow trying to survive without this lifeline, and I hope 
the House will act quickly when the Senate passes that bill in 
finality tomorrow.
    Unemployment benefits, while important, are not enough, and 
we need to work together on ways to get everybody back on their 
feet who needs a job and wants a job. And toward that end, I am 
very excited about the $158,000,000 request for an enhanced, 
integrated, and expanded Reemployment and Eligibility 
Assessments and Reemployment Services Program, which will use 
an evidence-based approach to help long-term unemployed workers 
and returning veterans to find work faster.

                           SECTOR STRATEGIES

    We also request $15,000,000 in grants to support sector 
strategies, helping the long-term unemployed and other targeted 
populations receive the training they need for careers in 
growth sectors. These recommendations are built on a growing 
understanding of what works, and you can be assured that the 
budget assumes that we will incorporate rigorous evaluations.
    Although it is not before the committee, the President's 
2015 budget request also sets forth an opportunity, growth, and 
security initiative, which includes a robust investment in our 
community colleges, one third of which would be used to promote 
greater use of apprenticeships, which are another proven 
workforce development strategy that I think is way too 
undervalued in the United States.
    We need to change the national mindset on apprenticeships. 
A 4-year college degree is important for so many, but others do 
not need a 4-year degree to punch their ticket to the middle 
class. And so, we need to make sure we let young people and 
their parents know that there is a bright future in America for 
people who want to work with their hands.

                     FUNDING FOR WORKER PROTECTION

    Training and skills development is an important piece of 
the department's work, but it is not the only piece. And as I 
said before, we play a critical role in ensuring that Americans 
get paid the wages they are due, that they are safe on the job, 
and their benefits are secure. Our budget seeks an increase of 
almost $30,000,000 for our Wage and Hour Division, which would 
cover the cost of hiring new investigators to ensure that 
people who work get paid and employers who play by the rules 
are not undercut by those who don't.
    No worker should have to sacrifice their life for their 
livelihood. And so, the 2015 budget calls for substantial 
investments in the ability of OSHA and the State partners to 
keep workers safe.

                    SAFEGUARDING RETIREMENT BENEFITS

    And to safeguard the retirement of American workers, we 
request $188,000,000 to help protect the more than 141 million 
people covered by benefit plans, together holding a combined 
$7,800,000,000,000 in assets.
    Mr. Chairman, we have come a long way since the depths of 
the Great Recession. The private sector has created 8.7 million 
jobs over the last 48 months. We are moving in the right 
direction, but we must do more, and we must pick up the pace. 
And the Labor Department stands ready to play this critical 
role in creating and expanding opportunity.
    And with that, I look forward to your questions.
    [The information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Womack. Thank you very much, Mr. Secretary. And I 
appreciate your opening comments.
    Mr. Secretary, I know this is a budget hearing, but this is 
the first opportunity that I have had as a Member of Congress 
to address some issues that I think are down inside of the 
department that are to me very, very critical.
    In your written testimony to the Education and Workforce 
Committee and in today's testimony, you tout public-private 
partnerships and an inclusive, transparent process. Hearing a 
Secretary of Labor mention these things kind of excites me 
because it gives me hope that there are some things that we can 
all work on together to help us help this economy and put 
people back to work.

                           OFFCP SHORTCOMINGS

    One area, though, in desperate need of change, in my strong 
opinion, is the Office of Federal Contract Compliance Programs, 
the OFCCP. I believe all of us in this room can agree that the 
OFCCP has a just and worthy goal to enforce the promise of 
affirmative action and equal opportunity for employment, and I 
know that business leaders across the country, particularly 
those in my district, recognize the importance of having a 
diverse workforce.
    That said, however, I have very serious concerns with this 
organization. I have had many conversations with contractors 
and attorneys across the Nation. Every time, I hear the same 
things, and we can categorize them in basically three areas--
transparency, inefficient processes, and a lack of 
organizational direction.

                           OFFCP TRANSPARENCY

    Let me talk about transparency. The OFCCP reaches 
conclusions on alleged issues of discrimination and refuses to 
share with a contractor how it came to conclusions. Contractors 
have no idea about the rules and metrics the agency is using to 
determine whether a contractor is in compliance.
    The regions and district offices seem to have different 
interpretations of the same regulations. And when asked, the 
OFCCP refuses to share the rules and metrics, making it 
impossible for the contractors to self-audit and to do 
everything in their power to be compliant with the rules.

                              OFFCP AUDITS

    On inefficiency, audits are prolonged. They are 
adversarial. They are confusing. And in too many cases, they 
have gone on for many, many years. Contractors have been forced 
to produce the same documents multiple times in the same audit 
to the same compliance officer.

                            OFFCP LEADERSHIP

    And on the subject of leadership and direction, the process 
differs based on the regional office involved. So, in theory, 
the same contractor with facilities throughout the country 
could be subjected to two very different processes. There 
appears to be very little communication and coordination among 
the regional offices and the national headquarters in D.C.
    So, Mr. Secretary, are you aware of the dysfunction that I 
talk about with the OFCCP?
    Secretary Perez. Mr. Chairman, I am very proud of the work 
that OFCCP is doing. And let me give you an example.
    Just yesterday, OFCCP reached a settlement in a case that 
really embodies the nuts and bolts of the work that they do. 
Three women who are carpenters were working on a site, and it 
was a Federal contractor. And they were repeatedly harassed 
because they were women.
    And OFCCP came in there. They investigated the case, and 
they got tens of thousands of dollars of relief on behalf of 
these women who were unjustifiably and illegally harassed.

                         OFFCP SECTION 503 RULE

    On the issue of partnership and transparency, I think the 
Section 503 rule that was recently promulgated is a fantastic 
example of the approach that we take. Under the leadership of 
Pat Shiu, there was a very robust and aggressive campaign of 
outreach to the business community.
    And this is what Governor Tom Ridge wrote in the Wall 
Street Journal after the regulation was issued. He was 
describing the rulemaking process that we underwent. And he 
said--this is his words, not Tom Perez's words.
    ``The Labor Department's rulemaking process should be a 
model for how Government can work with stakeholders in crafting 
regulations that are practical and effective. The new rules 
represent a significant advance in the application of Federal 
laws to enhance job opportunities for people with disabilities 
and veterans.''
    That is the approach that we took in this rule. That is the 
approach we are taking throughout. And if you have particular 
individuals or businesses in your district that are having 
concerns, by all means bring them to our attention and we would 
like to have that conversation. Because I am very proud of the 
work that they have done and continue to do and the approach 
that they take, which, as Governor Ridge described, is an 
approach that is inclusive, seeks practical results, and I 
think they are doing just that.
    Mr. Womack. In my second round of questions, we will come 
back, and I have got some more specific questions about the 
OFCCP to support some of the arguments that I have already 
made.
    But I recognize that my time is about gone, and it will not 
serve me to be able to get into that line of questioning on 
this particular round.
    Secretary Perez. I look forward to it. Thank you, sir.
    Mr. Womack. Ms. DeLauro.

                    ECONOMIC OPPORTUNITIES FOR WOMEN

    Ms. DeLauro. Thank you very much, Mr. Chairman.
    Mr. Secretary, the first issue I would like to discuss is 
the Labor Department's efforts to improve economic 
opportunities for women. I was pleased to hear your commentary 
about yesterday's settlement. And it is about women and their 
families, quite honestly.
    I have been involved in putting together something called 
the Women's Economic Agenda, which focuses on three main 
priorities--pay and rising pay, work-family balance, and 
childcare. Let me discuss under the rubric of this effort three 
specific programs.
    Minimum wage. Nearly two-thirds of minimum wage workers are 
women. In addition, nearly three-quarters of workers in tipped 
occupations are filled by women. Minimum wage adjusted for 
inflation has declined by more than 30 percent since 1968.
    Second issue is pay discrimination. Last week, New York 
Times story, 44,000 women who worked for years at some of the 
Nation's largest jewelry stores, while they were being 
systematically being paid less than their male coworkers for 
the same job, also being passed over for promotions.
    So I was very happy to see the budget request for an 
increase of OFCCP and including funds to investigate pay 
discrimination by Government contractors.
    The third issue is paid leave. The U.S. has no mandatory 
paid leave policy, making it just three countries in the world 
and the only country among industrialized countries to not 
mandate paid maternity leave for new mothers. If you could tell 
the subcommittee how the Labor Department is working to 
increase economic opportunities for women, how we plan to move 
forward on minimum wage, pay discrimination, paid leave?

                     OFCCP EQUAL OPPORTUNITY SURVEY

    Let me also add these couple of things so that you can 
answer it all at once. My hope is that we would be able to 
reinstitute the OFCCP equal opportunity survey that was 
discontinued. I want to know how you plan to collect 
compensation data from Federal contractors in order to improve 
contractor awareness and encourage self-evaluations and really 
target contractors most likely to be out of compliance.
    The last point, is there any consideration of an executive 
order, as I and the chair of the Senate Appropriations 
Committee have called for, prohibiting Government contractors 
from retaliating against their employees who disclose salary 
information?
    Secretary Perez. First of all, thank you, Ranking Member 
DeLauro, for your longstanding leadership on behalf of working 
people, not simply women, but working people and vulnerable 
people.
    And I love your question because it really gets at the 
heart of our opportunity agenda. And part of the answer to your 
question is through the laws that we enforce, we help so many 
working women.
    I described the OFCCP case that was settled literally 
yesterday. These are carpenters, female carpenters who are 
working in an industry that is dominated by men, and they were 
harassed. That is not right. And we will continue to root out 
that sort of nuts and bolts discrimination.

                      SETTLEMENT ON TIPPED WORKERS

    In our wage and hour context, we just reached the largest 
settlement in DOL history on behalf of tipped workers, who are 
disproportionately women, more likely to be living in poverty, 
more likely to be on food stamps, as you well know. That was a 
case out of Philadelphia where the recovery was almost 
$7,000,000 on behalf of tipped workers. So our enforcement work 
will continue in this area.

                               FMLA WORK

    I am very proud of the work we have done in the FMLA. Over 
the past 5 years, we have collected more than $9,000,000 in 
back wages and monetary relief for employees affected by this 
particular law. And we will continue--and we do a lot of 
technical assistance because what we discover in the FMLA 
context is many employers simply don't know what exactly it is 
they are allowed to do and what they can't do.
    And so, a lot of the work that we do is troubleshooting at 
an early level. And so, we will continue to do that.

                      STATE PAID LEAVE INITIATIVE

    The President's budget supports--there is a $5,000,000 
request to help States implement paid leave programs, States 
like Washington and others. I think it is, frankly, a bit 
embarrassing that we are in the company of Lesotho, Papua New 
Guinea, and Swaziland as the only country in the world that has 
no paid leave.
    And I want to applaud your Governor Malloy, who implemented 
a paid leave program, and they have been evaluating it for its 
impact on employers. And it is going well, and it hasn't had 
that adverse impact.
    And so, all of these areas. In our regulatory work, the 
home health rule that we enacted was a huge issue for women 
because 90 percent of home health workers are women.
    Ms. DeLauro. What kind of opportunity do we have to lift 
that restriction with Federal contractors? Well, I still have a 
minute.
    Mr. Womack. We will come back to that----
    Ms. DeLauro. Well, no. It is----
    Mr. Womack [continuing]. Because it is red.
    Ms. DeLauro. Well, it is red now, but it----
    Mr. Womack. The gentleman from Utah, Mr. Stewart?
    Mr. Stewart. Thank you, Mr. Secretary, for being with us.
    There is a number of things I would like to talk about. 
Some of them are quite concerning to me, and I would like to 
move quickly, if we could.

                    OSHA INSPECTION OF FAMILY FARMS

    I grew up on a family farm. We still have that farm in my 
family. In fact, so does my wife. When I was in the Air Force, 
there was nothing I enjoyed more than going home and ranching 
with my brothers.
    We don't have any employees on my farm. Do you believe that 
OSHA has the ability to step on my family farm and to inspect 
and regulate what we do there?
    Secretary Perez. There is a congressional rider, 
Congressman, that says that farming operations that employ 10 
or fewer employees, that OSHA is not allowed to undertake 
enforcement activities on those family farms. So we take that 
rider very seriously.
    Mr. Stewart. Then help me understand, and I know you must 
be familiar with this from Senator Johanns from Nebraska, where 
there was at least one example and probably others--well, I 
know of others--where inspectors came on family farms. This one 
had one employee, and they wrote them up for such things as not 
having a written plan to control fugitive grain dust and fined 
them $130,000. I think that is insane.
    Secretary Perez. Well, I am happy to give you the context 
of that. I spend a lot of time in rural Wisconsin. That is 
where my in-laws have a place, and we go up there a lot, and it 
is farm country. And one of the challenges is when somebody has 
their farm, they will often list their name but they don't 
report the number of employees.
    I have also seen a number of farming operations where they 
are farming, but they are also doing other things because they 
are very entrepreneurial. And so, for instance, in the case you 
describe in Nebraska, there was a situation there where they 
had indicated that they were doing things in addition to 
farming that took them out of the definition of a family farm.
    Mr. Stewart. What were they doing that was in addition to 
farming?
    Secretary Perez. My recollection was that they had a grain 
elevator.
    Mr. Stewart. Grain storage.
    Secretary Perez. Yes they were engaging in grain storage 
that took them beyond the definition of a family farm.
    Mr. Stewart. And do you realize that almost every family 
farm in America has grain storage?
    Secretary Perez. And many of those are family farms, but 
some of those go beyond the definition, and have more than 10 
employees. And so, when we investigate and learn that they are, 
in fact, a family farm, then we back off. But it is hard to----
    Mr. Stewart. In this case--in this case, you didn't.
    Secretary Perez. Well, again, this case was the subject of 
significant investigation because, the employer provided codes 
that indicated that they were doing more than a family farm. 
And they actually reported that they were a grain facility.
    And, once we moved forward in that case, we were able to 
resolve it.
    Mr. Stewart. So just to be clear, if I have a grain 
facility on my farm, which we do on my brother's, we have less 
than--fewer than 10 employees, you have no right at all to come 
on that farm and do an inspection then?
    Secretary Perez. Under those circumstances, that would be 
correct, sir.
    Mr. Stewart. Okay. Thank you for that. And I think that is 
really important for us to establish that.
    It will be interesting to see how this one is resolved.
    Secretary Perez. Well, it has been resolved, sir, the 
Nebraska case.
    Mr. Stewart. And how was it resolved?
    Secretary Perez. There was a settlement in the case, I 
believe, a few weeks ago, and the fine that you mentioned was 
withdrawn.
    Mr. Stewart. Okay. And you believe that that was the 
appropriate outcome for that case, I am sure?
    Secretary Perez. Yes. We are comfortable with the 
settlement.
    Mr. Stewart. Yes. And then I want to move on, but can you 
see, and I hope that you can, how that builds resentment and 
distrust in a case like that for farmers and for other people 
out there and to feel like this heavy hand of the Government 
comes in. And this was a terrifying experience for these 
individuals, I am sure, facing a $130,000 fine for something 
which is going on in literally tens of thousands of family 
farms across the country.
    But let me move on----

                      WORKING WITH FAMILY FARMERS

    Secretary Perez. Sir, it is a terrifying experience for 
parents, with whom I have spoken, who have lost their children 
who have suffocated in grain silos. That is why we were getting 
involved because the incidence of deaths in grain silos--
preventable deaths, I would note, has been significant.
    And that is why we have been working collaboratively with 
farmers and others, to prevent those tragedies.
    Mr. Stewart. Are you indicating then that you think it is 
appropriate for you to come on family farms with grain silos to 
investigate them?
    Secretary Perez. Well, again, if there are more than 10 
employees, then----
    Mr. Stewart. We are not talking more than 10. We are 
talking family farms. You said it is terrifying for parents to 
lose their children. Heavens, I don't know of anyone who cares 
about a child like their parents do, certainly more than the 
Government does.
    We don't need the Government to come in and provide that 
type of oversight for us. And it seems to me you are indicating 
that that is appropriate?
    Secretary Perez. Well, again, our role is to protect 
workers. And when we have less than 10 people employed on a 
family farm, Congress has directed OSHA not to be involved, and 
we appreciate that, we respect that, and we will abide by that.
    At the same time, I think we have a shared interest in 
preventing deaths on farms that employ more than 10 workers. 
And I have spoken to parents who have had to bury their loved 
ones, and we are trying to prevent that and trying to do it in 
a common sense way.
    Mr. Womack. The gentlelady from Alabama, Mrs. Roby.
    Mrs. Roby. Thank you, Chairman.
    And thank you, Mr. Secretary, for being here today.
    Secretary Perez. Good morning.

                        REGIONAL EMPHASIS PLANS

    Mrs. Roby. I sent you a letter on March 27th, highlighting 
some of the issues I wanted to talk to you about today. So I 
hope that letter found its way?
    Secretary Perez. Thank you for sending that. I appreciate 
it. It did, and I reviewed it.
    Mrs. Roby. Okay. Great. Well, the main issue here is when 
you look at an REP, a regional emphasis plan, and you have an 
agency, as I stated in my letter, that has sweeping authority 
to enter and inspect and investigate and, as my colleague's 
line of questioning, to make sure that our employees are 
working in a safe environment. And you have that broad, 
sweeping authority without delay, at reasonable times, so on 
and so forth.
    It is my belief that when you issue an REP like the one I 
am going to talk about now and you treat similar businesses 
differently in different parts of our country, that if you are 
going to do that, then there should be a really high 
expectation of justification for doing so.
    The REP that I am talking about today was issued, and I 
just want to make sure that you are aware of it, that is 
targeted and directed at auto part manufacturers.
    Secretary Perez. Right.
    Mrs. Roby. But specifically, only in Alabama, Georgia, and 
Mississippi. And what is concerning to me is that this REP, in 
the background section, states that the auto part supplier 
industry continue to be the source of serious injuries, 
including amputations and deaths, to employees.
    We all want our employees in our auto part manufacturers to 
go home safe at night to their families and to their children. 
But I am very interested in the information that came directly 
from the Department of Labor that shows that Alabama and 
Georgia are below the national average when it comes to 
incidents of injury, just injury.
    And I live in Montgomery near many of these facilities and 
have seen no reports of, you know, multiple incidents of 
amputations and/or deaths. So what I am trying to figure out, 
you know, your budget calls for substantial investments in the 
area of occupational safety and health, and I know that other--
doing our background on this issue, I know that other REPs cite 
specific incidences that would lead to a targeted inquiry such 
as this.
    I mean, this is a 2-year audit, basically, on auto plant 
manufacturers in specific States and a specific industry. And 
there are $300,000,000 in fines in 2013, and your request, 
again, is for substantial investments in this area. I am trying 
to figure out if your job is to make the workplace more safe, 
why are you targeting three States that have incidents below 
the national average, and this industry exists in other States 
that do not?
    Secretary Perez. Thank you for your question, 
Congresswoman.
    We follow the data, and we gather the data. And let me 
share with you the data on injury rates in the auto parts 
manufacturing industry.
    In Alabama in particular, the injury rate in auto parts 
manufacturing is 50 percent higher than in the same industry 
across the country. So the reason we have this regional 
emphasis program is because when we see data and we have 
experience showing that there is a problem, then we put 
emphasis in the areas where there is a problem.
    We worked with Hyundai for almost 5 years in a compliance 
assistance mode to try to address these issues, and we were 
unable to bring down the injury and illness rate. So the----
    Mrs. Roby. But those statistics are quite--in quite 
contrast to what came out of the Department of Labor showing 
that Alabama and Georgia are below the national average.
    Secretary Perez. No, I am happy to----
    Mrs. Roby. So if I could get--I would very much like to get 
a copy of that.
    Secretary Perez. Okay. I am happy to give you that data 
because we are following the data in our regional emphasis 
program here and across the country. When there is a problem, 
that is what brings us in there. And regrettably, there is a 
problem there.
    Mrs. Roby. What is troubling to me is that three States can 
be targeted in a specific industry, and we don't have the data 
that shows and backs up that you guys are going to come into--
--
    Secretary Perez. Well, I am happy to share the data with 
you that demonstrates--if there is a problem in a particular 
State, regardless of what the State is, we have a very 
important need to protect workers in that State. There is a 
problem in Alabama in terms of the----
    Mrs. Roby. This is certainly news to us, based on the same 
information that came out of your department.
    Secretary Perez. Okay. Well, we will----
    Mrs. Roby. So I will continue this questioning----
    Mr. Womack. The gentlelady's time has expired.
    Mrs. Roby. Thank you.
    Mr. Womack. The gentleman from Ohio, Mr. Joyce.

                         ADDRESSING SKILLS GAPS

    Mr. Joyce. Thank you, Mr. Chairman.
    Secretary Perez. Good morning, sir.
    Mr. Joyce. Good morning, Secretary. How are you, sir?
    Secretary Perez. Congratulations on your Dayton Flyers.
    Mr. Joyce. You are very kind. Thank you.
    Secretary Perez, thank you for appearing here today. But 
according to preliminary data from the Bureau of Labor 
Statistics, there were 4.1 million job openings in January, and 
that is up from 3.8 million a year ago. This, despite a labor 
participation rate at the lowest level since 1978.
    Too many workers have simply given up looking for work and 
dropped out of the workforce. Employers tell us they cannot 
find workers that have the skills that they need. This skills 
gap has been a persistent problem, as you and I have discussed 
before, despite billions of dollars the department spends each 
year on employment and training programs.
    Now putting aside the new strategies that you are testing 
for a moment, what are you doing within the existing training 
and One-Stop structures to address this skills gap?
    Secretary Perez. Quite a bit, I did this at a local level, 
and at a State level, and I was very proud of the work that we 
did. And the key to our success was partnership and having a 
demand-driven approach.
    In other words, what are the demand needs of employers? You 
can't train and pray anymore. You can't train widget makers if 
nobody is hiring widget makers. And so, the approach that we 
took when I worked on this at a local and State level and the 
approach we are taking now, at a Federal level, is to make sure 
that we understand what the demand needs are and that we match 
the demand needs with the training available through community 
colleges and others, to help people increasing their skills and 
get those jobs.
    I can give you some facts and figures about some of the 
work that we have been doing across this country. Under our 
Wagner-Peyser program, for instance, last year alone, 18 
million people received services. About 14 million were 
unemployed when they came in, and a little over half of them 
went on to find a job within 3 months after completing their 
program. In our WIA programs, four out of the five training 
participants found a job.

                          AMERICAN JOB CENTERS

    Earlier we talked about a woman in Detroit, named Andra 
Rush. She runs a company called Detroit Manufacturing Systems. 
She manufactures the consoles for the Ford F-150, and she went 
from zero to 800 employees with the help of the American Job 
Centers because we were basically her HR department.
    And we helped long-term unemployed get to work. We 
determined what the skill needs were, and we helped 700 or 800 
people punch their tickets to the middle class.
    There are a lot of similar opportunities out there. And 
what we are trying to do, with the Vice President's leadership 
on our skills working, group is to make sure we do even more to 
align the funding streams from the various agencies to expand 
our investment in apprenticeship.
    Because I know in your neck of the words, there is a bright 
future for people who work with their hands. I talk to 
employers, as we discussed the other day. Apprenticeship has a 
bright future in this country as a result of the aging of the 
population and the renaissance of manufacturing.
    And so, we are redoubling our efforts in the apprenticeship 
context. We are doing even more now to promote innovation. We 
have waiver programs at the Department of Labor that States and 
local governments have availed themselves of. What we are doing 
right now is figuring out what works, take it to scale, 
expanding that, working on behalf of veterans. And last year, 
we helped over a million veterans through our American Job 
Centers.
    And so, there is a lot going on. There are many employers, 
you are absolutely right. The employers that I talk to are 
saying, ``I am bullish about my future,'' and we have got to 
make sure people have the skills to compete.
    And that is why we are that match.com. That is why the 
community colleges in your jurisdictions and across this 
country play such a critical role because our investments 
through our TAACCCT funding and through our other programs have 
enabled those community colleges to kind of be like the secret 
sauce and give people the training opportunities they need.
    And oftentimes, and it is a 6-month program or a 7-month 
program that gives you an industry-recognized credential. One 
way we are measuring our progress is how many industry-
recognized credentials are we helping to facilitate. Because 
when you have that Microsoft certification or you are a 
journeyman or journeyperson, you are punching your ticket to 
the middle class. Those are portable certifications that enable 
you to move forward.
    So I am proud of the work we have done. At the same time, 
we have plenty of room for improvement. That is what we are 
doing right now under the leadership of the Vice President.
    And having worked on this issue at a local and State level, 
I know the importance of business outreach. I know the 
importance of partnership, and I know the importance of having 
a philosophy. And our philosophy is that it has to be demand 
driven, and we have to help as many people as possible.
    Mr. Womack. The gentlelady from California, Ms. Roybal-
Allard.

                             TAACCCT GRANTS

    Ms. Roybal-Allard. Secretary Perez, TAACCCT grants have 
enormous potential to help adults acquire the skills, degrees, 
and credentials needed for high-wage, high-skill employment. 
And I was very pleased that the nine campuses of the Los 
Angeles community college district secured a $19,000,000 
TAACCCT grant this fall.
    This funding will enable the district and their partners to 
create an innovative training model to prepare trade-impacted 
workers, veterans, and other long-term unemployed individuals 
in the L.A. area for new careers in the healthcare workforce.
    Unfortunately, the TAACCCT grants were only funded through 
2014. The successor program, the Community College Job-Driven 
Training Fund, was included in the Opportunity, Growth, and 
Security Initiative. However, no additional funding was 
provided in the budget request.
    So in the absence of TAACCCT grants or funding for the 
successor program, how does the Department of Labor plan to 
prepare the American workforce to meet the growing demand for 
21st century high-skilled workers? And are there other programs 
that can fill the void that is being left by this important 
program?
    Secretary Perez. The TAACCCT program has been an 
indispensible funding stream that has enabled us to catalyze 
partnership and innovation across this country. The program 
that you describe in Los Angeles, Congresswoman, is a perfect 
example.
    And I was out there with the Mayor and with the community 
college presidents when we announced that grant. The community 
colleges, frankly, hadn't ever collaborated on a grant before, 
and they were running--they had a curricula. So if you were 
taking Nursing 101 at community college A, the curriculum was 
different from the community college B. And it wasn't aligned 
to what the needs of the local health providers were.
    And so, now we have facilitated that alignment. People are 
coming out of that program with skills and competencies that 
the business community locally is demanding and needing, and 
they are able to hire people. And that is why this program is 
so important.
    That is why the President included it in his request. 
Because I go--anywhere I go across this country, you hear from 
community college presidents, you hear from business leaders 
about how this program has so critically served the needs of 
employers. Just in response to Congressman Joyce's question, 
this is part of the answer to that question is having the 
community colleges at the table to provide the skill training 
so that people can increase their skills to get the jobs of 
tomorrow.
    They are a critical component, and I have been in community 
colleges across this country to see it work. So I hope we will 
continue, and I think we can demonstrate the value added of 
this. And I am hopeful that as we move forward to identify the 
3 million jobs that Congressman Joyce referenced before, this 
is a big part of how we solve this. And that is why we are 
going to continue to advocate vigorously to continue this 
program.
    Ms. Roybal-Allard. And, but there is no funding?
    Secretary Perez. This is round four. This is the last 
round. So if Congress does not act--we are about to announce 
the fourth round of TAACCCT funding. It was a $2,000,000,000 
roughly program. This will be round four of four.

                  REAUTHORIZE THE TRADE ADJUSTMENT ACT

    If Congress does not act next year to re-up it, then it 
will not move forward. If Congress does not act by the end of 
the year to reauthorize the Trade Adjustment Act, then millions 
of trade-adjusted affected workers will not have access to that 
critical lifeline. And that program has served very, very 
important needs.
    We are using our H-1B programs and the funding that comes 
from there to fund certain grant making. But, there are limits 
to that.
    Ms. Roybal-Allard. Yes. We will lose tremendous ground.
    Secretary Perez. Yes.

                  CHILDREN WORKING IN ``AGRICULTURE''

    Ms. Roybal-Allard. I understand that earlier the issue of 
children working in agriculture was briefly brought up, in my 
absence while I was in another subcommittee hearing.
    For the last 13 years, I have been introducing the CARE Act 
to end the double standard that allows children in agriculture 
to work at ages, younger ages for longer hours and in more 
dangerous circumstances than those working in all other 
industries.
    And although agriculture has a fatality rate nearly eight 
times higher than the national average, attempts to protect our 
Nation's children working in agriculture have met with strong 
opposition in spite of the fact that my bill and those of us 
who have been working have made every effort to exempt and to 
protect family farms. So, without equal protection for these 
children under our laws, robust oversight enforcement of our 
current laws is essential to providing some level of protection 
to our children in agriculture.
    Mr. Womack. The gentlelady's time has expired.
    We have been joined by the chairman of the subcommittee. I 
am going to give Mr. Kingston just a few minutes to kind of get 
his bearing, and we will go into a second round of questions. 
And we will be coming back to everybody here momentarily, and I 
will lead.

                              OFCCP AUDITS

    I want to go back to OFCCP for just a minute. I am thrilled 
that you are proud of the overall work in the Labor Department, 
but I want to confine my questions to OFCCP.
    And Mr. Secretary, I spent 30 years in uniform, and I have 
been responsible for and participated in a number of 
inspections involving my military units. And so, I kind of look 
at the audit process and the inspection process that I have 
witnessed in the military as kind of the same thing. So, in 
your words, very briefly, what is the purpose of one of these 
audits?
    Secretary Perez. To ensure compliance with Federal laws----
    Mr. Womack. Okay.
    Secretary Perez [continuing]. That mandate 
nondiscrimination.
    Mr. Womack. Because the laws that are in place have a 
certain purpose, to ensure that people have opportunity and 
equal opportunity and this sort of thing. So can we agree that 
the audit process, as you say, is to ensure compliance, but 
really overall is to just make sure that people have these 
opportunities?
    Secretary Perez. When you ensure compliance with 
nondiscrimination laws, I think you expand access to 
opportunity.
    Mr. Womack. So do you give compliance assistance to the 
people that you are auditing?
    Secretary Perez. Outreach, education, and technical 
assistance has always been part of what we do at OFCCP. I have 
been doing----
    Mr. Womack. All right. So when you--let us just say that 
you are going to company A, and you are going to perform some 
kind of a desk audit on this particular company. They are 
notified that they are going to be subject to a desk audit. Do 
you reach out to them? Or the people in your office, do they 
reach out and actually work with them to understand what the 
metrics are going to be, what the things are we are going to 
look for? So that we can ensure that everybody is having this 
opportunity.
    Secretary Perez. Sure. And let me give you some facts and 
figures. In fiscal year 2013, our field offices conducted more 
than 6,200 outreach activities for workers and employers, 687 
compliance assistance events----
    Mr. Womack. Let me ask my question. I am talking--let us go 
back to the company that I just gave an example of.
    Secretary Perez. Sure.
    Mr. Womack. So you are going to perform a desk audit. Do 
you go to the company and you say this is what we are looking 
for, this is the checklist. Do you actually work with that 
company so that they understand what they are up against?
    I mean, there is a whole spectrum of things that you can 
look at. Do you work with them specifically on the issues that 
you are looking at for that particular company?
    Secretary Perez. There is a really good chance that this 
company attended one of the 900 outreach seminars, conferences, 
and symposium that were held by our very active and robust 
outreach/technical assistance team.
    And so, our goal is, by the time we conduct an audit, 
people will already understand what the rules are.
    Mr. Womack. A lot of rules. A lot of rules, aren't there?
    Secretary Perez. Actually, there is a simple rule. Don't 
discriminate. That is really the simple rule. I mean, you can't 
do what the people in this case I described yesterday were 
doing. They were discriminating against women carpenters. You 
can't do that.

                          OFCCP AUDIT PROTOCAL

    Mr. Womack. Okay. So let me give you an example. It is my 
understanding that when the contractors get an OFCCP request 
for individualized pay data and the letter says we found 
unexplained differences in your compensation, then the company 
goes back and says what pay differences are you seeing? And the 
compliance officer declines, citing protocol. Are you aware 
those compliance officers are forbidden from sharing the answer 
to that question?
    Secretary Perez. Congressman, I will repeat again. If you 
have a specific employer that you felt was treated either 
unfairly or asked for information that they couldn't get, by 
all means bring it to our attention. Because I am very proud of 
the work that is being done at OFCCP----
    Mr. Womack. Okay.
    Secretary Perez [continuing]. And if there is a particular 
situation, I want to make sure we are----
    Mr. Womack. In the middle of an audit, is it possible that 
an OFCCP audit might request certain type of information and 
give a timeframe for response of, say, 24 hours?
    Secretary Perez. I don't know what the timeframes are. That 
seems a little----
    Mr. Womack. But are you aware that any of those timeframes 
exist?
    Secretary Perez. Well, again, sir, I----
    Mr. Womack. Do you think that is fair?
    Secretary Perez. Well, again, what I think is fair is if 
you have a particular employer that has a specific problem, I 
want to hear about it so that we can resolve it because I am a 
big believer in making sure that we are----
    Mr. Womack. Well, here is what I am concerned about. What I 
am concerned about is I want the agency to want to work with 
the company to ensure the company is compliant and, when not 
compliant, to help them become compliant, to have a working 
relationship so we can put more people to work.
    But we have got a lot of people running scared out there 
because of the spectrum of things that they can be subject to 
and that these goalposts continue to move from place to place.
    And I recognize that I am out of time, and I am going to 
treat myself no differently than anybody else and give myself 
the gavel and turn the microphone over to the----
    Or Ms. DeLauro will be next.

                        RAISING THE MINIMUM WAGE

    Ms. DeLauro. Let me just ask about the chair.
    Mr. Womack. Does the chair prefer----
    Mr. Kingston. No, we will go----
    Ms. DeLauro. You are okay?
    Mr. Kingston. Yes.
    Mr. Womack. Ms. DeLauro, you are recognized.
    Ms. DeLauro. Thank you very much.
    If I can ask unanimous consent to put into the record a 
document about the raising the minimum wage, 10 Reasons Raising 
the Minimum Wage to $10.10 Is a Women's Issue.
    Mr. Womack. Without objection.
    [The information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. DeLauro. Thank you.

               FOLLOW-UP ON GRAIN STORAGE BIN FATALITIES

    Just a quick note on the issue of grain storage bins and 
fatalities. 2010, 57 engulfments in grain facilities and 31 
fatalities. Approximately 70 percent of documented entrapments 
occur on small farms exempt from OSHA's grain handling facility 
standard. According to OSHA, it has walked out of inspections 
of small farms 91 times due to the rider. This included 11 
fatality cases.

                         TAACCCT GRANT PROGRAM

    Let me follow up on the issue, the TAACCCT grant program, 
which is really just such an extraordinary success, if I can. 
Can you make a compelling case for going above this year's 
spending caps to fund additional job training programs?
    And then, in that context, how will our State agencies work 
with this expanded apprenticeship program? Can they apply for 
any of this $500,000,000? I have one question after that about 
reemployment services, Mr. Secretary.
    Secretary Perez. The short answer is absolutely I can make 
a compelling case. And what I would actually invite the members 
of the committee to do is convene a roundtable of your 
community college presidents, business leaders, and others who 
have participated in this program and ask them how it has gone.
    Because I am quite confident that whether you are in 
metropolitan Cleveland, Alabama, Connecticut, California, of 
Utah, you are going to find that this program has been an 
unmitigated success in helping people. And so, I think that is 
very important.
    Ms. DeLauro. I was thinking of Gateway--Gateway Community 
College, where they have a veterans program going, which is an 
enormous, enormous success.

                         APPRENTICESHIP PROGRAM

    Secretary Perez. And the apprenticeship issue. A big part 
of what we are trying to do on the apprenticeship issue is 
build capacity at a State level. Some States have really good 
registered apprenticeship programs, and others have work to do.
    And so, a big part of what we are trying to do in the 
apprenticeship context is build that capacity within States in 
the registered apprenticeship context. So these resources, a 
big part of them, would go directly to States.

                   FUNDING FOR REEMPLOYMENT SERVICES

    Ms. DeLauro. Just to ask, the Congress has cut funding for 
job training and reemployment programs by 20 percent since 
fiscal year 2010. Training programs for dislocated workers have 
been cut by full 20 percent despite--and for my colleague 
Congressman Joyce, despite the fact that employers continue to 
claim they cannot find qualified workers to fill job openings.
    Mr. Secretary, your budget requests a doubling of funding 
for reemployment services and reemployment eligibility 
assessments. Can you tell us how these activities are going to 
help the long-term unemployed return to the workforce? Can you 
talk about the budget implications of these programs and that 
these programs actually save money by shortening the duration 
of unemployment?

                          RES/REA JOB CENTERS

    Secretary Perez. We have studied this issue, and 
independent folks have studied the issue of the effectiveness 
of REA/RES programs. The long-term unemployed, as I said in my 
opening statement, is the issue that keeps me up the most at 
night.
    And what we have seen is that these programs, REA/RES are 
fancy names for we bring in the job seeker. We do an assessment 
of the job seeker. And depending on that assessment, you get 
connected to training programs. You get connected to in the 
case of a woman from Connecticut, what she needed was she 
needed to redo her resume because it was stale.
    And so, the American Job Center helped her redo her resume, 
and so different people will have different needs. It is a 
triage situation.
    And for veterans, especially for folks leaving military 
service and now eligible for unemployment, this program has 
been indispensible. And when we connect people to the American 
Job Centers and we provide this extensive help, the studies 
have shown that we get people back to work.
    And so, this increase, this requested increase is designed 
to address long-term unemployment. It is designed to assist our 
veterans who are leaving military service. We know with the 
mandatory drawdown that we have more veterans in the pipeline, 
and we are trying to work upstream with them so 6 months before 
they leave, we are helping them out.
    And so, we are continuing the work in that area. This 
program is one of the most important things that I would 
respectfully assert that Congress could do to reduce the ranks 
of the long-term unemployed.
    Ms. DeLauro. Thank you, Mr. Secretary.
    Mr. Womack. Now the microphone goes to the chairman of the 
subcommittee. Mr. Kingston from Georgia?
    Mr. Kingston. Thank you, Mr. Chairman.
    Secretary Perez. Good morning, Mr. Chairman.
    Mr. Kingston. Mr. Secretary, good to see you and members of 
the committee.

                     FEDERAL JOB TRAINING PROGRAMS

    One of the high concerns I have is we have 47 different job 
training programs across 9 Federal agencies. 2011, the GAO did 
a study and found that these cost more than $18,000,000,000, 
but they also could not find evidence that any of the job 
training programs were working.
    And yet this Congress has tried to combine as many as 
possible, and the administration has fought us every inch of 
the way. While I may want to reduce this, say, to 10, it 
doesn't seem possible that the administration can seriously 
believe 47 is still necessary.
    It would appear to me that it would be something that we 
could say, okay, which ones work? Where is the duplication, and 
where are they effective?
    I don't see it as being a huge philosophical question, 
either. I see it as just being a practical one. But in this 
town when you are trying to do something that requires common 
sense, everybody digs into the bunker and says, no, we have got 
to protect this constituency or that constituency.
    So what is your comment on that?

                     TRAINING PROGRAM CONSOLIDATION

    Secretary Perez. Well, we have had this--we have had a 
very, I think, productive conversation with members of the 
Workforce Committee, with Chairman Kline and others about this 
issue, because, if you look at the President's budget request, 
the New Career Pathways Program is, in fact, a consolidation of 
the Displaced Worker Program and the TAA program.
    At the end of this year, TAA expires, and people in your 
districts receiving critical assistance are going to lose it. 
So, our philosophy is to put those programs together because 
those work.
    As it relates to other investments, I think it is important 
to understand that when you add up programs or funding streams, 
a funding stream is not a program. There are five--or four or 
five different funding streams for veterans, for instance.
    Mr. Kingston. Let me ask you--let me ask you this. Did you 
read the GAO report?
    Secretary Perez. I sure did.
    Mr. Kingston. And what did you think? Especially the part 
that said there was no evidence that they were creating jobs or 
no evidence that they were working.
    Secretary Perez. That is actually not what I thought the 
GAO report said. The GAO report said that what we need to do a 
better job, and I agree with this, is to make sure that our 
programs are aligned. And that is precisely what we are trying 
to do right now.
    That is what I did when I was in State government. 
Imploding stovepipes, making sure that all of the different 
agencies that had skin in the game were working together. And 
that is why we are working with the Department of Housing and 
Urban Development, with HHS, with Department of Education, 
Department of Agriculture.
    Mr. Kingston. Right now, after reading that, you don't see 
any of the 47 that should be eliminated?
    Secretary Perez. Well, actually a number of them have 
already been eliminated, and I would be happy to go through 
that list with you after this hearing. Because some of the 
funding streams that were identified in that report are no 
longer funded.
    But I think what is really important to understand is, 
again, there are five different funding streams for veterans. I 
think those funding streams reflect a very careful 
consideration by Congress that veterans have unique needs. And 
so, when a veteran comes into an American Job Center, Mr. 
Chairman, he is not asking for a funding stream. He is asking 
for a job.
    And that person may have a disability, and Congress has 
correctly, in my judgment, said we need a program----
    Mr. Kingston. Well, let us just say--what I would like, and 
I am just cutting you off to try to stay in the 5 minutes. But 
what I would like to receive from you is of the 47 and of the 
GAO report, what your response to it is and which of the 47 you 
are willing to work with us to consolidate. And which ones you 
feel really work and which ones aren't.
    Because I think where we also could find some agreement is 
which ones are the best because if one is really turning out 
trained people that can transition into jobs, maybe we should 
put more money in that and starve one that is not as efficient.
    [The information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                MINIMUM WAGE REQUIRED ON MILITARY BASES

    I want to ask another question on military bases that 
recently under this administration's executive order, they are 
going now to minimum wage if you have a fast food restaurant on 
a military post. But I understand, in addition to that, the 
Department of Labor is starting to require that restaurants pay 
an additional health and welfare benefit of $3.81 an hour, 
which would mean if you are working on a military post in a 
McDonald's or whatever that the starting wage would be $13.91, 
which would be extremely difficult to sell competitive tacos or 
hamburgers or fried chicken paying that. And that would defeat 
the purpose of having those on military posts for our soldiers 
and their families.
    Secretary Perez. The executive order indicated that----
    Mr. Womack. I am so sorry, Mr. Secretary. Mr. Kingston is 
out of time. We are joined by----
    Mr. Kingston. He gives no mercy to anyone. So we are in the 
same boat.
    Mr. Womack. Not even myself. We are joined by other members 
of the subcommittee, and in the order, provided that I have got 
this correct, Ms. Lee of California will be next. Then we will 
go, I think, to Mr. Harris of Maryland and then to Mr. Honda of 
California.
    So, at this time, I am going to give the floor to Ms. Lee 
of California.
    Ms. Lee. Thank you very much, Mr. Chairman.
    Good morning, Mr. Secretary.
    Secretary Perez. Good morning.
    Ms. Lee. Sorry, and I apologize for being late. But I have 
got three committees going, one of which is the Budget.
    Secretary Perez. Three places at once is a little hard. 
[Laughter.]

                    TARGETING JOB TRAINING PROGRAMS

    Ms. Lee. Budget Committee, where we are really talking 
about a lot of the budget, your budget.
    But thank you again for being here and for your tremendous 
leadership.
    Although our economy is slowly improving, investments in 
job training--and I am working on an amendment to the budget 
now to increase to the President's level job training funding. 
But job training, which really puts individuals in a place 
where they can work at a living wage, job training programs are 
key to lifting individuals and families out of poverty, 
addressing the growing inequality in America, and creating the 
opportunity for all.
    Now the unemployment rate, and I know we are all pleased to 
see the unemployment rate down to 6.7 percent in, I believe, 
February. But again, in the African-American community 12 
percent, and 8.1 percent in the Latino community. So there are 
still nearly 4 million Americans who have been unemployed for 
27 weeks or longer, and these numbers unfortunately are 
disproportionately represented in and by minority populations.
    There are several job training programs that could 
potentially benefit communities with high unemployment, but I 
am having a very difficult time identifying programs that 
directly address the unemployment disparity, which we have 
asked for, for a report on that.
    So can you briefly describe some of the job training 
programs contained in the President's budget that are really 
targeted toward communities that significantly--that have a 
significantly higher unemployment disparity, the way you target 
and how that is done?
    Then, secondly, as it relates to poverty language, in 2014, 
and I want to mention--read this language. I was able to 
include poverty language that says, ``Poverty is far too 
prevalent in the United States. Congress and the administration 
should work together to implement policies, interagency 
efforts, and support proven anti-poverty programs that reduce 
the existence of poverty and the suffering associated with 
it.''
    So these interagency efforts should be well coordinated 
between Labor, Education, Health and Human Services, given the 
unique responsibility that these agencies, yourself--your 
agency--share really in training our workforce, educating our 
future, and ensuring the health and well-being of all 
Americans. So how do you envision this coordination internally 
within the Department of Labor and with other agencies to 
fulfill the goal the Congress set, and that is to support 
efforts to reduce poverty?
    Secretary Perez. That coordination that you describe is 
critical. It is when I was talking to the chairman before, the 
alignment is about making sure that we are working together to 
make sure that the DOL funds are spent appropriately and with 
our colleagues, whether it is HUD, whether it is USDA, all the 
other agencies that have training dollars, that we are spending 
these dollars synergistically in demand-driven context. And 
that is exactly what we are doing.
    When I was in Maryland, I co-chaired a workforce 
subcabinet. We brought together all the agencies that had skin 
in the game to make sure that we were aligning our investments, 
and that is what we are doing right now in the Federal 
Government. And I participate in those meetings with 
regularity.
    In terms of your first question about the investments that 
enable us to get at many communities that are in specific need, 
Congresswoman Roybal-Allard described an investment through our 
TAACCCT program in Los Angeles, that I went and visited. It is 
a remarkably exciting development, and the people who are in 
that community college, who are overwhelmingly students of 
color, are going to benefit remarkably from that.
    Our Ready to Work grant, which is a grant designed to get 
the long-term unemployed back to work, is designed to take 
innovative practices from across the country and lift them up 
through our grant making. In addition, work we are doing in the 
My Brother's Keeper initiative is designed to get at young men 
of color.
    Also, Congress has consistently provided support for former 
offenders, which is very important because former offenders are 
people who have significant barriers to getting back into the 
workforce. And I am very proud of the work that we have done 
there. And frankly, I think one of the most important things we 
could do to address these issues of disparities is raising the 
minimum wage because you know the data on that.
    Ms. Lee. Yes, 900,000 people lifted out of poverty. How 
about Job Corps?
    Mr. Womack. The gentlelady's time has expired.
    Ms. Lee. The second time around. Okay. We will talk about 
that later.

                   H-2A AND H-2B LABOR CERTIFICATIONS

    Mr. Womack. The gentleman from Maryland, Mr. Harris.
    Dr. Harris. Thank you very much.
    Secretary Perez. Good to see you again, sir.
    Dr. Harris. Good to see you, Mr. Secretary. I have got 
three areas of questions.
    First, we talked about briefly yesterday H-2A and H-2B 
issues. The employers complain the department has not completed 
the processing applications for labor certifications within the 
statutory deadlines. Will you commit to us today that you are 
doing whatever you can to improve the processing times and 
eliminate the processing backlogs for H-2A and H-2B, which is 
so vital to, as you know, people on the Eastern Shore?
    Secretary Perez. I think we have spoken to many of the same 
employers there over the years. And I very much appreciate 
their plight, and I want to make sure that we do our level best 
to process their applications in a timely fashion. And that is 
what we are working toward, understanding that we also need to 
take our role in terms of protecting American workers 
seriously.
    Dr. Harris. But there is a statutory----
    Secretary Perez. And I look forward to working with you on 
that.
    [The information follows:]

                               QFR Noise

    MSHA's existing noise standard requires that engineering and 
administrative controls be used to reduce a miner's noise exposure. The 
standard provides further that a miner's noise assessment be made 
without adjustment for the use of any hearing protector. MSHA discussed 
hearing protection in the preamble to the Agency's noise standards 
(See: 64 FR 49583-49586) finalized in 1999. Based on the rulemaking 
record, MSHA concluded that personal hearing protectors do not provide 
hearing protection to miners comparable to the protection provided by 
engineering and administrative controls.
    American National Standards Institute (ANSI) S12-19, Measurement of 
Occupational Noise Exposure, is the industry standard on collecting 
noise data and specifies that measurements need to be taken outside the 
hearing protection device.

    Dr. Harris. There is a statutory deadline. So if you could 
do whatever you can.

                  MSHA STANDARD FOR OCCUPATIONAL NOISE

    Secretary Perez. I look forward to working with you.
    Dr. Harris. Second one, second issue is--the last two are 
kind of wearing a physician's hat--you know, the MSHA, the Mine 
Safety and Health Administration's standard for occupational 
noise. Curiously enough to me, you know, there is measuring 
equipment that can measure decibel sounds that actually are 
near the eardrum, which seems to make sense to me. I mean, if 
you want to measure the effect on someone's hearing, you have 
got to measure near the eardrum.
    And yet MSHA still insists on using measurement techniques 
that don't take into account the fact that you can have ear 
protection on. Just curious, why? Why wouldn't you use the best 
technology to actually identify high-decibel noises as close to 
the eardrum as possible?
    Secretary Perez. Well, if you have ideas on how we can do a 
better job of protecting worker safety, because worker safety 
is job one in the MSHA context, and if you think that there is 
a better mousetrap to be built, I want to listen to you and 
figure out if we can do that.
    Dr. Harris. We are going to continue that dialogue.
    Secretary Perez. Look forward to it.

                            SILICA STANDARDS

    Dr. Harris. And the other thing is--the last issue is the 
silica standards. This is puzzling to me because, as you know, 
the permissible exposure level, which Congress passed in 1968, 
were put in place for silica. Since that time, the number of 
deaths from silica, silica-related deaths has decreased 93 
percent.
    Now I would say, you know, as a physician, that is as close 
to a cure of a problem you are ever going to get. I mean, you 
actually decreased the deaths due to silicosis by 93 percent, 
and OSHA, by its own admission, still monitors people, 
employment workplaces, where those old levels are exceeded. And 
yet they are now having--they are suggesting a 50 percent 
further reduction in the silica levels, safe silica levels.
    Now, viewing that you had a 93 percent reduction under the 
old standards. The old standards aren't yet fully enforced. 
What is the justification to going to a lower standard if you 
achieve 93 percent success rate with the old standard?
    Secretary Perez. Well, Congressman, the fact is that in 
2010, more workers died from silicosis than from explosions, 
collapses, or being caught in running equipment or----
    Dr. Harris. What is the absolute number? I know that you 
know it.
    Secretary Perez. I don't know what the absolute number is, 
but I will be happy to get it for you. I can tell you that the 
proposed rule is expected to save close to 700 lives and 
prevent more than 1,600 cases of silicosis each year. That is a 
lot of lives.
    [The information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Dr. Harris. Well, that would be stunning. That would be 
stunning since in 2007, there were less than 200 deaths from 
silicosis.
    Secretary Perez. Well, I actually----
    Dr. Harris. So we are going to have to get our figures 
straight here because----
    Secretary Perez. Well, we will have a conversation about 
that because I have great confidence in the work that our folks 
at OSHA are doing. Secretary Perkins in '37 talked about the 
dangers of silicosis. So we have known about this for a long 
time, and we worked with NIOSH and other experts to make sure 
that we had an evidence-based approach to this.
    We have a very inclusive process, and there are still 
hearings taking place. And so, folks who share your perspective 
have had ample opportunity to weigh in and will continue to do 
so.
    Dr. Harris. So, but if you could just again fill me in, why 
wouldn't OSHA attempt to vigorously enforce the current 
standard before extending--before reducing that standard?
    Secretary Perez. Well, OSHA does----
    Dr. Harris. I just don't understand. Unless it is to just 
go after, and let us face it. This is always a possibility that 
the newest use for silica-containing substances is hydraulic 
fracturing. I get it. I get that the administration doesn't 
want us to do hydraulic fracturing. The world gets it. 
Unfortunately, Mr. Putin gets it.
    Why would you choose again, and you may have to, you know, 
fill me in on what other data is. But why would you reduce the 
standard when you are not enforcing the current standard? And 
by OSHA's own admission, there are many times when the current 
standard is not----
    Secretary Perez. We are enforcing the current standard, 
sir. And people like Alan White, a 48-year-old foundry worker 
who is about to die----
    Mr. Womack. The gentleman's time has expired.
    Secretary Perez [continuing]. Are the things that motivate 
me in this area because he is dying----
    Dr. Harris. What motivates me are thousands of Ukrainians 
who might die because of it.
    Mr. Womack. The gentleman's time has expired.
    Let us go to Mr. Honda from California.
    Mr. Honda. Thank you, Mr. Chairman.
    And welcome, Mr. Secretary.
    Secretary Perez. Good to see you again, sir.
    Mr. Honda. And congratulations for the confirmation of 
Chris Lu.
    Secretary Perez. He is very excited.

                              MINIMUM WAGE

    Mr. Honda. A couple of questions. One is raising the 
minimum wage. I just want to say that the executive order was 
great, and hopefully, it is a behavioral model for the rest of 
the country. Although $10.10 could be low, but it is a great 
start for us.
    The concern I have about the Federal contract workers is 
that under the contract, we may have subcontractors. And the 
question is those subcontractors when they hire folks, are they 
subject to making sure that their workers are getting minimum 
wage?
    Secretary Perez. Actually, right now, the regs are being 
drafted right now to clarify all of the questions that have 
been asked in connection with the application of the executive 
order.
    Mr. Honda. So, hopefully, those who are engaged with the 
Federal contract as subcontractors, that when they sub, that 
their workers are getting at least the minimum, and it would 
cover that.

                          PROMOTING PAY EQUITY

    The promoting pay equity. The administration's effort to 
close that wage gap by prioritizing pay equity for women and 
minorities is laudable. And could you talk a little bit more 
about this thing called pay secrecy, the issue where companies 
or supervisors or bosses telling their folks you can't share 
your information as to your salary or because for different 
reasons. What is the position of the department on that?
    Secretary Perez. Pay secrecy is best illustrated in an 
example. The first pay-equity bill the President signed was the 
Lilly Ledbetter Act, she learned about the fact that she was 
getting treated unfairly in the pay context because a 
coworker--well, actually, I don't know who it was. Somebody 
dropped an anonymous note on her desk.
    And the reason that was the only way she knew about it was 
because there was a prohibition on sharing that salary 
information. And as a result of that, she had no way of 
knowing. And it was not until this anonymous note that she 
started to have awareness.
    And so, that is. I think, as vivid an illustration as I can 
describe of the problem that many people have put forth, and 
this is a problem that the Paycheck Fairness Act, which I 
understand there may be a vote in the next few days in the 
Senate, will seek to address.
    Mr. Honda. Will the bill address pay secrecy?
    Secretary Perez. Yes.
    Mr. Honda. Great.
    Ms. DeLauro. Would the gentleman yield for just one second 
here?
    Mr. Honda. If I get it back from you.
    Ms. DeLauro. Okay. No. [Laughter.]
    Mr. Honda. Sure. Go ahead.
    Ms. DeLauro. Just that the paycheck fairness bill does 
include that, and I just--as I said at the outset, and Mr. 
Secretary, I would love to have the opportunity to talk to you 
or ask you if there is any consideration of an executive order 
to prohibit the Government contractors from retaliating against 
their employers--employees who disclose salary information? 
This works to the detriment of women every single day, 
including an article in the New York Times on it was a Federal 
contractor.
    But New York Times, a young woman found out in the jewelry 
business that she was paid less than the gentleman working next 
to her. He had no experience. And that has led to a furor in 
the industry.
    Mr. Honda. Hopefully, that gets included in the discussion 
and in the rulings.

                          DATA DISAGGREGATION

    On data disaggregation, I have a district that is probably 
the only majority of minority on the mainland besides Hawaii. 
So the question is asking about disaggregating data on the 
Affordable Care Act enrollments across the country to find out 
who is getting what and disaggregating the data on minorities, 
especially Asian Americans because under Asian Americans, there 
is a lot of subgroups that sometimes gets overlooked.
    On the education portion where we talk about academic 
achievement gaps and where people make policies or make 
determinations based upon statistics, the Bureau of Labor 
Statistics, hopefully, you can direct them to disaggregate all 
that information because I think that the model minority myth 
is still out there on Asian Americans, and I think there is a 
lot of communities under Asian Americans, AAPI, are still in 
great need and should be subject to considerations such as 
affirmative action enrollment.
    Mr. Womack. The answer will have to come at a different 
time. Those few seconds that you gave to Ms. DeLauro turned 
into about 30 seconds, and so, Mr. Honda, I am sorry.
    Mr. Honda. That is okay.
    Ms. DeLauro. I will make it up, Mr. Honda. I promise you.
    Mr. Honda. It was well worth it. Thank you.
    Mr. Womack. That is assuming there is another round, 
which----
    Ms. DeLauro. I always make that assumption.
    Mr. Womack [continuing]. Appears in doubt. Let us go to Mr. 
Stewart from Utah.
    Mr. Stewart. Again, thank you, Mr. Chairman.

                         GOVERNMENT REGULATION

    Mr. Secretary, I think you sense my passion on some of 
these things and the defense of the family farm in previous 
questions. I want to kind of get the bigger picture from you, 
if I could, and I think illustrate what I think this 
conversation is really about.
    But before I do, let me ask, have you ever been a business 
owner or worked in the private sector as a business leader?
    Secretary Perez. Have I been--I have been on the boards of 
nonprofits who have been doing a lot of work in communities, 
and I speak to business owners every week to make sure I am 
informed.
    Mr. Stewart. But have you, yourself, ever been a business 
owner?
    Secretary Perez. No, I haven't, sir.
    Mr. Stewart. Okay. You know, I think this is just this 
entire hearing is a great example of, I think, the conflict 
that we are engaged in at this time as a society and as a 
people. And it is this question of what is the proper role of 
government?
    How do we--how powerful do we want our government to be? 
How much reach do we want our government to have? And how do we 
find a balance between what we recognize is a public good, 
because there is a role in government in regulating some of 
these industries, and on the other side is liberty and business 
interests.
    Again, the family farm. There is nothing more American than 
a family farm. And I think if you wanted to start a sagebrush 
rebellion, then advocate that we have OSHA inspectors step onto 
family farms, true family farms.
    I have two beautiful daughters. I want for them the same 
thing that you and other Members here want. I want them to be 
treated fairly. I want them to be paid fairly. I don't want 
them to be harassed. That is not a partisan issue, and I am 
afraid sometimes it appears or the narrative that some would 
like to create is that it is.

                          COST OF SILICA RULE

    I would like to follow up on Dr. Harris' questions, if we 
could, and that is the new rule for silica, which is quite 
concerning to me. Just review very quickly. It used to be the 
current standard 100 micrograms per cubic meter, 250 for a 
construction industry. The new rule would propose to reduce 
that to 50 micrograms for all industries.
    But before a rule like that should be implemented, I think 
there are two criteria, and this is not in my estimation. This 
is, of course, the standard that it would be economically and 
technically feasible. And I don't know that it would be either 
one of those, that this new rule would meet that standard.
    Let me talk about economically very quickly. The 
Government's estimate said it would be $637,000,000, the cost 
to implement this. If it turned out to be only that cost, it 
would be the first time in the history of the universe that the 
Government accurately predicted the cost of a new rule or 
regulation rather than underestimating it.
    Business puts it at something between even as high as 
$5,450,000,000 annually. Let us split the difference and say it 
is $2,500,000,000. Does that seem to be economically feasible 
as to implement this rule at that kind of cost?
    And let me follow up with that. The REINS Act, which the 
Congress has supported, which would allow Congress to have 
input to any rule that had a greater economic impact than 
$100,000,000, does that seem like a reasonable standard? If 
something had greater economic impact than that, that Congress 
should have some input to that?
    Secretary Perez. Well, sir, there has been a tremendous 
amount of input into the rulemaking process in the silica 
context. We were asked, I think, on two different occasions to 
extend it. We acceded to it. We are in the middle of 2 or 3 
weeks' worth of hearings as we speak, and we are hearing from a 
wide array of stakeholders, including a number of stakeholders 
who are providing their views that are very, I think, similar 
to the views that you are expressing here.
    As I said before, regardless of whether it is the 503 
process, which Governor Ridge described as a very inclusive 
process, or the silica process or the process in any other 
regulatory context, we hear from everyone. We build into the 
process enough time to make sure that we are making informed 
judgments, which is why, again, we extended the deadlines and 
the hearing more than once.
    Mr. Stewart. I appreciate that.
    Secretary Perez. And so, we will continue to do that 
because that is what we need to do. And the rulemaking 
procedures help us to make these informed decisions.
    Mr. Stewart. And let me go quickly because I have got the 
yellow light. I hope you will consider the actual cost of this, 
which could be billions of dollars, billions of dollars, and 
the impact that is going to have on people who are trying to, 
as we talked earlier, about getting jobs and creating jobs.

               TECHNICAL FEASIBILITY OF SILICA RULEMAKING

    The second thing I want to ask you, though, as to technical 
feasibility. And that is that there are some indications that 
even in the laboratory setting, you can't measure accurately 50 
parts. And if you can't measure it, how can we possibly enforce 
a rule that is based on that?
    Secretary Perez. Well, again, we are hearing a lot of 
different feedback during the rulemaking process. We heard 
feedback precisely to the contrary of what you just said, and 
we are processing all of that feedback in a very methodical 
way.
    Mr. Stewart. Thank you.
    Mr. Womack. We continue in round two. We still have the 
following Members in this order to have questions in round 
two--Mr. Honda, Mrs. Roby, Mr. Kingston, and Mr. Harris.
    The chair yields to the gentleman from California, Mr. 
Honda.

                        WORKER MISCLASSIFICATION

    Mr. Honda. Thank you, Mr. Chairman. I get my cookies early.
    Mr. Secretary, under worker misclassification, one of the 
issues I hear most about when I talk to folks in construction 
is that the work in the building trades, this is an issue about 
misclassification. A lot of the workers are misclassified as 
independent contractors by their employer, which really makes 
it easier for them to underpay employees, shift the normal tax 
burden from employer to employee and then deny them benefits.
    The GAO estimates that the misclassification cost to the 
Federal Treasury is about $2,720,000,000 every year in unpaid 
Social Security, unemployment, and income taxes. So the 
employee misclassification really undermines the labor 
protections that working people have a right to. So can you 
describe what the department is doing on the regulatory end to 
crack down on this behavior, and how the $14,000,000 that the 
department requests, what they will do with that and how they 
will achieve the addressing of the misclassification?
    Secretary Perez. Well, thank you for your question. And 
misclassification of employees as independent contractors is a 
very serious issue, and it is one that we take very seriously. 
I hear from employers with regularity who tell me, and here is 
one anecdote that comes to mind.
    One builder who is building homes, and he is playing by the 
rules. And yet another homebuilder continues to undercut him, 
because he pays all of his employees under the table because he 
calls them independent contractors. The one who plays the rules 
can't compete.
    So there are really three sets of victims. There is the 
worker him or herself whose wages are undercut. There is the 
employer who is playing by the rules who now has to either 
cheat or not get the bid. And then there is the Treasury. When 
you do this, you don't pay workers' comp taxes. You don't pay 
unemployment insurance taxes, and the Treasury suffers.
    And that is why we have been very aggressively involved in 
attacking this challenge. And it is a challenge that certainly 
occurs in the building industry, but it is certainly by no 
means limited to the building industry. And that is why we have 
folks in our Wage and Hour Division who are actively involved 
in these investigation and enforcement efforts.
    Mr. Honda. What do you think that the $14,000,000 
investment will return back to the Treasury? We lose about 
$2,700,000,000. What do you think the return might be on that?
    Secretary Perez. Well, there have been numerous studies 
that have documented the loss to taxpayers and the overall loss 
as a result of misclassification. This investment in the 2015 
budget in my mind is a drop in the bucket compared to the 
return that you can get to taxpayers and/or employers and the 
workers. You know, the three victims will all benefit when we 
are making sure that there is a level playing field.
    Mr. Honda. So we should be able to hear about the responses 
in terms of the equity in the work field and also the return on 
our investment by the end of next year then?
    Secretary Perez. Sure. And we are also working with a 
number of States on this issue. We have signed MOUs with 14 
States, and they run the gamut--Iowa, Washington State, Utah, 
Louisiana--because this issue is not an issue that is just a 
Northeast issue, a Southwest issue. This issue is everywhere.
    And you know, this is a corner you can't cut as an 
employer. It is cheating, and we need to stop it.
    Mr. Honda. And hopefully, that Members of the House of 
Representatives will take some time to go out there and check 
and be partners with you to make sure that this investment is 
going to have a return for our coffers.
    So thank you, Mr. Secretary.
    Thank you, Mr. Chairman.
    Mr. Womack. The gentlelady from Alabama, Mrs. Roby, is 
recognized.

                      ON-THE-JOB INJURY STATISTICS

    Mrs. Roby. The information that I have says in Alabama 
there were 4.8 total injuries per 100 full-time employees in 
2012. In Georgia, there were 3.7 total injuries per 100 full-
time employees. And the national average is 5.2. This came from 
the Bureau of Labor Statistics.
    I understand you said you have differing data than that. 
This is the most current, most public information available. 
And so, it is my hope that you will get that which seems 
contrary to this to us in a very expedited manner.
    But with that said, I want to move on.
    Secretary Perez. Happy to get it to you because that data, 
it is 4.6 percent in--4.6 in Alabama. And the same industry 
across the country is 3.0. So we are happy to get you that 
data.
    [The information follows:]

                     Injury and Illness Statistics

    Worker injury and illness data supports the decision to focus on 
the auto supply parts industry. The most recent Bureau of Labor 
Statistics (BLS) data show that the auto parts supplier industry in 
Alabama has a higher injury and illness rate--4.6 per 100 full-time 
workers--than the same industry nationwide which had a rate of 3.0 per 
100 full-time workers.

    Mrs. Roby. Yes, absolutely, because it is contrary to what 
we have.

              UNION OFFICIALS ACCOMPANYING OSHA INSPECTORS

    Secretary Perez. Okay.
    Mrs. Roby. But that being said, another issue that runs 
parallel from a timing standpoint to this REP is the newly or 
new interpretation of the walk-around rule. And in February of 
2013, OSHA stated that employees not subject to a collective 
bargaining agreement can designate an outside individual 
affiliated with a union to accompany OSHA agents on their 
inspections, even to open shops.
    This is a pretty extraordinary thing. Under this policy, a 
person who is not associated with neither the Government nor 
the employer can gain access to a private business even against 
the wishes of the owner. This policy, and this is the most 
concerning part, was not the result of a promulgated rule 
subject to public comment, the normal transparent process. 
Instead, the interpretation of--this new interpretation from 
OSHA is in response to an inquiry from a union.
    I don't think you and I would disagree at all that the law 
has not changed. The law is the same. The definitions are 
clear. What we are in disagreement about is how the practice is 
being implemented. I mean, according to news reports in other 
parts of the country, this practice is taking place.
    So here is my question, and it is just a yes or no 
question. I want to know if it is your position that OSHA could 
unilaterally bring along to an inspection, based on this REP in 
a right-to-work State in a nonunionized business, bring along a 
union representative for that inspection?
    Secretary Perez. Congresswoman, there are a number of 
faulty premises to your question.
    Mrs. Roby. Yes or no?
    Secretary Perez. I am unable to answer your question 
because your premise is incorrect. This is not a change in 
OSHA's policy, and I am happy to get you the 1971 regulation 
that----
    Mrs. Roby. I have got the regulation. What I have also got 
is an interpretation letter----
    Secretary Perez. Sure.
    Mrs. Roby [continuing]. From OSHA, from the inquiry of a 
union representative that wanted to know may one or more 
workers designate a person who is affiliated with a union 
without a collective bargaining agreement at their workplace or 
with a community organization to act as their personal 
representative? And the answer is yes.
    And so, my understanding of the law, which is this, the 
representatives authorized by employees shall be an employee of 
the employer. That is clearly in contrast to the letter of 
interpretation. And what I need to know is can we expect during 
this 2-year period, when OSHA is coming into these auto plant 
manufacturers whether or not OSHA will unilaterally designate a 
union representative to join that inspection? That is the 
question.
    Secretary Perez. Ma'am, OSHA is not unilaterally 
designating anyone. And again, this is not new and nor do when 
a representative comes in, nor do they come in against the 
wishes of the employer. There was an example----
    Mrs. Roby. But wait, sir. We have--I mean, there are 
examples across this country--and the light is yellow. But 
according to National Review, union organizers are showing up 
at OSHA inspections of open shop businesses that have been 
targeted by the country's second-largest union. I mean, there 
are stories after stories across this country where this is 
happening.
    And so, again, I want to know what your position is, as the 
Secretary of Labor, whether or not we can expect to see union 
representatives show up at a nonunionized business to walk 
along with your inspectors in a place where the employees have 
not designated that person as their representative? And I look 
forward to getting your answer in writing.
    Secretary Perez. And I look forward to providing answers 
and clarifying what the law actually is and the longstanding 
policy.
    [The information follows:]

                         Walkaround Inspections

    Allowing non-employee third-party representatives to accompany OSHA 
inspectors on inspections is not a new OSHA policy. Section 8(e) of the 
OSH Act provides that ``[s]ubject to regulations issued by the 
Secretary, a representative of the employer and a representative 
authorized by his employees shall be given an opportunity to accompany 
the Secretary or his authorized representative during the physical 
inspection of any workplace . . . for the purpose of aiding such 
inspection.'' Allowing a third party representative to accompany OSHA 
compliance officers on an inspection is solely related to protecting 
workers by achieving an effective and thorough health and safety 
inspection and consistent with the law and long-standing OSHA 
regulations.

    Mr. Womack. The chair now recognizes the gentlelady from 
California, Ms. Roybal-Allard.
    Ms. Roybal-Allard. First of all, I want to thank 
Congresswoman Rosa DeLauro for giving some examples of how 
dangerous it is for children working in agriculture. And I will 
submit my question for the record on that particular issue.

             ADDRESSING DOMESTIC VIOLENCE IN THE WORKPLACE

    Ms. Roybal-Allard. I strongly have been supportive of 
President Obama's recent directive requiring Federal agencies 
to develop policies for addressing domestic violence in the 
Federal workplace. I have two parts, a two-part question.
    Does the Department of Labor have a timeline for 
implementing these new policies to address domestic violence 
issues, as directed by the President? And second, as part of 
its new policy, will the Department of Labor consider extending 
economic protections to its employees in three areas--allowing 
domestic violence survivors to take up to 30 days of unpaid 
leave each year to receive medical care, seek legal assistance, 
attend court proceedings, and to get help with safety planning?
    Second, protecting employees from being fired because they 
were harassed by their abuser.
    And third, if requested and reasonable, making workplace 
safety precautions or job-related modifications.
    Secretary Perez. This has been--we have been very heavily 
involved. And I want to, first of all, thank you for your 
leadership on this issue because it is a critically important 
issue.
    We convened a workgroup of human resources professionals 
and folks in our department to address this, and the answer is, 
we expect to have a final plan before the end of this fiscal 
year. So the fiscal year ends end of September. We will get it 
done before then.
    As it relates to the second part of your question, we have 
an absence and leave policy that allows employees to take up to 
30 days or more in circumstances such as the ones that you have 
described. I have worked in this area quite a bit, and these 
are unconscionable situations when they arise. What we want to 
do is make sure we prevent them from arising. And if, God 
forbid, they do arise, that we have very clear, unequivocal, 
fair policies for responding so somebody who is a victim 
doesn't get victimized a second time.
    Mr. Womack. Does the gentlelady yield back her time?
    Ms. Roybal-Allard. I yield back.
    Mr. Womack. The gentleman from Georgia, the subcommittee 
chairman, Mr. Kingston.
    Mr. Kingston. Thank you, Mr. Chairman.
    Mr. Secretary, okay, going back to the military 
installations.

                     MINIMUM WAGE ON MILITARY BASES

    Secretary Perez. Sure.
    Mr. Kingston. With that health and welfare benefit and the 
minimum wage increase, it would mean $13.91 an hour. And I 
don't know how a fast food restaurant would be able to keep the 
doors open at that.
    Secretary Perez. I am happy to have our Wage and Hour 
Division meet with you to explain the application of this in 
military installations and everywhere else because we have been 
working vigilantly to put the regs forth to prepare for this, 
and this question or other questions that you may have, we are 
more than willing to sit down with your staff and walk you 
through every question, concern that you have.
    Mr. Kingston. Okay. We don't necessarily have to meet as 
long as we could get prompt answers.
    Secretary Perez. Certainly.
    Mr. Kingston. So, you know, as long we get the information 
from you. I want to pursue it.
    Secretary Perez. Sure. No, I am happy to do that for you, 
sir.

                 INCLUDING SURVEYORS UNDER DAVIS-BACON

    Secretary Perez. Okay. Surveyors have for 50 years not been 
included under the labor law of Davis-Bacon, but recently, you 
included surveyors in there and did not have public comment for 
the professional surveying community to respond to it.
    Secretary Perez. I am sorry. I wasn't sure if you were----
    Mr. Kingston. I wasn't sure if you were ready, or she was 
ready, or we were ready.
    Secretary Perez. I think you are referring to a memorandum. 
The Wage and Hour Division has historically recognized that 
members of survey crews performing primarily physical and 
manual labor on a Davis-Bacon project on the site of the work 
immediately before or during the construction may be laborers 
and mechanics subject to the Davis-Bacon Act.
    And the memorandum that you are talking about constitutes 
the rearticulation of when and whether Davis-Bacon Act labor 
standards should apply to members of survey crews. And we have 
certainly heard some of the concerns that you have mentioned, 
and we have extended an offer for them to come and sit down 
with us to discuss this so that we can understand their 
concerns and clear up any confusion.
    Mr. Kingston. Okay, so you are saying there has not been a 
change in the policy, which I think would give some comfort----
    Secretary Perez. That is correct. There has not.
    Mr. Kingston. Okay. So there may be some misunderstanding?
    Secretary Perez. Correct. And that is why we are in the 
process of meeting with them to address the concerns that they 
have.

                            HOT GOODS ORDER

    Mr. Kingston. Okay. I want to get back to wage and hour 
violations on the farm. What are the kinds of tools you have 
for violations, and does it include the hot goods order?
    Secretary Perez. Well, the hot goods order, the tools we 
have on--let me just make sure. We were talking before about 
family farms and safety. I assume you are now pivoting to a 
different line of questioning? Okay. I just want to make sure I 
am answering your questions.
    Hot goods, that provision has been part of the toolkit for 
wage and hour enforcement for decades, and the application of 
hot goods is very fact specific. And hot goods are not simply 
on farms, but they are also--they have been used historically 
in the garment industry as well. And the use is very much fact 
specific, depending on the particular circumstances of the 
case.
    Mr. Kingston. So a farmer who is maybe having a first 
violation probably would not have hot goods, the hot goods 
order?
    Secretary Perez. Well, again----
    Mr. Kingston. It would be more--unless it is just 
completely based on the facts and not an interpretation then?
    Secretary Perez. Well, again, it is important to understand 
that the department does not have the authority to issue a hot 
goods order, and every case is very fact specific. If somebody 
is a repeat offender, they may be more likely to have a hot 
goods order. But there are sometimes egregious violations in a 
particular circumstance even if they are a first offender--that 
may call for it.
    And so, it is impossible to give a generalization of when 
that would be used, other than to say that they are very fact 
specific, and they are used carefully and sparingly, and they 
have been used carefully and sparingly in Republican and 
Democratic administrations.
    Mr. Kingston. Yes. I think this has to do with a court case 
in a farm in Oregon in 2012, and what I would like to do is we 
will get very specific on it. Because I think that what our 
farmers want to make sure is that you are not using it for a 
first-time violator or you are not using it subjectively. And 
that is what the big question really is.
    Secretary Perez. I look forward to your questions.
    Mr. Kingston. Okay.
    Mr. Womack. Dr. Harris will wrap up round two.
    Dr. Harris. Oh, thank you.

                       REVISED SILICA REGULATIONS

    Okay. Let me just go ahead and just go back briefly to the 
silica. You said that the new levels would prevent 5,000 
deaths. Is that the number?
    Secretary Perez. No, I said 700, sir.
    Dr. Harris. Oh, 700 deaths over what period of time is 
that?
    Secretary Perez. The proposed rule is expected to save 
close to 700 lives and prevent more than 1,600 cases of 
silicosis each year.
    Dr. Harris. Seven hundred deaths per year?
    Secretary Perez. Right.
    Dr. Harris. The CDC says there are only 150 deaths from 
silicosis. Is that new math?
    Secretary Perez. No, sir. Again----
    Dr. Harris. Or I mean, CDC--you are aware the CDC says 
there are 150 deaths per year from underlying contributive 
causes of silicosis. How in the world can you prevent 700 when 
there are only 150 a year?
    Secretary Perez. Well, actually, we have looked at a wide 
array of data that suggests that I think your numbers--and 
again, this may be the same thing we had with Congresswoman 
Roby.
    Dr. Harris. Okay. Let me give you Mr. Reich's--let me give 
you Robert Reich's numbers from a Department of Labor handbook 
on silicosis claims there are 250 deaths a year.
    Secretary Perez. Well, again, you know----
    Dr. Harris. Okay. Do you disagree with Secretary Reich, 
that assessment?
    Secretary Perez. Sir, I don't have the data at hand, and I 
am happy to sit down with you and----
    Dr. Harris. But I do have the data at hand, and we are 
going to have to figure this out because if there are 150 
deaths a year, I don't know how you prevent 700 a year. It is 
just I don't understand the math.

                        WALK-AROUND INSPECTIONS

    Let me go back to the gentlelady Mrs. Roby from Alabama's 
question because I don't get this. You know, when I read the 
code that deals with these walk-around inspections from OSHA, 
the code is quite clear that you are supposed to have someone 
there when it is reasonably necessary to conduct an effective 
and thorough physical inspection.
    When is a union representative reasonably necessary to 
conduct an effective and thorough physical inspection of a 
nonunionized workplace?
    Secretary Perez. Well, people who----
    Dr. Harris. Can you just give me an example? Just give me 
an example of, well, why you have to pick a union--why there is 
no other person in the world, why you don't have the expertise, 
why your inspector is not an expert enough?
    Secretary Perez. Let me clarify something, Congressman. We 
are not picking the experts. Someone, an employee says, ``I 
would like this person to come.'' We are not--we don't have a 
Rolodex of people that we call in and say, ``Hey, come on with 
us. We are doing an inspection.''
    Somebody will say this is an issue, and we would like to 
have someone come in. And it may--and sometimes it is somebody 
who is a translator because----
    Dr. Harris. Who is the compliance safety and health 
officer?
    Secretary Perez. The compliance safety and health officer--
--
    Dr. Harris. Yes, what is that job? Is that a Department of 
Labor person?
    Secretary Perez. Well, that can be a Department of Labor 
person, but it also can be people, people in unions, people in 
nonunions that have----
    Dr. Harris. In a nonunion workplace who--okay.
    Secretary Perez. Well, if I could just finish, sir?
    Dr. Harris. Has the Department of Labor compliance safety 
and health officer ever brought in or found it reasonably 
necessary to bring a union person in to conduct an effective 
and thorough physical inspection of the workplace in a 
nonunionized workplace?
    Secretary Perez. I don't know----
    Dr. Harris. For example, let us just leave it for 
Department of Labor employees. You are responsible for them, 
right?
    Secretary Perez. Well, sir, I don't--well, sir, I don't 
have all of the data on every time somebody has made a request.
    Dr. Harris. That is another place you don't have data. 
Good. Okay. But you certainly have those anecdotal cases to 
present to the committee. I wish you would have anecdotal cases 
on something like this.
    Secretary Perez. Well, actually, I could give you one if 
you would allow. But if you won't, that is fine, too.
    Dr. Harris. So let me ask. An anecdotal case? No, I don't 
want anecdotal cases. I understand--I am a physician. I 
understand the importance of or unimportance of anecdotal 
cases.

                 COMPLIANCE SAFETY AND HEALTH OFFICERS

    But the code says that in the judgment of the compliance 
and safety--so the compliance safety and health officer, how 
often is that person a Department of Labor employee?
    Secretary Perez. In what context, sir?
    Dr. Harris. In the context of deciding who is going to be 
reasonably necessary to conduct this inspection.
    Secretary Perez. Are you reading--I am just trying to get a 
handle on what you are----
    Dr. Harris. I am reading Federal regulation 29 CFR 
1903.8(c).
    Secretary Perez. Okay. I think I may have that.
    Dr. Harris. I assume you have no quarrel with--well, I 
guess it is statute. Well, I don't know.
    Secretary Perez. Sir, it is a 1971, I believe, regulation.
    Dr. Harris. Okay. Whatever it is, that is your regulation. 
That is the regulation under which you operate. So is the 
compliance----
    Secretary Perez. That is an OSHA inspector.
    Dr. Harris. So it is an OSHA inspector.
    Secretary Perez. Yep.
    Dr. Harris. So the OSHA inspector is making the 
determination that a unionized--that a union person is 
reasonably necessary to conduct the effective and thorough 
physical inspection? Let us just clarify that for the 
committee. It is one of your employees making that 
determination under that code or regulation?
    Secretary Perez. No, under that code, sir, as well, a 
person can come in who--an employee can request to have 
somebody else come in. Again, because the----
    Dr. Harris. But the compliance safety and health officer 
has to make the determination. It has to be in their judgment. 
Is that correct? Am I reading this regulation correctly?
    Secretary Perez. Well, again, and what we do in those 
circumstances is we are not reaching out to other people in 
response to a request from somebody for information----
    Dr. Harris. But the compliance safety and health officer 
has to determine that that individual is necessary.
    Secretary Perez. If I could----
    Mr. Womack. We are out of time for Dr. Harris.
    Dr. Harris. Thank you very much.
    Mr. Womack. And finally, the gentleman from Tennessee, Mr. 
Fleischmann.
    Mr. Fleischmann. Thank you, Mr. Chairman.
    And Mr. Secretary, it is good to see you today.
    I apologize to the committee. As you know, we are running 
concurrently in other subcommittees, Mr. Chairman, and this is 
my third subcommittee today.

                        WIA 15 PERCENT SET-ASIDE

    Mr. Secretary, the 15 percent allocation authorized by the 
Workforce Investment Act was reduced to 5 percent in fiscal 
year 2012. The change forced the Tennessee Department of Labor 
to discontinue funding for several important programs like the 
Jobs for Tennessee Graduates program, the Career Readiness 
Certificate program, and the Apprenticeship Grants program, 
just to name a few. This was intended to be a one-time 
reduction to promote accountability and timely use of funds, 
and we have since seen a great progress in both of these areas.
    The Fiscal Year 2014 Consolidation Appropriations Act did 
partially restore the set-aside to 8.75 percent. I am curious 
as to why there is a reluctance to return the set-aside to 15 
percent. The department carried that language for over a 
decade.
    Instead, the 2015 budget request proposes holding that 
plus-up at 8.75 percent and again includes proposals to 
increase support for the Workforce Innovation Fund and create 
other new WIA grant programs.
    My questions are this. Why create new grant programs when 
States know best how to serve their own populations, and 
secondly, does the department believe that the set-aside should 
be restored to the authorized 15 percent level, or does it 
intend to be a permanent reduction in order to continue to have 
WIA funds to spend at the Federal level on new programs and 
demonstrations, sir?
    Secretary Perez. Thank you for your question, Congressman.
    As a former State labor secretary, I am very familiar with 
the 15 percent funds, and in an ideal world, we would love to 
be at a 15 percent level. But the reality is that we are having 
to live within our means. The actual reality is that the only 
way to get there would be to take money from the formula grants 
that goes to local governments.
    So you end up in a situation where you are pitting the 
State against the local authorities, and that is the challenge 
that we confront. You mentioned the Workforce Innovation Fund. 
That is, I think, somewhere in the $50,000,000 category, and 
that has also catalyzed a lot of innovation.
    And even if you took that money, that would only get you up 
to maybe 9 percent. And I think that money has been well spent 
in the Workforce Innovation Fund. We just had a conference last 
week with all of the grantees, including a number of States who 
have done great work in that area.
    And so, I think there is a very important role for this 
set-aside, and the dilemma that we have here in the austere 
times that we find ourselves in, is I don't think that we can 
afford to take more money that would go to the local workforce 
investment boards, which is what you would, in effect, I think, 
have to do in order to move that percentage up further.
    We are certainly committed to working with you to identify 
ways to continue to move in the right direction. And we are 
better off now than we were a couple of years ago on this set-
aside fund, and I look forward to working with you to figure 
out how we can do more.

                      VOLUNTARY PROTECTION PROGRAM

    Mr. Fleischmann. Thank you.
    Mr. Secretary, I would like to ask you about the Voluntary 
Protection Programs, or VPP, sir. There are 42 VPP sites in 
Tennessee, with several in my district, including DENSO 
Manufacturing, IP Royal Blue Chip Mill, and Energy Solutions 
Bear Creek Operations.
    VPP promote effective worksite-based safety and health. VPP 
management, Labor, and OSHA establish cooperative relationships 
at workplaces that have implemented a comprehensive safety and 
health management system. A 2007 study found that VPP saved 
private industry $300,000,000 in 1 year, with an additional 
$59,000,000 in savings realized by Federal Government worksites 
as a result of increased productivity and reduced compensation 
costs.
    My understanding is that funding for VPP has decreased 
dramatically since 2010. My question is why funding for this 
program has decreased when it has had such a great rate of 
return, and where have those funds been reallocated, sir?
    Secretary Perez. Well, I am a strong believer in the VPP 
program as well. It has been a very successful program. 
Regrettably, there are a number of successful programs--I think 
a lot of the set-aside program in your previous question has 
been a very useful program, and as a result of the shrinking of 
the DOL budget, a number of things have been lessened.
    But we are certainly maintaining that program, and I 
certainly appreciate your support for it.
    Mr. Womack. The gentleman's time has expired.
    The chair would like to inquire of the Secretary how much 
time--this hearing was scheduled until 12:30 p.m.. May we 
inquire as to what the Secretary's availability is in the event 
that there would be a third round of questions?
    Secretary Perez. I will make myself available if you--I 
think I have to be gone at----
    Mr. Womack. Staff has maybe a different answer?
    Secretary Perez. 12:45 p.m. is when I have to leave, or 
12:40 p.m., I think, because I have a meeting at 12:45 p.m.
    Mr. Womack. Okay. Then pursuant to the chair's prerogative, 
here is how we are going to proceed. We are going to go to a 
third round of questions, and I am going to limit the timeframe 
to 2 minutes, to 2 minutes to be respectful of the Secretary's 
time.

                            OFCCP OMSBUDMAN

    So, Mr. Secretary, I want to go back, at the risk of 
sounding like a broken record on OFCCP, but I want to ask you 
about the ombudsman's program. Because in past administrations, 
there has been an ombudsman's program, and I understand that 
that program is no longer available. So is that true? If there 
is such a program, can you explain it to me?
    Secretary Perez. Well, my understanding is that if there 
are people who have concerns about what is happening, they have 
a number of ways in which they can express those concerns to 
the Department of Labor, including----
    Mr. Womack. What are those? What are some of those ways?
    Secretary Perez [continuing]. The Office of the Inspector 
General is----
    Mr. Womack. Do you get a lot of those complaints?
    Secretary Perez. I would have to ask the IG what they get 
complaints about, and what the----
    Mr. Womack. Are you aware of any complaints?
    Secretary Perez. I have never asked that question. So I 
really can't give you an educated answer about whether----
    Mr. Womack. As the leader, would that be something that you 
would be interested in, to see if maybe the heavy hand of 
Government is I hate to use the word ``abusive'' in its 
prosecution of its duties, but maybe a little heavy-handed?
    Secretary Perez. Well, I will reiterate what I said a 
number of times to you, Congressman, which is if you have 
examples of employers who feel like they were mistreated, 
please bring it to our attention because I want to know.
    Mr. Womack. I am asking about--I am just picking your brain 
on leadership. In common leadership, is that a principle that 
would guide? Is that something that would be important to you 
as a leader of an organization?
    Secretary Perez. Well, we have always made sure that we 
have processes that are inclusive and transparent and that 
people have opportunities to let us know what they believe 
and----
    Mr. Womack. But you are not aware of--you are not aware of 
any specific cases, anecdotal evidence that the agency is 
heavy-handed in the prosecution of its duties?
    Secretary Perez. Well, again, I have been in this line of 
work for a couple dozen--for quite a while, sir. And when a 
place like OFCCP or the Civil Rights Division comes in and says 
we are initiating an investigation, you know, people don't 
throw a party. I understand that, and that is why we have to be 
professionals.
    Mr. Womack. I recognize that. So for the attempt, my 
thanks.
    Ms. DeLauro.
    Ms. DeLauro. Thank you, Mr. Chairman.
    For the record, in the recent case, it was at the request 
of the Spanish-speaking workforce at a janitorial services 
company that asked that there be a union representative there 
to help to interpret for them. So that is just for the record.

                            SILICA EXPOSURE

    In addition to that, silica is classified as a carcinogen. 
Inhalation of tiny particles causes silicosis, a severely 
disabling lung disease that can lead to death. OSHA's exposure 
limits for crystalline silica were adopted in 1971 and have not 
been updated.
    Whether or not we are talking about 700 lives or 150 lives, 
these are people's lives. It is their families' lives. If they 
cannot be protected on the job and lose their life, we have a 
moral responsibility to do something about that.
    Last week, a group of construction workers came to see me. 
They talked about working in construction, covering their mouth 
and their noses with masks and yet, at the end of the day, 
being caked with dark powder on their faces, in their eyes, and 
in their nostrils because the masks didn't work to block the 
tiny silica particles. No one told them about the dangers of 
the carcinogenic cloud of silica dust that enveloped them all 
day long.
    They made a very simple and a very reasonable request. Pass 
the rule to make their industry safer. Preventive measures, 
prewetting the surface of construction material to limit silica 
dust, along with access to better training and safety equipment 
so that, in fact, they might be able to survive.
    I am begging you, Mr. Secretary, tell us that you are 
moving forward with a lifesaving rule because millions of low-
wage workers across the country continue to risk their lives, 
and when we know how to prevent the painful and unnecessary 
disease.
    My final question to you, Mr. Secretary, is about the Job 
Corps. The gentleman will yield his time to me, he has told me.
    Mr. Womack. Stand by, Ms. DeLauro. We have a solution.
    Because he has to leave the hearing, I am going to 
recognize the chairman of the subcommittee, who has expressed 
to me---
    Ms. DeLauro. I am always happy to yield to the chairman of 
the subcommittee, Mr. Kingston.
    Mr. Womack. He wants to yield his time to you. So that is 
how--and we will come back to you.
    Ms. DeLauro. I thank the gentleman very much.
    Mr. Womack. The gentleman is recognized.
    Mr. Kingston. And Mr. Secretary, I am going to submit a 
couple of questions for the record because I would just like 
them to kind of move up the food chain. One of them is about 
your webinars to union folks, but not doing webinars on fair 
labor standards for small businesses because I think they would 
need to know that.

                          JOB CORPS ENROLLMENT

    Mr. Kingston. But I want to yield to Ms. DeLauro the 
balance of my time, and having a representative from our local 
Job Corps in the audience here, Mr. Mel Gaines, I think it 
would be timely to get your Job Corps question in.
    Thank you.
    Mr. Womack. The gentlelady is recognized.
    Ms. DeLauro. Thank you very much, Mr. Chairman. Thank you.
    Last year, several of us worked extremely hard to restore 
funding to the Job Corps that had been cut due to 
sequestration. We were successful in those efforts, and now Job 
Corps is back on a better path. It is fulfilling its mission to 
serve disadvantaged young people.
    We know that most centers are ready, and they want to 
enroll more students. And this year, I will continue to push 
for the necessary support for what this program needs.
    I have seen the good work done by Job Corps centers in 
Connecticut. No investment is more critical than investment in 
education for our young people.
    Mr. Secretary, can you tell us about the department's plans 
to continue investing in this program going forward? And will 
you be able to get back to the number of student slots that we 
have had in the past?
    Secretary Perez. Well, our goal is to get up to 37,000 this 
year. We are--and that is what the budget permits. And as we 
ramp up to that, the methodology we are going to be using is to 
allocate those to the high-performing Job Corps sites because 
you are absolutely right, and there has been bipartisan support 
for this soon to be 50-year-old initiative.
    We have been working hard because we fell short at the 
Department of Labor, and we recognize that. We have been 
working vigilantly to implement all the recommendations from 
the Inspector General, and we are making tremendous progress. 
And, I have been visiting Job Corps sites. I will be at one 
this weekend in Iowa.
    There are tremendous opportunities for people, and we are 
going to continue to make sure that everyone that we can get 
enrolled, is enrolled.
    Ms. DeLauro. And we will invite you to come to New Haven, 
Mr. Secretary.
    Secretary Perez. I would love to.
    Ms. DeLauro. Thank you.
    Mr. Womack. Mrs. Roby, your 2-minute drill is underway.

              UNION OFFICIALS ACCOMPANYING OSHA INSPECTORS

    Mrs. Roby. So there is a rule. The representatives 
authorized by employees shall be--``shall,'' mandate--be an 
employee of the employer. And then, sir, there is an exception 
to the rule with the ``however'' that says, ``If in the 
judgment of the compliance safety and health officer,'' which 
is the OSHA employee, ``good cause has been shown as to why 
accompaniment of a third party who is not an employee of the 
employer''--by the OSHA employee makes this determination, not 
the employee, because there is a ``shall'' in there--``such as 
an industrial hygienist or a safety engineer is reasonably 
necessary,'' and then you know the rest of the rule.
    So my question is this. Based on that is very clear. I 
mean, it couldn't be more clear. There was an issue with 
Professional Janitorial Services, the largest nonunion 
janitorial company in Houston, which on three recent occasions 
SEIU representatives accompanied Federal safety inspectors to 
examine the cleaning sites.
    And then there was also union representatives from the 
Service Employees, the SEIU--now let me see where this was, in 
Philadelphia at the international airport. So those two 
examples.
    My question is very simple. Do you endorse those 
activities?
    Secretary Perez. In the Houston case, they provided 
translation services, and they went in on the first day with 
the consent of the employer. On the second----
    Mrs. Roby. My yellow light is on. Can you just tell if you 
endorse the activities under the law that----
    Secretary Perez. Sure. Again, we enforce--we enforce the 
law, and part of the law allows people to ask----
    Mrs. Roby. The OSHA employee. An OSHA employee to make that 
determination.
    Secretary Perez. Part of the law allows an employee of a 
company to request to OSHA that a third party come in.
    Mrs. Roby. That is not what this says.
    Secretary Perez. Yes, it is. Ma'am, I am happy to send you 
our interpretation of it. I think we are--I am happy to do that 
for you because I----
    Mrs. Roby. It is very unclear.
    Thank you.
    Mr. Womack. You are out of time. Mr. Honda.
    Mr. Honda. Again, thank you, Mr. Chairman.
    And I just want to make a quick comment about Job Corps, 
invite you to San Jose, visit us, and would like to yield to 
Rosa DeLauro, my colleague.

                     ADDITIONAL WAGE HOUR INSPECTOR

    Ms. DeLauro. Thank you very, very much, my colleague.
    Mr. Secretary, your request, and I will dispense with--this 
is about Wage and Hour Division. Your request includes an 
increase of $41,000,000 to hire an additional 300 investigators 
at the Wage and Hour Division. Can you tell the subcommittee 
about the different activities these funds would support, in 
particular how those activities would benefit low-wage workers?
    Secretary Perez. Well, we have 7 million covered 
workplaces, 135 million covered workers, 8 major statutes, 
including the Family and Medical Leave Act and other critical 
statutes. We saw in the most recent settlement in Philadelphia 
involving the tipped workers almost $7,000,000 in settlement.
    Congressman Honda asked a very important question about the 
issue of misclassification. The U.S. Treasury is a victim in 
the misclassification context. Workers are victims, and 
employers who play by the rules are victims.
    And when you have 135 covered workers in 7 million covered 
workplaces, you have a lot of work to do. And what we are 
attempting to do is make sure that we put earned money in 
people's pockets because the folks who were working at Chickie 
& Pete's in Philadelphia had earned that money, but they didn't 
get it.
    Ms. DeLauro. And Pete was taking it. And Pete was taking 
their money.
    Secretary Perez. Somebody else was taking it. And employers 
who play by the rules come to me constantly saying there is not 
a level playing field here, and I don't want to cheat. I am not 
a cheater. But I know that the guy down the road is cheating, 
and you have got to help us.
    And I think we should.
    Ms. DeLauro. The point is, is that the tipped pool, which 
the owner was illegally retaining approximately 60 percent of 
the tipped pool. It was Pete's tax.
    Thank you, Mr. Chairman.
    Mr. Womack. And finally, Dr. Harris of Maryland--2 minutes.
    Dr. Harris. Thank you very much.

                            SILICA EXPOSURE

    Let me just follow up very briefly here about the silica 
issue because, as the ranking member says, look, there is no 
one on this committee who wants people to die from anything 
that is unnecessary, and any suggestion of that is, honestly, I 
am offended by the suggestion that some people on the 
subcommittee think that safety is not important.
    But that person she talked about who has the ill-fitting 
mask that doesn't block out the dust or has that much dust 
exposure, they are actually exceeding the current level. Is 
that right?
    Secretary Perez. I don't know the facts of the situation, 
sir, to be able to comment.
    Dr. Harris. But currently, you are supposed to wear a 
tight-fitting mask during those--is that right? I mean, your 
inspectors go onsite, and if they see a person who is not 
wearing a mask properly, it is not tight-fitting, it is not an 
adequate mask to block dust, I am assuming that that doesn't 
follow the standard right now?
    I mean, I guess that is the purpose of you don't say that 
you can't have more than 100 micrograms per cubic meter of 
silica dust. You just say you have to protect the workers from 
it. Is that right?
    Secretary Perez. We are trying to keep workers safe. We are 
trying to make sure that they don't--silicosis, that silica 
inhalation doesn't cause lung cancer.
    Dr. Harris. Sure. I get it.
    Secretary Perez. It doesn't cause renal disease.
    Dr. Harris. I get it.
    Secretary Perez. It doesn't cause COP. It doesn't cause 
silicosis, which are all causes of death.
    Dr. Harris. So why aren't you just enforcing the current 
law before you--why aren't you enforcing the current law, which 
actually is--again, a 93 percent decrease in the number of 
silicosis. That is tremendous.
    Oh, my gosh, that is almost--that is as close to a cure as 
you are going to get. Why----
    Secretary Perez. But, sir, I mean, you are a physician, and 
you are a very good one, and so I am confident that you 
understand that people who inhale silica contract silicosis and 
die from it, contract lung cancer and die from it.
    Dr. Harris. Sure. But people who lose their----
    Secretary Perez. Contract renal disease and die from it.
    Dr. Harris. But people who lose their jobs, people who 
become unemployed also lose their----
    Secretary Perez. Contract COPD and die from it. So your 
numbers need to reflect that.
    Dr. Harris [continuing]. Lives and have adverse health 
effects, Mr. Secretary. Don't you realize that? That 
unemployment leads to adverse health effects as well.
    Thank you very much.
    Mr. Womack. The gentleman's time has expired.
    Mr. Secretary, you have been very generous with your time 
today.
    Secretary Perez. My pleasure, sir.
    Mr. Womack. We have gone 10 minutes over the allotted time 
for the hearing this morning. We wish you the very best, and we 
appreciate your testimony here today.
    Secretary Perez. Thank you. Thank you for your time and 
courtesy, sir.
    Mr. Womack. I declare this hearing closed.
    [The following questions & answers were submitted for the 
record:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                            Tuesday, April 8, 2014.

                      U.S. DEPARTMENT OF EDUCATION

                                WITNESS

HON. ARNE DUNCAN, SECRETARY OF EDUCATION, U.S. DEPARTMENT OF EDUCATION

                      Chairman's Opening Statement

    Mr. Kingston. The committee will come to order. And we have 
today, the Department of Education; the Honorable Arne Duncan 
will be our witness. And we look forward to hearing from you 
and Thomas Skelly. And I do not have any opening remarks.
    I will say this, when the ranking member comes here, she is 
expected to bring desserts or however they celebrate in 
Connecticut. And I am just going to go ahead and put on the 
record she will be buying beer for all.
    Maybe Ms. Lowey is going to do that as well. Ms. Lowey.
    Mrs. Lowey. Always.
    Mr. Kingston. We just passed by unanimous consent that 
since Ms. DeLauro is late, probably celebrating UCONN's 
victory, that she will be buying beer for everybody tonight. I 
think that is a good motion, if you want to second it.
    Mrs. Lowey. No problem. I must admit I have a son who is a 
Dukie. So once they lost to Mercer and I figured out where the 
heck Mercer is, I kind of checked out.
    Mr. Kingston. A typical basketball fan. Taking it well.
    I guess you would know a thing about that, wouldn't you?
    Secretary Duncan. Not much.
    Mr. Kingston. Secretary.
    Secretary Duncan. Thank you so much.
    Mr. Kingston. Secretary, we go strictly on a 5-minute 
clock, and so we do interrupt anybody. But we try to have lots 
of rounds. And we have a number of our members who are going to 
be leaving at 11:00, but we will continue.
    Ms. Lowey, do you have an opening statement?
    Mrs. Lowey. Why don't we go right ahead.
    Mr. Kingston. Okay.
    Mrs. Lowey. Did you do an opening statement, sir?
    Mr. Kingston. No. But we can come back.
    I am good either way.
    Mrs. Lowey. Well, maybe I will do a little bit. Can't 
resist the opportunity.
    Mr. Kingston. The passion of your side can't be resisted.
    Mrs. Lowey. You're not kidding. Because I look forward to 
this hearing knowing the importance of the work that you do. 
And so I will be brief, though.
    First of all, I would like to thank you, Chairman Kingston, 
Ranking Member DeLauro.
    I am just biding time, Rosa, while you are coming in.
    Chairman Rogers, who is not here yet.

                     CRITICAL EDUCATION INVESTMENTS

    Secretary Duncan, this is a critically important hearing. 
If we want to remain a global economic leader, we need to 
increase investments in initiatives that will grow the economy 
and create jobs. And at the top of this list is education. Not 
a week goes by that I don't hear from schools in my district 
about the need for additional resources. That is why I believe 
that it is vital that as the subcommittee writes the 2015 bill, 
we prioritize restoring Title I and IDEA to presequester 
levels. I also wholeheartedly agree with the Secretary's focus 
on early childhood education, which is one of the smartest 
investments we can make.
    That said, I do have some concerns with the requests, 
including the proposed 15-percent reduction to teacher quality 
State grants, and 5 percent cut to the Impact Aid program. And 
I look forward to today's discussion on a range of topics, 
including after-school programs, Promise Neighborhoods, STEM 
education, Pell Grants, and other higher education initiatives.
    Thank you, Mr. Chairman.
    Mr. Kingston. Thank you, Ms. Lowey.

               UNIVERSITY OF CONNECTICUT BASKETBALL TEAM

    And, Ms. DeLauro, we went ahead and passed over you because 
if you don't have some kind of a like, I don't know, Italian 
pastry to celebrate UCONN, then we can't yield you any time. We 
figured you--we figured we would give you an additional minute 
so you can brag about UCONN, and then I know you have a busy 
day today. I saw you on ``Morning Joe.'' You did an excellent 
job.
    Ms. DeLauro. Thank you. Thank you.
    Mr. Kingston. So if you are ready, I yield to you for your 
opening statement.
    Ms. DeLauro. Thanks so much, Mr. Chairman. And all I can 
say is ``go Huskies.'' Whoa. Great game last night. And tonight 
will be even greater, with the women winning the championship. 
So here we are. Thank you so much. And I appreciate the 
accommodation. And I know that I have to leave a bit early. I 
let the Secretary know that as well. So my apologies to you and 
to my colleagues as well.
    Mr. Secretary, thanks so much for joining us today for your 
tireless advocacy on behalf of our students. As we think 
through the President's budget proposal for 2015, I think it is 
critical to remember the context in which it comes to us. Under 
the 2014 legislation just enacted in January, appropriations 
for the Department of Education remain $800 million less than 
the comparable level 2 years earlier. This is a cut in actual 
dollar terms, without taking in to account rising costs, 
growing population and student enrollment or unusually high 
levels of need. It is not bad enough--if that isn't bad enough, 
had the majority had their way, the current underfunding of 
education programs would be even more severe.
    Last year, the spending allocation that the majority gave 
to the subcommittee represented a cut of nearly 20 percent 
below the pre-sequester funding levels for Labor, HHS, and 
Education programs. In the distribution of funds for fiscal 
year 2014, the House majority gave the subcommittee the biggest 
cut of any, the equivalent of four times the reduction caused 
by sequestration. And the budget put forward by Chairman Ryan 
that the House is considering this week threatens to do even 
more damage.
    On deck for next year would be a $1.3 billion cut to Title 
I, a billion dollar cut to IDEA, $761 million from Head Start, 
and cuts to Pell Grants by over $125 billion over the next 
decade, making it harder for low-income students to go to 
college. And it cuts nondefense discretionary spending by 
another $791 billion over the next 10 years. It is another 
sequester on steroids.
    Meanwhile, many of the fundamental grant programs that are 
at the core of the Department's mission are stuck below 2010 
levels. Especially after considering rising student enrollment, 
growing pressure to improve student achievement, even providing 
level funding to these programs serves as an effective cut in 
services. The failure to adequately invest at the Federal level 
comes at a time when States are still lagging behind pre-
recession education spending. More than two-thirds of our 
States are providing a lower per-student funding level in 2014 
than in 2008.
    In Kansas, take one example, the Governor has proposed to 
deepen reductions in education funding so far that it would 
leave per-pupil spending 17 percent below pre-recession levels.
    I might add that we are also in the early stages of 
implementing the Common Core, an effort that I believe is a 
valuable step forward, but one that requires adequate support 
for our teachers and our schools as it gets rolled out.

              MIDDLE CLASS, SOCIAL MOBILITY AND EDUCATION

    The state of affairs is misguided and inexcusable. Without 
broad access to a good education, there is no middle class, 
there is no social mobility. Insufficient funding breaks the 
compact that allows hard work to pay off and future generations 
to do better. That is the deal in America. Makes no sense to 
roll back our critical investments in education, especially 
when we are trying to produce workers with skills to master new 
technologies and adapt to the complexities of a global economy. 
We want to create jobs, grow the economy, and reduce the 
deficit in the long term. We have to support education and work 
to ensure educational opportunity for all.

                          PRESCHOOL EDUCATION

    With that in mind, I am glad to see the Administration is 
increasing the Education Department's budget by 1.9 percent; 
and in particular, as does my colleague, Mrs. Lowey, I welcome 
the attention given to preschool education and to a new effort 
addressing the need to build noncognitive skills for today's 
students.

                         PROMISE NEIGHBORHOODS

    Under the budget, Promise Neighborhoods would increase by 
more than $40 million, a much needed infusion of funds for a 
groundbreaking program that had been unable to support any new 
grants for the past 2 years due to insufficient funds.

                   COMPETITIVE VERSUS FORMULA GRANTS

    That said, you and I know that I continue to disagree with 
the approach of prioritizing competitive grants in this budget 
at the expense of formula funding. Under this fiscal year 2015 
request, formula grants would decline by $1.9 billion or 4.9 
percent, while competitive grants would increase by $2.8 or 69 
percent.

                        GAINFUL EMPLOYMENT RULE

    On post-secondary education, I am glad to see the President 
is continuing his effort to increase college access and 
affordability in this budget, and that the Department has 
released a new gainful employment rule. I would have supported 
a stronger rule, but this is a step in the right direction that 
will hold for-profit colleges accountable for results.
    Last year, students at for-profit schools received $6.8 
billion in Pell Grants. Unfortunately, many of them used up 
their Pell eligibility and got very little to show for it. In 
fact, 87 percent of Pell Grant recipients also had to take out 
student loans. The student loan default rate of 4-year students 
at for-profit schools is more than double the default rate at 
public and nonprofit schools. These students deserve better. 
They deserve the education that these schools promise, so I 
hope that this rule will lead to positive changes.
    I thank the chairman for allowing me all of this time. 
There is a lot to discuss. And thank you for coming today, Mr. 
Secretary. We look forward for hearing your testimony.
    Thank you, Mr. Chairman.
    Mr. Kingston. Thank you.
    Mr. Secretary.

                 Opening Statement of Secretary Duncan

    Secretary Duncan. Thank you so much. And let me first begin 
with thanking all of you for your work on the 2014 
appropriation, which increased our investment in education over 
the previous year.

                  DISCRETIONARY FUNDING FOR EDUCATION

    However, discretionary funding for education, excluding 
Pell Grants, remains below its 2010 level. And let me explain 
why I am so concerned about that. The fact is, we are falling 
behind our international competitors educationally. We should 
recognize that as an urgent wake-up call. But too often I feel 
we are sleeping through that alarm. In the United States, we 
are still just talking about the steps that so many leading, so 
many high-performing countries are actually taking to prepare 
their students for success in a competitive global economy. 
Falling behind educationally now will hurt our country 
economically for years to come.

          DROP OUT RATE DECREASE, COLLEGE ENROLLMENT INCREASE

    It is not that America isn't making progress. In fact, we 
are thrilled that a couple months ago we were able to announce 
the highest high school graduation rates in our Nation's 
history. That is a huge tribute to the hard work and commitment 
of teachers and students and families across the country. 
Dropout rates are down significantly and college-going rates 
are up, with African-American and Latino students leading those 
improvements.

                     OPPORTUNITY GAPS NEED CLOSING

    And while we celebrate these very real achievements, we 
must also be impatient with the pace of change. Simply put, 
despite the gains we have made as a country, too many of our 
students today are not receiving the education they deserve, 
and it is our collective duty to challenge that status quo.
    New civil rights data shows that the educational experience 
for too many students of color, students with disabilities, and 
English language learners falls short of meeting the American 
promise, the American ideal that if you work hard and study 
hard, you will have a fair shot to succeed.
    We need the courage and the will to strengthen the 
opportunity structure for our children for the good of their 
families and the good of our country. And if we don't increase 
investment in education, let's be clear about exactly who we 
are leaving out of the American dream. While we know we have 
much more work to do, many States are bringing forward 
innovative ideas to improve education in profound ways.

               SUCCESS OF OHIO-APPALACHIAN COLLABORATIVE

    Just one quick example. The Ohio-Appalachian Collaborative, 
under plans developed under the Race to the Top and the Teacher 
Incentive Fund programs, set out to redesign education in rural 
communities and strengthen community partnerships. That 
Collaborative now involves 26 rural districts. And just 3 years 
into that collaboration, graduation rates for economically 
disadvantaged students in the original partnered districts 
actually exceed Ohio's State-wide average, and the number of 
high school students dual enrolled in courses that provide 
college credit has increased in 3 years by 186 percent. Same 
families, same communities, same schools, same very real 
socioeconomic challenges, but a very different set of 
opportunities, different expectations, and very different 
results.

           GREATER SPEED AND CHANGE NEEDED TO CLOSE GAPS NOW

    Ideas and innovations like those are so critically 
important. But as I said earlier, as a country, we simply 
aren't improving fast enough. Our collective lack of commitment 
to closing opportunity gaps relative to other nations sadly 
starts with our youngest learners. We rank in the bottom third 
of OECD nations in terms of providing access to high-quality 
preschool. We should all be ashamed of that brutal reality.
    As a direct result, far too many of America's children 
start kindergarten at 5 years old already a year to 14 months 
behind, and far too many of them never catch up. That simply is 
not in our Nation's best interests.
    Data from our Civil Rights Data Collection project shows 
that our neediest students get the least experienced teachers. 
And the fewer minority students that you teach, the more you 
get paid. That is simply not a winning strategy for helping all 
of our children succeed.
    In this country, only about 20 percent of students have 
access to high-speed Internet in school, a basic learning tool 
today. In high-performing nations, 100 percent of students, 
teachers, and schools have access to high-speed broadband.
    Finally, when looking at college completion rates, the U.S. 
has fallen behind as our cost of college has increased. We used 
to be number one, one generation ago, first in the world in 
college attainment in young adults, and today we have dropped 
to 12th. Again, that is not a badge of honor.
    We need to get serious about providing real opportunities 
to all, all of our children, from cradle through to career, by 
making preschool available, by providing good technology, tools 
and support to students and teachers, and by making college 
more affordable. We need to get in the game right now.
    Unfortunately, I feel we are too often on the sidelines 
just talking. Let's stop talking and let's get down to the 
serious work so that no matter where in America children grow 
up, whether it is in Connecticut or Georgia or Ohio, they will 
have the educational opportunities they need to fulfill their 
true academic and social potential. We must stop letting so 
much human talent and capacity go to waste. Our Nation simply 
can't afford it.
    Mr. Kingston. Thank you, Mr. Secretary.
    [The prepared statement of Secretary Duncan follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                PELL GRANT ABILITY-TO-BENEFIT PROVISION

    Mr. Kingston. And I think because of the time, I will go 
ahead and yield to Ms. DeLauro my 5 minutes. Are both of you 
all leaving?  We could ask unanimous consent to just let the 
minority side go twice in a row, if everybody is good with 
that?
    Ms. Roybal-Allard. Thank you very much, and thank you for 
yielding to me.
    Secretary Duncan, I am pleased that the fiscal year 2015 
budget request would reinstate Pell Grant and other financial 
aid eligibility for some students who have not earned a high 
school diploma or a GED, but have proven that they have the 
ability to benefit from higher education. As you know, many 
colleges have developed innovative programs and pathways to 
address the unique needs of Ability-to-Benefit, or ATB 
students, allowing them to co-enroll in developmental skills 
courses and job training programs.
    However, the current policy of exclusion has prevented 
thousands of these students from pursuing their educational 
goals and gaining the skills they require for the 21st Century 
economy. How many ATB students would benefit from reinstating 
financial aid eligibility? How much would this policy change 
cost? And what do you see as the economic and societal benefits 
of reinstating financial aid for these students?
    Secretary Duncan. So, obviously, so many young people who 
maybe have historically struggled, didn't make it through high 
school, are trying to get back on their feet, trying to get 
into the world of work, need to go back to school. And so what 
our proposal would do is give young people who have passed a 
couple college-level classes the option to again have access to 
Pell Grants, to retain green energy jobs, IT jobs, health care 
jobs, advanced manufacturing jobs, and rather than being sort 
of a drain on society, start to be able to support their 
families and contribute.
    Tom, do you want to walk through specifically the numbers 
of who could benefit and the dollar amount?
    Mr. Skelly. The Change would add about 2,000 in Pell 
recipients, cost about $6 million in 2015 and $68 million over 
10 years.
    Ms. Roybal-Allard. Okay. And certainly that would be a huge 
benefit, not only to these families but to our economy to have 
individuals who would be well-trained and be able to not only 
support their family, but also contribute and strengthen our 
economy. So I was pleased about that.

             FULL FUNDING OF SPECIAL EDUCATION STATE GRANTS

    Secretary Duncan, despite a Federal commitment to fund 40 
percent of special education costs, the current Federal share 
of IDEA funding is less than 16 percent. In Los Angeles Unified 
School District, the Federal share is only 15 percent, or $194 
million shortfall that LAUSD must subsidize by shifting money 
from other critical programs.

             RESULTS DRIVEN ACCOUNTABILITY INCENTIVE GRANTS

    I am concerned that your budget freezes funding for IDEA 
State grants while proposing funding for a new $100 million 
competitive grant to States under IDEA. Shouldn't our first 
priority be to help school districts meet their current 
obligation under IDEA before we fund new proposals? And, if so, 
why does your budget propose freezing funding for IDEA State 
grants?
    Secretary Duncan. First, and obviously, in tough economic 
times we are pleased to be able to try and maintain that 
commitment. I more than recognize the challenges at the local 
level. When I led the Chicago Public Schools, the Federal part 
that wasn't funded was about $770 million each year, and we had 
to close that hole.
    Again, if Congress as a whole wants to sort of take this 
on, we are happy to have that conversation. I haven't seen that 
level of seriousness, quite frankly, to really invest here. But 
we think it is so important that we not just invest in the 
status quo, but in a different vision of where we can go. It is 
interesting to me, once students go into special ed, they 
almost never come out. Once they get that label, there are 
never good paths out.
    And what Michael Yudin on our staff is doing, I think is 
really a desperately needed step in the right direction in 
terms of innovation, and that is moving towards more of a 
result-driven system, rather than compliance. And this can 
occur when folks--States and districts--help more young people 
move out of special ed, when they can increase graduation 
rates, when they can increase college-going rates. We want to 
start to have that conversation. We want to put some money out 
there for districts willing to challenge the status quo and 
hold themselves accountable for getting better results for 
students with special needs, we want to do everything we can to 
support that creativity.
    Ms. Roybal-Allard. I would agree that innovation is 
important. But the concern is that it is at the expense of 
current obligations; we are not even meeting our current 
obligations. And I think that is the concern that I and others 
have.
    Secretary Duncan. I recognize that concern. Again, the over 
$11 billion we are putting into IDEA is nowhere near enough. I 
absolutely agree with that. But to spread $100 million across 
15,000 school districts, you get very little, minimal impact. 
But to put $100 million into some targeted places where people 
can create models for the rest of the country, we think that is 
a way to start to change the culture and the conversation here.
    Ms. Roybal-Allard. Thank you.
    Mr. Kingston. Ms. DeLauro.

                      ABILITY-TO-BENEFIT PROVISION

    Ms. DeLauro. Thank you, Mr. Chairman. First let me 
associate myself with my colleague, Congresswoman Roybal-
Allard's comments on the Ability-to-Benefit provision. I think 
it is important that we get back and try to turn that around.

                  FIE NON-COGNITIVE SKILLS INITIATIVE

    Let me address, if I can--I will try to move quickly--two 
areas. One in four children in the U.S. grows up in poverty 
today. You have got research that shows that the extreme stress 
of childhood poverty has a dramatic effect on a child's 
developing brain, actually exerting a direct impact on the 
development of the brain centers involved in learning.
    Your proposed $10 million for a new non-cognitive skills 
initiative would put researchers and practitioners into 
partnership so they can study how our professionals in our 
schools can build an environment that promotes the approach to 
student growth, social behavior, emotional well-being.
    Can you talk a little about this investment and how it can 
mitigate the effects of growing up in poverty for our kids?

                   SEVEN-TO-ONE RETURN ON INVESTMENT

    Secretary Duncan. Happy to do that and just appreciate so 
much your interest here. And as I study the tremendous impacts 
of high-quality early childhood education, which you and I and 
so many others firmly believe in, folks who have done decades-
long longitudinal analysis, folks who are much smarter than me, 
people like Dr. James Heckman, who is a Nobel Prize winning 
economist at the University of Chicago and talks about a seven-
to-one return on investment. For every dollar we invest in 
early childhood education, we as a country get back $7.00--and 
we have less crime, fewer dropouts, less teenage pregnancy, 
more high school graduates, more people going to college, more 
people going to the world of work. His most recent data talks 
about the long-term health benefits that reduce health care 
costs.
    So the dividends here are extraordinary. And I wonder, 
collectively, of all the public, of all the tax dollars we 
invest, how many times are we getting back $7.00 for every time 
we invest $1.00? I don't think that happens too often in 
government.

                    BENEFITS OF NON-COGNITIVE SKILLS

    But when I talked to him about what are the real drivers of 
that ROI, that return on investment, not surprisingly, a 
significant amount comes from the academic benefits. Children 
from early learning programs who enter kindergarten are not a 
year to a year and a half year behind; their literacy and their 
math skills are intact. But he talks passionately about what we 
have called--we need to come up with a better name--the non-
cognitive side, the grit, the resilience, the perseverance, the 
ability to interact in a room like this and talk socially and 
have give and take and take turns.
    And if young people don't learn those skills at home, and 
not every child has that opportunity to learn at the dining 
room table, it puts a huge limit on what they can accomplish. 
So this non-cognitive emerging research we think is hugely 
important.
    We want to invest--when I spent years working in the inner 
city in the south side of Chicago, we spent a huge amount of 
time trying to help instill these skills in our students we 
worked with. I honestly have no sense of whether we were 
impactful, whether we were effective or not. But if we can give 
students the ability to persevere through sometimes horrendous 
situations at home and in the community and overcome that 
adversity, then a world of opportunity opens up to them. So we 
are thrilled to try and get in this game as a Nation. We are in 
our infancy, but I think this is a very, very important body of 
work.

                          PRESCHOOL INITIATIVE

    Ms. DeLauro. Thank you. I would just quickly ask on 
preschool--and we know the value of the high-quality pre-K 
programs--just ask for a bit of detail on what this might 
include and what you are going to embark on. Services 
comparable to those Head Start provides--critical physical, 
mental health services, nutrition, wellness, immunization, 
dental, vision, those kinds of efforts?
    Secretary Duncan. This is a birth-through-5 agenda. So we 
want a seamless continuum. Kathleen Sebelius and I have been 
joined at the hip on this one. Historically, our departments 
were dysfunctional, didn't talk. Those days are long gone. So 
whether it is early home visiting, whether it is early Head 
Start, Head Start, pre-K, we just want to get our babies off to 
a good start.
    What is interesting to me, which I love, is this has become 
a total bipartisan issue in the real world. In fact, we now 
have more Republican governors than Democratic investing scarce 
taxpayer dollars in early learning because they understand ROI. 
On the challenges--State after State where I visit, there are 
huge waiting lists, huge waiting lists for preschool. So for 
thousands and thousands of families, where parents want the 
best for their children, who want that opportunity, it simply 
is not provided.
    So this wouldn't be any mandate, wouldn't be anything like 
that. We would simply partner with States to leverage their 
dollars and where they want to increase access for children 
starting in the most disadvantaged communities, they could 
partner with us. We would have a mixed delivery system. This 
could be school districts, this could be non-profits, this 
could be faith-based, it could be for-profit, it could be Boys 
and Girls Clubs, YMCAs. We just want more children in this 
country to have access.

             INTERNATIONAL RANKING FOR PRESCHOOL EDUCATION

    The final thing I will say is that, again, internationally 
this is, frankly, an embarrassment. I just left an 
international conference. The fact is we are somewhere about 
25th, 26th, 28th amongst industrial countries. People from 
other countries come up to me and just simply ask, why don't 
your citizens care about your babies? And I don't have a good 
answer for them.
    Ms. DeLauro. I am hopeful that what will be able to happen 
is that we can encourage States to ensure that our most at-risk 
kids, and their parents, are given the opportunity to attend 
these programs, and that we will be going out into the 
community and finding the families that don't know that they 
are eligible for these efforts. Thank you very, very much, Mr. 
Secretary. And I apologize for departing. Thank you.
    Secretary Duncan. Congratulations on the work on the other 
issue.
    Ms. DeLauro. Thank you very much. Thank you, Mr. Chairman, 
and my colleagues.
    Mr. Kingston. Thank you. Ms. Roby.
    Mrs. Roby. Thank you. And thank you for being here today, 
Mr. Secretary.

             CAREER AND TECHNICAL EDUCATION INNOVATION FUND

    The Department of Education's budget request claims to 
emphasize equipping Americans with the skills they need to fill 
the jobs of the 21st century economy. However, the proposed 
budget doesn't prioritize resources for career technical 
education, CTE, State grants provided through the Carl D. 
Perkins Career and Technical Education Act. And, as you know, 
the CTE State Grants are the backbone of the Federal funding 
for CTE.
    In fact, the Department's budget request actually proposes 
a number of new competitive grant programs, which has already 
been mentioned. Specifically, the budget proposes to set aside 
the $100 million from CTE State Grants for a new competitive 
CTE innovation fund.
    So I have a three-part question here. First, will you 
please address why the Department is prioritizing spending 
resources on untested and often duplicative education 
initiatives when we have yet to fulfill our commitment to 
existing formula-driven programs?
    Second, why does the Administration continue to propose 
competitive grants that only benefit a few students rather than 
investing in proven programs like CTE that help to further the 
goal of career readiness for all students?
    And, third, how can schools continue to offer rigorous and 
relevant career training and education to all students without 
a strong Federal investment in CTE?

           RATIO OF FORMULA VERSUS COMPETITIVE GRANT PROGRAMS

    Secretary Duncan. Really appreciate the question. And we 
think the work in that CTE space--Voc Ed was the former name 
for it--is hugely, hugely important. So a couple things, just 
to be clear on the budget. Roughly 89 percent of our budget 
goes to formula programs; a small minority, about 11 percent, 
goes to competitive grants. So anyone who thinks those 
balances--people sometimes think it is, like, 50/50--it is not 
even close. It is 89 to 11.

               NEED FOR UPDATED, INNOVATIVE CTE PROGRAMS

    So we want to continue to invest in the base programs, 
which we will always do. But we really want to make sure that 
programs are preparing students for the jobs of tomorrow, not 
of yesterday. Quite honestly, in CTE programs, many are 
extraordinarily strong, but some are, frankly, still preparing 
students for jobs that are obsolete.
    And so we just want to make sure that, again, scarce 
taxpayer dollars are being used to prepare students for the 
jobs going forward. And I have been to dozens and dozens of 
amazing high schools that are providing real training leading 
to real jobs. There is often this false debate: college versus 
career. I think that is the wrong debate. We have so many wrong 
debates in education. We ought to be preparing students for 
college and career. And guess what? Those skills are about the 
same.
    Recently, I was at an amazing, amazing school, Worcester 
High School in Massachusetts, that a few years ago was 
literally failing. It had a new principal, new set of CTE 
programs. They have a credit union in the school, auto body 
works, health care. People from the community who are going 
through chemotherapy due to cancer can come in and get wigs. 
They had a veterinary clinic, a fully functioning veterinary 
clinic in the school. And these kids are going on to these 
career opportunities. 87 percent are going on to college; 13 
percent go right into the world of work. But that school was 
becoming the community center. Whatever you need in the 
community, you come to the high school. It was an amazing 
connection there. So we want to continue to invest.
    We have a blueprint for reauthorizing Perkins, as you know. 
Would love your feedback on that. But we want to make sure that 
we are investing in the jobs of the future, not in the jobs of 
yesterday.
    Mrs. Roby. I mean, you made my case, the reason that this 
is so important. We have strong examples of career technical 
education in Alabama's Second District, where it is providing 
opportunities for high school students to be career ready, 
alongside partnering with the 2-year college and the private 
sector, which is such an important partnership for career 
technical education, and one that we are trying to encourage at 
the State and local level, for more businesses to be willing to 
invest their time and energy into making sure that these 
children have opportunities.

                       NATIONAL ASSESSMENT OF CTE

    Last November, I was a member of the Education and 
Workforce Committee. And the Assistant Secretary for Career, 
Technical, and Adult Education, Dr. Brenda----
    Secretary Duncan. Dann-Messier.
    Mrs. Roby [continuing]. Dann-Messier, indicated that the 
national assessment of CTE would be available by spring of this 
year 2014. I recognize that an interim report was submitted in 
2013. Can you tell us when we can expect to have that final 
report?
    Secretary Duncan. Let me check on that. I am not sure.

                 ADMINISTRATION-WIDE COMMITMENT TO CTE

    Let me go back. I know that this hearing is obviously about 
my budget, but I want folks and you to understand this is an 
administration-wide commitment. So we are not just putting our 
education dollars into CTE. Literally yesterday, the President 
announced $100 million around high school redesign, which is 
exactly trying to do more CTE. And through the Department of 
Labor, we have invested $2 billion--$500 million a year over 4 
years--not just into high schools, but into community colleges, 
where there are real linkages to the workforce. So it is a 
priority for us, but, again, we are not alone in this work. The 
Department of Labor has been a great, great partner. And the 
President is driving this everywhere he can. In fact, I think 
he announced he is going to do the high school commencement at 
the high school I just described.
    So we want to do more, we will do more, but we are also 
partnering with other places to try and stretch all of our 
scarce resources.
    Mrs. Roby. Sure. If you could just get back to us on the 
final report as opposed to interim.
    Secretary Duncan. Yes, ma'am. We owe you that one. I will 
come back to you.
    [The information follows:]

         National Assessment of Career and Technical Education

    The Department expects to release the final report of the National 
Assessment of Career and Technical Education (NACTE) in the summer of 
2014.

                      PROMISE NEIGHBORHOOD PROGRAM

    Mrs. Roby. Thank you. I yield back.
    Mr. Kingston. Ms. Lowey.
    Mrs. Lowey. Mr. Secretary, I know we have previously 
discussed this initiative, but I want to reiterate that I 
strongly support Promise Neighborhoods. It is vital to 
comprehensively serve an entire neighborhood and create a 
pipeline of programs for children that start even before they 
are born and takes them through college graduation. In essence, 
it wraps children and their families in coordinated education, 
health, and social supports, which in my opinion, is the only 
way to break the cycle of poverty in our most disadvantaged 
communities.
    Back in the 1990s, I helped start the Full Service 
Community School Programs. And I see Promise Neighborhoods as a 
more comprehensive extension of that effort. This committee 
first appropriated funds for the Promise Neighborhoods program 
in fiscal year 2010 with $10 million for planning grants. Since 
then, we have increased the funding enabling your Department to 
award a total of 46 planning grants and 12 implementation 
grants. But for the past 2 years, the appropriation has not 
been able to support any new grants and has only been able to 
cover continuation costs for the existing 12 implementation 
grants.

           PROMISE NEIGHBORHOODS IMPLEMENTATION GRANT FUNDING

    Doesn't this mean that there are dozens of communities 
ready to move forward with very promising plans? And I see that 
your budget proposes to boost funding for Promise Neighborhoods 
by $43 million, which would allow for five new implementation 
grants.
    Can you tell us something about some of the planning by 
grantees that are ready to proceed, share examples of the type 
of work that could be undertaken if we were able to provide 
them with implementation grants?
    Secretary Duncan. So it is a great question. And this is 
obviously the tension we always hear, competitive versus 
formula. This is obviously competitive dollars. And there are, 
as you said, dozens and dozens of communities across the 
country who we every year have to say no to, who have done 
tremendous planning, who are working together in pretty 
profound ways. Obviously, Geoffrey Canada's work in New York 
has been so influential in our thinking.
    As you know, I got my start in education working in my 
mother's after-school program. We worked extraordinarily hard. 
We weren't smart enough to think about involving the entire 
community and rallying everybody behind the efforts to create 
an opportunity structure from birth all the way through to 
career to give children a chance to be successful.
    So I have--without going into too many details--I have been 
to rural communities and seen the extraordinary commitment to 
creating new opportunities for kids that haven't had them. Most 
recently, I was in East Hollywood, in L.A., and saw a center 
that actually we have funded. So they are implementing, so it 
is not just a vision. And it was absolutely remarkable to see. 
They had early childhood care going on. They had parents coming 
to school to get their GED. They had ESL classes, they had job-
training programs, all happening at the same time at the same 
site. And it was transforming lives.
    So that is the kind of thing we want to see happen more 
often. We want to take all of our scarce resources, collocate 
them, have them be seamless, and help children and families 
have a chance to be successful.
    One young girl I talked to is looking to go into a career 
in criminal justice. She grew up as part of the foster care 
system, had bounded from home to home. Broke down in tears 
talking about some of that trauma. But somehow we talked about 
earlier grit and tenacity. Somehow she had the tenacity and the 
perseverance to work through that trauma. She is back in 
school--had dropped out--getting her GED. Wants to go on and 
work for the police there and be a force for good in the 
community. And that is the kind of story we need to see happen 
more often.
    In scarce economic times, again, tough budget times, we are 
asking for a 76-percent increase in Promise Neighborhood 
funding. And we don't make that request lightly. That is a 
very, very serious request.
    Mrs. Lowey. Well, I thank you. And I guess I have time for 
half a question.

                         AFTER SCHOOL PROGRAMS

    I just want to put in another good word for the after 
school programs. I have been a longtime advocate for quality 
after school programs. I truly believe they make a real 
difference to children in low-income working families who need 
a safe, enriching place to be when school is not in session. 
They receive targeted assistance with their schoolwork, the 
opportunity to pursue non-academic passions. I also know that 
finding ways to lengthen the school day a bit for all students 
has been a high priority of yours.
    So we probably--we are on yellow. But if you could just 
tell us quickly why it is necessary to divert funding from 
after school and summer--well, the red light is on.
    Mr. Kingston. You may take it for the record.
    Mrs. Lowey. If you can take it for the record, why you had 
to divert funding from after school and summer learning 
programs under 21st Century Community Learning Centers--CCLC--
to use these funds as well for longer school days? So I would 
like to hear from you further about that at some time. Thank 
you.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Kingston. Thank you.
    Mr. Fleischmann.
    Mr. Fleischmann. Thank you, Mr. Chairman.
    Mr. Secretary, good morning sir.

                    PROPOSED COLLEGE RATINGS SYSTEM

    Secretary Duncan. Good morning.
    Mr. Fleischmann. Great to see you today.
    Secretary Duncan, the Administration has proposed a new 
college ranking system, a rating system. I can solve that real 
quick. The premier university system in this country is the 
great University of Tennessee system. And, but I do realize 
that there are other great universities and university systems 
around this country.
    While I share your concerns about the rising costs of 
higher education, and the need to provide students and families 
with relevant and appropriate information so that we will be 
able to make informed decisions on which college or university 
will best meet their needs, I have serious reservations about 
this proposed rating system. Frankly, I am not convinced that 
this is the right thing for the Federal Government to be doing. 
There are plenty of other rankings and rating systems done by 
private organizations, and many of them suffer countless 
criticisms about the validity of their results.

               PURPOSE OF PROPOSED COLLEGE RATINGS SYSTEM

    Your budget includes $10 million in HEA program evaluation 
funds to develop and refine this new college ratings system. I 
question whether this is the best use of taxpayer dollars and 
whether higher education resources could be better focused on 
Federal student aid or other established programs, sir.
    My first question is, could you please tell us exactly what 
this funding would be used for?
    Secretary Duncan. I would say that I think you have an 
extraordinary Governor in Tennessee whose thinking has actually 
been very influential on my thinking. The challenge, I think, 
we collectively face is at the Federal level, you and I and, 
again, most importantly taxpayers, spend close to $150 billion 
each year in grants and loans. And virtually all of that, all 
of that is based upon inputs. Almost none of that is based upon 
outcomes. And what Governor Haslam and a few other creative 
governors have started to do is to try to have some resources 
at the State level start to be based upon performance. So we 
want to know not just are people going to college, but are they 
graduating. The goal is not to go, the goal is to get that 
diploma, to graduate at the back end.
    Some universities do an extraordinary job of building 
college cultures around completion, others, frankly, don't. I 
will tell you very personally when I led the Chicago public 
schools, we saw huge disparities in our local university 
students with identical GPAs, identical test scores, some 
graduating, like, 80 percent, some graduating 20 percent. We 
started to steer young people towards certain places and away 
from others.
    And I think it's important to have a greater sense of where 
outcomes are taken seriously, where they are building cultures 
around completion, where they are doing more to enroll students 
at risk. And we recognize if we do this poorly, we could create 
the wrong incentive structure. But where folks are taking more 
first-generation college goers, more Pell Grant recipients, and 
being successful with them, ultimately, we think--we are a big 
believer in transparency--the public should have access to that 
data. Folks don't know those things now. And ultimately, just 
as some States like Tennessee are starting to move resources 
towards places that are getting good results and keeping down 
costs, we think that is a good model for us to look at as well.
    Mr. Fleischmann. All of these are very laudatory goals, and 
I appreciate you for articulating them, but it still goes back 
to why should the Federal Government be involved, sir, in 
trying to rank these institutions?
    Secretary Duncan. Not--to be clear, not rank them, to rate 
them. And I think we have an obligation because annually we are 
spending nearly $150 billion taxpayer money with zero sense of 
outcomes. And so I think we can do better for the American 
public, and I think we can do better for the hard-working 
taxpayers.

               TIMELINE FOR RATING SYSTEM IMPLEMENTATION

    Mr. Fleischmann. With respect to developing this rating 
system, then, what is the timeline for its rollout?
    Secretary Duncan. I can't yet give you a timeframe as we 
are still working through what it will look like. We have had 
countless listening sessions, gone out and travelled the 
country. Would be happy to meet with you and your staff and 
other folks. I am going to be very clear, I have said 
repeatedly we are going through this with a great sense of 
humility. We understand what can happen if we do this poorly--
you talked about some of the private ranking systems that have 
huge disincentives for the kinds of behavior we are talking 
about, where a ranking goes up by not taking kids rather than 
by taking more students and being successful with them. And we 
want to be very, very thoughtful.
    And so we are still thinking it through, still having a 
huge amount of public input. Would love to sit down with you 
and your staff if you have thoughts on how to do it. But at the 
end of the day, as difficult as it is, and this is absolutely a 
complex, intellectual exercise, the status quo, I think, is 
unacceptable. Doing nothing, for me, is not the right answer.

         EDUCATIONAL AND PUBLIC SECTOR INPUT TO RATINGS SYSTEM

    Mr. Fleischmann. Will you be sharing this information about 
how the system will be developed with the public, including the 
institutions that will be rated, prior to implementing it?
    Secretary Duncan. Absolutely. And we have met with 
countless presidents and board chairs and faculty members and 
students. And they are helping to shape this. And we are very 
much listening very, very closely to the input on both what 
would make sense and things that we should, frankly, steer away 
from. So it is a very open and transparent process, with a huge 
amount of public comment. And it is making us much smarter.
    Mr. Fleischmann. Thank you very much, Mr. Secretary.
    Mr. Chairman I yield back.
    Mr. Womack [presiding]. The gentleman from California, Mr. 
Honda, is recognized.

            ``FOR EACH AND EVERY CHILD''--EDUCATIONAL EQUITY

    Mr. Honda. Thank you, Mr. Chairman. And welcome and thank 
you for joining us, Secretary Duncan.
    A little more than a year ago, the Equity and Excellence 
Commission, formed at the request of Congressman Fattah and 
myself, released its game-changing report entitled ``For Each 
and Every Child.'' And this Commission was composed of 29 
educational thought leaders from a variety of backgrounds. And 
I want to thank you again for the work that you and your staff 
did to make this report a reality.
    The report highlighted five foundational steps to improve 
equity for each and every child. One is improving school 
finance systems; second is empowering teachers, principals and 
curricula; third was providing high-quality, early childhood 
education; fourth is mitigating the effects of poverty; and, 
fifth, improving accountability in governance.
    I believe it is particularly important that the report 
incorporates both excellence and equity. Equity ultimately 
means providing every child with the fiscal and human resources 
that they require according to their individually-assessed 
needs. Every child is unique, which means that we have to move 
our thinking and our--some of our principles that we operate 
from, from all children to each and every child.
    I applaud your work in proposing a program that will be 
entirely focused on improving equity and beginning the work 
that was laid out by the Commission.

            RACE TO THE TOP--EQUITY AND OPPORTUNITY PROGRAM

    So, Mr. Secretary, can you share with us some of the ways 
in which the proposed Race to the Top Equity and Opportunity 
Program, when implemented, will address the findings for the 
Each and Every Child report?
    Secretary Duncan. Happy to do it. First, I just want to 
thank you and Congressman Fattah for your extraordinary 
leadership. And obviously you have lived this work in a way 
that, frankly, most political leaders haven't. This is in your 
blood. You understand both the challenges and the 
opportunities. And this was a significant step in the right 
direction.
    I carry around in my briefcase sort of a list of the final 
recommendations of the Equity Commission to keep them forefront 
in my mind. So just a couple things.
    The Commission talked about the importance of early 
learning. You know exactly what we are trying to do there. And 
I keep saying I think that maybe the best investment our Nation 
can make, is to get our babies off to a good start and get out 
of the catch-up game.
    In this year's budget, we are asking for $300 million to do 
a Race to the Top equity and opportunity proposal. And your 
point is exactly right. This has to be about both excellence 
and equity. Too often these things seem to be in conflict. 
Again, that is the wrong fight. We talked about college versus 
career, that being the wrong fight. Raising the bar for all, as 
well as leveling the playing field. That is where we have to 
go.
    And it is so interesting, Congressman. We have about 16,000 
school districts in this country. And the theory there is to be 
great laboratories of innovation at the local level. In many 
areas, we see that. But I just keep asking a fundamental 
question--I keep hoping to be proven wrong. I keep asking, do 
we have one school district, one out of 16,000, that 
systemically identifies their hardest working, their most 
successful, their most committed teachers and principals and 
moves them to the children and communities who need the most 
help? Be that inner city, urban, be that rural, be that remote. 
And, Congressman, I don't know of one school district that does 
this at scale. We have a handful that are starting to do some 
creative things.
    And if we think that great teachers matter, which I believe 
passionately, and I know you do, if we think great principals 
matter, if we think schools can have a huge impact in moving 
students out of poverty and into the mainstream and giving them 
a chance to be successful academically and educationally and 
ultimately in the world of work, we need to do more work in 
this area.
    When I talk about how today in many school districts high 
minority schools, their teachers get paid less than teachers in 
low minority schools and when you look at the lack of access to 
AP classes in many of our disadvantaged communities, that is 
not equity, and that is not excellence.
    So we want to invest in those districts that are willing to 
challenge the status quo, that take to heart so many of the 
recommendations that you made, and to do something very 
different.

                CIVIL RIGHTS DATA COLLECTION--DISCIPLINE

    I also want to just quickly talk about the discipline 
guidance we put out. We are stunned with the Civil Rights Data 
Collection. This was after your report came out. But we see 
children in prekindergarten, as young as 4 years old, being 
suspended. And we worry about the school-to-prison pipeline. I 
was just stunned, absolutely stunned to see that that pipeline 
begins as early as 4 years old. That is horrific.

                         POVERTY IS NOT DESTINY

    And, again, working with people who are willing to do some 
things differently, we have a chance to show that, you know, 
poverty is not destiny, that children of color can be 
successful. But we and you know, they need to be in school. 
They need not to be suspended and expelled. They need access to 
great teachers, they need access to great after-school 
programs, they need access to AP classes. And, guess what, if 
we do that, those students are going to do just fine.
    Mr. Honda. I guess my time is up. I will wait for the next 
round. Thank you.

                RACE TO THE TOP--EQUITY AND OPPORTUNITY

    Mr. Womack. You got a stop sign there. I will recognize 
myself. More on the Race to the Top and the Equity and 
Opportunity Initiative.
    I would just like for you to explain how a competitive 
program actually addresses equity. Because--and I have got a 
lot of the rural districts in my State, for sure, and certainly 
in my district in the State. And, Mr. Secretary, rural 
districts do not have the same capacity to be able to hire 
grant writers and what have you, to be able to track a lot of 
these types of programs.

                  RURAL ABILITY TO COMPETE FOR FUNDING

    So if--it just seems to me that sometimes these grant 
programs further exacerbate the problem because of the resource 
gap here between certain districts. It just seems like it 
creates a bigger divide, creates winners and losers in public 
education. So how can we best ensure that Federal resources are 
going to places that really need them? And how do we ensure 
that we are not going to shortchange those that do not have the 
capacity that others may have?
    Secretary Duncan. It is a really thoughtful question. What 
we have worked hard in every one of these competitions--and I 
will get to the Race to the Top--Equity specifically--but on 
the Promise Neighborhoods work, on the Investing in Innovation, 
the i3 work, on the School Turnaround grants, I think, frankly, 
we have gotten smarter and more sophisticated in doing this and 
doing rural set-asides and rural slates. And I talked earlier 
about the Ohio Appalachian Collaborative that is getting 
remarkable results for, you know, very rural communities in 
just a couple of years. I have been to very rural Kentucky, 
where we are doing--some interesting work going on there. The 
Berea College and their collaborative there is doing fantastic.
    So again, hold us accountable. We are happy to give you the 
results. When we did the School Turnaround money, the School 
Improvement Grants, folks thought, well, those models won't 
work in the rural communities. Lots of noise there. We actually 
found that the rural communities got slightly more than their 
fair share; they are about 20 percent of districts, they got 
about 25 percent of the money, and my numbers aren't exact. And 
they have done, you know, just fantastic. They have done very, 
very well.
    So we will continue. The President's announcement yesterday 
on high school redesign, the CTE stuff you asked about, some 
fantastic rural districts--one in Mississippi, I think, that is 
one you know--won that. So we are trying to make sure we have 
set-asides to do it the right way. Happy to get you some 
results program by program.
    Having said that, in all of these, there is not enough 
money. So there are many more great both rural and urban and 
suburban applicants than dollars available. But we think we are 
spreading that money in a pretty thoughtful way. And obviously, 
if we are trying to create national models, which is the goal, 
that only is valid if we are investing in rural communities, in 
suburban communities, and urban communities as well.
    [The information follows:]

            Rural Success in Key Competitive Grant Programs

    Rural applicants have enjoyed considerable success in competing for 
Department of Education discretionary grant funds over the past 5 
years, as shown below:
    <bullet> School Improvement Grants (SIG): In the two large initial 
cohorts funded primarily with the $3 billion provided for SIG under the 
American Recovery and Reinvestment Act, small town and rural applicants 
received a larger share of competitive awards than suggested by their 
share of eligible schools. For example, in fiscal year 2009, small town 
and rural schools made up just under 20 percent of all SIG-eligible 
schools, but received nearly 24 percent of SIG awards. Similarly, such 
schools represented 17.5 percent of eligible schools in the fiscal year 
2010 State SIG competitions, but captured 19 percent of awards.
    <bullet> Race to the Top--District: Over half of the districts that 
received an award in the fiscal year 2012 and 2013 competitions are 
rural (42 out of 77).
    <bullet> Race to the Top--Early Learning Challenge: Nine of the 20 
States receiving awards from fiscal years 2011 to 2013 serve large 
rural populations: Georgia, Kentucky, Minnesota, North Carolina, New 
Mexico, Oregon, Pennsylvania, Vermont and Wisconsin.
    <bullet> Promise Neighborhoods: The Department has made awards to 
eight rural communities in Kentucky, Maine, Mississippi, New York, 
Ohio, and Wisconsin.

                  FUNDING FOR BROADBAND AND PRESCHOOL

    Mr. Womack. Like my colleagues, I have a chance to go into 
our schools. I make it a priority when I am back in district 
work periods to visit classrooms, talk to teachers, talk to 
administrators. I have a sister who is a high school principal, 
so she has my ear a lot, sometimes too much.
    Clearly, when I talk to young people, I talk about 
education being the single biggest thing going on in their 
lives, short of their faith and their family. But just from the 
baseline of where their future is, that it is going to be tied 
to their capacity to get a good quality education. But 
education is also part of a--part of a universe of things that 
is going to shape that individual in the future, behavior 
decisions and their health certainly is part of that matrix. 
And so it is very key.
    I also understand that in the world that we operate in 
today that the availability of broadband is a fundamental 
requirement for virtually every sector of society. And I can 
speak to health care specifically and to education 
specifically. And I have heard the pleas for more pre-K. But 
if--because money is an object now. If you could only do one 
thing, where would broadband rate with pre-K?
    Secretary Duncan. Great question. Thankfully, I don't have 
to split that baby. So we want to invest in pre-K. As you know, 
the FCC is talking about putting as much as $2 billion behind 
increased broadband access, rural communities getting a 
significant share of those dollars. In our budget, we have $200 
million to support teachers and their professional development 
to use this. So I think we can walk and chew gum at the same 
time.
    And last thing, again, relative to other nations, the fact 
that we are so poorly serving our students and teachers today 
to me is just untenable, and we have a chance to break through, 
again, not just in our agency but working with sister agencies 
as well.
    Mr. Womack. Thank you for your comments and your appearance 
before the committee today.
    Gentleman from Ohio, Mr. Joyce.
    Mr. Joyce. Thank you, Mr. Chairman.

                PROPOSED COLLEGE RATINGS SYSTEM CRITERIA

    Good morning, Secretary Duncan. I always like to know, you 
know, the President has touted this plan--picking up on some of 
the things that my colleague, Mr. Fleischmann, had mentioned--
but that the college may be based on qualities determined by 
the Administration. Many are concerned it will be nearly 
impossible to develop the one single set of criteria to 
evaluate cross-diverse institutions, such as large research 
universities, community colleges, small liberal arts colleges, 
career training. A poll conducted by Gallup on Inside Higher 
Education found that 65 percent of college professors polled do 
not believe that the proposed college scorecard will be 
effective in making college more affordable.
    How do you respond to the many concerns about comparing 
such different schools and programs under one set of criteria?
    And, two, and I think we would all agree that increasing 
the percentage of Pell Grant recipients that graduate and 
obtain a degree is a worthwhile goal. Do you think that rating 
colleges based on graduation rates might provide a disincentive 
for institutions to admit Pell Grant recipients and thus make 
college access even more difficult?
    Secretary Duncan. Again, very thoughtful questions. And, 
honestly, we have thought through many of these. So just to be 
clear, there is not a proposed scorecard. So anyone who says 
they are against the scorecard is against something that 
doesn't exist. We have not put out a proposal yet. We are 
taking huge amounts of public input. At a certain point, we 
will put out a proposal. It will be a draft. We will get a huge 
amount of feedback back on that draft. This is, again, a very 
open, transparent process. We are listening and learning every 
single day. Again, dozens and dozens of meetings with folks 
across the country.
    I would just go back to my premise, the fact that you and I 
and our fellow taxpayers spend $150 billion each year with zero 
sense of outcomes. I don't think it is the best use of taxpayer 
dollars.
    What we would put in place is a system specifically 
designed to avoid those kinds of things. If we do this in a way 
that is not thoughtful, we would create those perverse 
incentives that you talked about, like taking less first 
generation students, and less Pell Grant recipients.
    What we have talked about, again, is looking at those 
numbers specifically, looking at what universities are doing. 
Are they taking more or less? And are they not just taking 
them, are they graduating them? So we think with, you know, 
that one, that actually, intellectually, it is not that 
difficult. We think we can put in place an incentive structure, 
and, in fact, we have talked about an idea of having an 
additional $1,000 go to the university for every Pell Grant 
recipient who graduates. So there are some things we can do. 
Whether that is the perfect idea or not, I don't know. But 
those kinds of incentives just don't exist today, and we want 
to sort of put them on the table.
    And again, so many of the current public rankings actually 
are disincentives to that kind of behavior, they are actually 
hurting the kinds of things that you and I, I think, would like 
to see happen.

                SCHOOL VIOLENCE AND SCHOOL SAFETY ISSUES

    Mr. Joyce. And as always, I thank you for the help that you 
gave us right after the incident we had, the Chardon School 
shootings. I noticed here, in ``Improving school safety and 
climate,'' that you have asked for, you know, some increases 
obviously.
    Could you tell me, since we have started this discussion a 
couple years ago now, unfortunately, after the Chardon School 
shooting, what safety improvements have been made or what you 
are looking to improve in the school systems?
    Secretary Duncan. And I just have to say, this is a tough 
topic. But you know it has been maybe 15 months since the--not 
just that shooting, but the horrific shooting in Newtown, 
Connecticut. Since that time, we have had close to four dozen 
additional shootings at schools and colleges. So it is just an 
untenable level of violence. These are not, obviously, simply 
school challenges, they are societal challenges. And I am happy 
to have that conversation, I don't know if folks here want to 
have that conversation. But I just don't think we take our 
young people's safety seriously enough. These kinds of mass 
shootings don't happen in other nations, their children are 
safer than ours.
    So what can we do? We can't solve this problem in schools, 
but we can help to mitigate it as best we can. So whether it is 
increased counselors, whether it is increased social workers, 
psychologists, whether it is more after-school programming. The 
mental health piece of this is very important. This is not one 
where I think we should begin to micromanage from Washington. 
That would be the height of arrogance. What we want to do is 
have some resources to go out to school districts that want to 
take on this challenge in a more serious way.
    Just one small anecdote from the Civil Rights Data 
Collection we did at high schools, we found one in five high 
schools don't even have a counselor. So when you think--you 
know, this is like college counseling, think about all the 
mental health issues our kids are dealing with. We are just not 
listening to, we are not paying attention to the kids that need 
help.
    So we would like to put resources out to places that want 
to do a better job of supporting the young people and are doing 
the best they can to create a safe environment.
    The final thing I will say is that in the vast majority of 
communities, schools are the safest places for kids. And until 
we look at this on a societal basis, we are not going to solve 
this problem.
    Mr. Joyce. Thank you very much. I will yield back what 
little time I don't have left, Mr. Chairman.
    Mr. Womack. Thank you. Before I yield to Dr. Harris from 
Maryland, I meant to say during my round that I want to offer 
my congratulations to the Harvard basketball team. I want you 
to know that I had them winning as a 12 seed in the first 
round. I did not have them beating Michigan State, however.
    Secretary Duncan. You chose wisely.
    Mr. Womack. And I did not win the billion-dollar bracket. 
And as a result of that, my personal foundation that I was 
going to set up, which had a component for education, didn't 
quite materialize.
    Secretary Duncan. Next year.
    Mr. Womack. With that, I yield to the gentleman from 
Maryland, Dr. Harris.
    Mr. Harris. Thank you very much.
    Thank you, Mr. Secretary, for being with us today.

            INSPECTOR GENERAL REPORT ON MARYLAND ARRA FUNDS

    Just a quick follow-up on the IG's report of stimulus funds 
spent in Maryland, or I should say, misspent in Maryland. You 
know, we had a letter go back and forth. I received a letter 
from your office last August that, you know, we have to wait 
for the audit to see if we are going to recoup the misspent 
funds. Is the audit over?
    Secretary Duncan. I am not sure, sir. I have to go back and 
check.
    Mr. Harris. If you can do that in a follow-up, I would 
appreciate that.
    [The information follows:]

             Audit of Maryland's Use of Recovery Act Funds

    The Office of Inspector General issued audit A03K009, Maryland: Use 
of Funds and Data Quality for Selected American Recovery and 
Reinvestment Act Programs, on January 3, 2013. The Department issued 
the Program Determination Letter, signed by Deborah S. Delisle, 
Assistant Secretary for Elementary and Secondary Education, and Michael 
K. Yudin, Acting Assistant Secretary for Special education and 
Rehabilitative Services, on March 31, 2014.

                      COMMON CORE STATE STANDARDS

    Let me go into a couple of areas. One is the, you know, 
Common Core, obviously, even the teachers in Maryland have 
problems with it. So I would hope that we go slow on this and 
that we don't, you know, tie Federal funding to required 
adoption in any way of Common Core. You--I mean, you probably 
hear the same uproar that I hear. So I just hope that that is 
true.

            HIGH-QUALITY PRESCHOOL EDUCATION AND HEAD START

    Let me talk a little about the Preschool for All, because 
that is a big chunk of money you asked for in the budget. And 
it is interesting, you say, expanding ``high quality 
preschool.'' But most people would just talk about Head Start 
being the model. Is that not true? I mean, is this different 
from Head Start? What are we talking about here?
    Secretary Duncan. To be clear, Head Start is not 
prekindergarten, and so what we are talking about, to be clear, 
is a zero to five, sort of a seamless continuum here, starting 
with home visitation, and that has been proven pretty 
effective. But the goal for me is to make sure that children 
are entering kindergarten ready to be successful.
    And across the country, and this would be true, I am sure, 
in Maryland--I have actually visited some of your early 
childhood centers--the average child coming from a 
disadvantaged community or family, the average child starts 
kindergarten a year to 14 months behind. And quite frankly, we 
rarely do a great job of catching those students up. And I just 
keep saying, we have to get out of the catch-up business.
    Mr. Harris. Right.
    Secretary Duncan. So the goal is to make sure that, again, 
we are agnostic about who delivers----
    Mr. Harris. Why do we expect different results than Head 
Start? Which, of course, you know, provides a very brief 
advantage. But I think the objective studies have shown that, 
you know, it is just not persistent. So why do we think we are 
going to have a different result?
    Secretary Duncan. Well, it is more complicated than that. 
But, again, if you look at the longitudinal studies, you know, 
folks like Dr. Heckman who have done three- and four-decade, 
now going on five-decade studies, the long-term benefits to 
society and the return on taxpayer investment is pretty 
extraordinary, where it is high quality.

                               HEAD START

    What Kathleen Sebelius has done, to her credit, is again we 
talk about not just funding the status quo, she is starting to 
make folks demonstrate results, and where they are not getting 
results having to recompete for dollars and they may lose 
slots.
    Mr. Harris. But before you expand it that wide, wouldn't 
you want to do some studies somewhere that show--again, using 
Head Start as the model that failed. I mean, Head Start doesn't 
present lasting results.
    Secretary Duncan. So first of all, I would disagree with 
that assumption. Head Start has not failed. In some places I 
think it has transformed students' lives; in other places, it 
has been less successful. And again, having them now focus on 
quality, which I don't think that agency has done in the past 
at scale, is a huge step in the right direction.
    But we can do many more studies and hope to do many more 
studies. I think the evidence is unequivocal and overwhelming 
that high-quality early learning opportunities transform 
students' lives.
    Mr. Harris. I get it. High-quality education is always 
good; it is good no matter what level it exists. The question 
is, you know, throwing a lot of dollars without proof I think 
is a little premature in that.

                             SCHOOL CHOICE

    Let me ask you about the D.C. Opportunity Scholarship 
Program. Are you a fan yet? I mean, we talked about it last 
year. You were equivocal about the value of the Opportunity 
Scholarships.
    Secretary Duncan. I think, again, the results are mixed 
there.
    Mr. Harris. So you don't think they are improving? As time 
goes on, these results aren't improving? The trend line.
    Secretary Duncan. I haven't looked at the data recently, 
but going back a ways the results were mixed.
    Mr. Harris. Well, I know, but again, just as you seek to 
make improvements with pre-K and hope that you learn and you 
get better and better and better, I think that is what we see 
in the charter schools around the Nation. And you know that is 
true, Mr. Secretary, right? That is what you are seeing from 
the charter school data, that you weed out the schools whose 
techniques have not been good. We are left with a charter 
school system now that has been demonstrated to outperform 
their----
    Secretary Duncan. So I am a huge fan of high-performing 
charter schools, and we put hundreds of millions of dollars----

                       LOUISIANA CHARTER SCHOOLS

    Mr. Harris. I am so glad to hear you say that. How about 
the ones in Louisiana?
    Secretary Duncan. Just to be clear, that is not news.
    Mr. Harris. How about the ones in Louisiana? Are you a fan 
of the ones in Louisiana?
    Secretary Duncan. High-performing charter schools, be they 
in Louisiana or anywhere else, are helping to----
    Mr. Harris. In general, are the Louisiana schools high 
performing?
    Secretary Duncan. I can't speak to the whole system. I will 
say that the Orleans parish district----
    Mr. Harris. The New Orleans system, yes.
    Secretary Duncan [continuing]. Has a heavy charter emphasis 
and is, I think, the fastest improving school district in New 
Orleans.
    Mr. Harris. Is it a success?
    Secretary Duncan. It is going in the right direction. It 
has a long way to go. It is the fastest improving school 
district----
    Mr. Harris. Is it better than the school system that it 
more or less replaced? Objectively. Come on, objective.
    Secretary Duncan. Yes.
    Mr. Harris. Thank you very much, Mr. Secretary.
    I yield back my time.
    Mr. Womack [presiding]. Gentlelady from New York, the 
ranking member of the full committee, Mrs. Lowey, you are 
recognized.
    Mrs. Lowey. Why, thank you very much.

          DEPARTMENT OF EDUCATION CIVIL RIGHTS DATA COLLECTION

    I know we mentioned the civil rights data collection 
before. I would like to pursue that again. The Department of 
Education recently released the civil rights data collection, a 
massive undertaking that produced a comprehensive snapshot of 
civil rights data from every one of our Nation's 97,000 public 
schools. I understand that this is the first time since 2000 
that this scale of information has been collected.
    I must admit that I, frankly, found many of the results to 
be at best discouraging. Nationally, only 50 percent of high 
schools offer calculus, only 63 percent offer physics, between 
10 and 25 percent do not offer more than one of the core 
courses in the typical sequence of high school math and science 
education, such as algebra 1 and 2, geometry, biology, 
chemistry.
    And there is even less access for minorities. One-quarter 
of high schools with the highest percentage of African-American 
and Latino students do not offer algebra 2. A third of these 
schools do not offer chemistry. Fewer than half of American 
Indian and Native Alaskan high school students have access to 
the full range of math and science courses in their high 
school. This is really distressing.
    Can you talk about the impact on our children, our 
education system, of this kind of inequity, and what it says 
for our country's ability to lead in the global economy, and 
maybe even more importantly, what are we doing about this?
    Secretary Duncan. Well, first of all, I just appreciate you 
raising this. And these are difficult issues for folks to talk 
about. They involve race, they involve class. But guess what? 
It is the truth. And unless we as a Nation are willing to have 
these honest conversations, we can't move forward.

          EARLY LEARNING IN THE U.S. COMPARED TO OTHER NATIONS

    And what is so devastating to me is, again, there are 
things that, many of these things that we knew or thought we 
knew anecdotally, but now to have the data, again just to have 
it all be very transparent, we can have these conversations. We 
have never had this comprehensive data from every single 
school. But what is troubling to me and what I would love to 
figure out is how I can better work with Congress on this 
because these facts in our country are the opposite of what is 
true in other countries.
    And our children today aren't just competing in Alabama or 
Maryland or Ohio or New York for jobs, they are competing with 
children in China, in India, in South Korea. In South Korea 
poor children are more likely--more likely--to have a high-
quality teacher, to have an experienced teacher than not. That 
is absolutely the opposite here. In other countries, virtually 
every child has access to high-quality preschool.
    Mrs. Lowey. Excuse me, in South Korea, and I appreciate the 
information, is the Federal Government paying the total cost of 
education, whereas in our country it is about 6 to 9 percent?
    Secretary Duncan. There are different arrangements, but 
there is often a national commitment to making sure that 
underserved communities get access to high quality preschool. 
And South Korea does interesting things, China does interesting 
things, Singapore, too. So there are many examples out there. 
But basically what these other countries have said is we want 
education to be the great equalizer. And if you look at our 
spending in education relative to other nations, we are 
virtually at the bottom in terms of closing that opportunity 
gap.
    So these are things that, again, are difficult 
conversations, not things we can be proud of. But ultimately, 
if we want to have strong families, if we want to keep good 
jobs, high-wage, high-skilled jobs in this country, the best 
way I know how to do that is to have a well-educated workforce. 
And if we don't have access to early childhood education, if 
disadvantaged children don't have access to experienced 
teachers, if they don't have access to after school programs, 
if they don't have high school counselors, if they don't have 
access to AP classes, how are they going to be successful?
    Mrs. Lowey. Well, I would be interested in your response in 
the next couple of seconds, because in the United States it is 
about 6 to 10 percent, it varies, money for the schools comes 
from the Federal Government. Most of it comes from State and 
local taxes. So how do we deal with this?
    Secretary Duncan. Well, I think again there are many 
countries we could look to if we want our children to 
successfully outcompete them and keep jobs here, but other 
nations have taken this challenge on in a much more serious way 
than we have.
    Mrs. Lowey. Well, I do hope we can continue this 
conversation.
    Secretary Duncan. I would love to.
    Mrs. Lowey. Because when you look at the numbers, it is 
certainly not numbers that would make us proud as 
Congresspeople from the United States of America. And I thank 
you.
    Secretary Duncan. I think we are poorly serving our 
children and ultimately our country.
    Mr. Kingston. Thank you, Mrs. Lowey.
    And, Ms. Roby, is it okay with you if I jump in? Because if 
you are in a hurry, I would go ahead and yield to you.
    Mrs. Roby. Go ahead.
    Mr. Kingston. Okay.

                  COLLEGE- AND CAREER-READY STANDARDS

    Mr. Secretary, and you know how it is, the season we have a 
lot of constituents coming and going, so I had to hop out to 
meet with some folks. But Common Core, quite a firestorm with a 
lot of different people weighing in on it. Recently Indiana 
pulled out of it, Oklahoma passed its legislation with second 
thoughts. Do you think that the core was developed too quickly? 
Was there enough input from teachers, parents, and officials to 
have a voice on individual states?
    Secretary Duncan. Well, obviously this was an absolutely 
voluntary effort that was led by States across the country and 
across the political spectrum. In some places they did a great 
job in terms of public input and participation, other places 
they probably didn't do enough. And just to be very clear with 
this group, I am just a big proponent of high standards, and 
whether they are common or not is sort of secondary. We just 
want students to be college- and career-ready once they 
graduate from high school. We partner with States that have 
been part of that effort, we partner with States that have done 
their own thing as long as they can demonstrate high standards.
    And let me just give you why I think that is so----

                     COMMON CORE OF STATE STANDARDS

    Mr. Kingston. Well, let me just jump in. Ultimately, 
though, and I am, you know, son of a college professor, brother 
of a college professor, I certainly believe in high standards, 
but I think the common word is something that it is very hard 
to just glaze over. But ultimately, who is in charge of the 
child's education and what they learn in the classroom? Feds? 
State? Local? Parents?
    Secretary Duncan. I think that is both the beauty and the 
complexity of education. I think everybody has a role there. 
Ultimately, parents, I think, are the most important first 
teachers, the most important teachers. You know, my wife and I, 
if we are not helping our sixth-grader and our fourth-grader, 
we are part of the problem, not part of the solution. So it 
always starts with parents. But schools, districts, states, us, 
everybody has a role.
    Mr. Kingston. We are right now looking at math and English, 
right? Will there be other standards that will come out, 
science, language, art?
    Secretary Duncan. Again, that is up to the States. So if 
States want to move in that direction, they will; if they 
don't, they won't.

                    COLLEGE-LEVEL REMEDIAL EDUCATION

    Can I just quickly, this is an important point to make. So 
on virtually every measure Massachusetts is the highest-
performing State in the country. I recently visited there. And 
so from our highest-performing State, not amongst the high 
school dropouts but amongst the high school graduates, roughly 
35 percent of Massachusetts high school graduates who go to 4-
year public universities are taking remedial classes. They are 
not ready.
    And so my question for each of you, in your States, what 
percent of your high school graduates are taking remedial 
classes, burning Pell Grants on remedial classes, not prepared? 
And so when we dummy down standards to make politicians look 
good, which happened under No Child Left Behind in about 20 
States, across the political spectrum, great for politicians, 
bad for children, bad for education, bad for the country.
    So I would just be curious for each of your states, what is 
your college remediation rate today? And if Massachusetts is 35 
percent, I would be very surprised if any of yours was much 
below that. So what we have been doing for far too long is 
passing kids along, making politicians feel good, but really 
serving our students poorly.

                     COMMON CORE AND STATE FUNDING

    Mr. Kingston. What percentage of Federal grants are tied to 
a State's acceptance of Common Core?
    Secretary Duncan. Zero. We advocate for high standards, but 
we never said they have to be common.
    Mr. Kingston. Okay. So there would not be any kind of grant 
funding that hangs over them?
    Secretary Duncan. No. What we ask is that if States 
demonstrate to us, basically saying, if they are a local 
institution of higher education, can say that students hitting 
this benchmark will not have to take remedial classes, that is 
our bar. So we have partnered with States from Texas to Alaska 
to Virginia to Minnesota that haven't been part of that common 
initiative. And as long as States are, again, not dumbing 
things down, we want to work with them.
    Mr. Kingston. So there are not any plans for grant 
opportunities that are hooked into Common Core for States?
    Secretary Duncan. No, sir.

                        INDIVIDUALIZED LEARNING

    Mr. Kingston. Okay. Getting back to the earlier question 
when you said that the complexity of education where you do 
have parents and everybody is a little bit involved in it, what 
is your philosophy on making sure that there is not too much of 
a one size fits all? Because one thing I have learned growing 
up in an education family is I often quote the Loretta Lynn 
song where she is talking about being a mother: One needs a 
spanking, one needs a hugging, and one is on the way. And I 
often feel, you know, the teacher in the classroom really is 
the best person to know who needs extra help on the curriculum, 
you know, the quadratic formula, the spelling, the geography, 
who needs some discipline, who needs extra homework.
    Secretary Duncan. So I agree 100 percent. I am a huge 
believer, and we call it personalized instruction or 
individualized learning. This past year's Race to the Top 
effort went to districts that were doing exactly that. The idea 
of one teacher teaching 30 children the same thing at the same 
time simply doesn't make sense. And how we help empower 
teachers to teach to each children's strengths and weaknesses, 
let them move faster if they are ready, give them more help, 
that is where education is going, and we want to do everything 
we can to accelerate that movement.
    Mr. Kingston. My time is expiring, but for the record I 
would like to know what is built in to keep Common Core from 
being a centralized decision-making body that takes that 
flexibility away from the teacher and the classroom and the 
parent?
    Secretary Duncan. You have to talk to States. Again, this 
is a State-led effort. But, again, standards are just simply 
what you have to know to graduate. How you teach to that, how 
you help students get there, that should always be determined 
at the local level. So having a high bar for everyone, I think, 
makes sense, but having tremendous flexibility and creativity 
to hit that higher bar, I think that is the right combination.
    Mr. Kingston. I am being very liberal with my time, but the 
question, though, so you are good with high standards, but in 
terms of common, you are okay not having common?
    Secretary Duncan. Yes. And to be clear, that is not news. 
So what we have always said is we want high college and career-
ready standards, internationally benchmarked, and we want a lot 
more students to graduate from high school, we have got to 
reduce dropout rates, but we want a lot less students who 
graduate from high school taking remedial classes in college.
    Mr. Kingston. Okay.
    Ms. Roby.
    Mrs. Roby. Thank you.

                RACE TO THE TOP FUNDING AND COMMON CORE

    Before I get to my question, just to clarify on one point, 
so Race to the Top dollars have never been associated with the 
adoption of Common Core?
    Secretary Duncan. What we have said is you could have 
common high or, again, if you demonstrate that you come to the 
table with high standards within your local institutions of 
higher education. Then we are fine with that. And again, we are 
partnering with States like Alaska; States like Texas; 
Virginia, where I live. Minnesota is in on, I forget, they are 
in on reading, not in math, or vice versa. And so we are for 
high standards.

                   FEDERAL TRIO AND GEAR UP PROGRAMS

    Mrs. Roby. Recently, the Administration has highlighted the 
need to prioritize postsecondary access and success for low-
income, first-generation college students, and this goes a 
little bit to the ranking member's line of questioning a minute 
ago. But given this, I am puzzled as to why you would put forth 
a budget with a $1.3 billion increase overall but not 
additional funding for a program that explicitly works to 
ensure that low-income, first-generation students have access 
to college and succeed once there, and this is the Federal TRIO 
Programs.
    You know, this level of funding proposal is particularly 
troubling given that there is evidence from a recent evaluation 
that participants in these programs are more likely to obtain a 
bachelor's degree than non-participants. I mean, this is the 
program to provide services to students who come from low-
income families, and it is important that these are 
opportunities for all Americans, regardless of race, ethnic 
background, or economic circumstance.
    So can you explain to the committee why this is a program 
that is proven to be successful and yet it is level funded and 
there are new initiatives?
    Secretary Duncan. So we maintain our commitment to both 
TRIO and GEAR UP, programs that we do think do a really good 
job there. And again, if this Congress wants to appropriate 
more resources for education we would love to do more in that 
space. We also worry a lot about the cost of college, and so 
the goal is not just to get them there, but, you know, to 
address the debt levels which we think are pretty 
extraordinary.
    So where we have some discretion, trying to find ways to 
bring down the cost of college, not just increase access but 
increase completion rates, we think programs like TRIO and GEAR 
UP are doing generally, not always, generally a good job of 
helping students get there. The goal is not to get there; the 
goal is to graduate at the back end, and not have a mountain of 
debt, and so we are trying to be much more creative on that 
higher-ed side. This is obviously a continuum, you know, 
starting with the early childhood piece that we talked about 
earlier.
    Mrs. Roby. Right. And, I mean, we want to be for programs 
that work, and there is clearly a lot of evidence that I have 
been given, I mean, my State is benefitting from this program 
tremendously.
    Secretary Duncan. TRIO and GEAR UP, again, we are investing 
about $1.1 billion each year, so it is not an insignificant 
investment and we want to continue to do more there. And then 
we want to make sure that their alums have a chance to graduate 
and graduate not buried by debt.
    Mrs. Roby. Thank you. And thank you for being here again 
today.
    And, Mr. Chairman, I yield back.
    Mr. Kingston. Mr. Honda.
    Mr. Honda. Thank you, Mr. Chairman.

               DETERMINING HOW TO FUND EDUCATIONAL EQUITY

    I am just going to deviate from my question and just make a 
couple of comments. A lot of good questions today, Mr. 
Secretary, and there are thoughtful questions. And I think the 
public education system in this country is so complex, it is so 
diverse, and if you say there are 16,000 school districts, it 
proves that we know that there is something missing in our 
pursuit for public education for our kids.
    I don't think there is anyone that says that they don't 
want to see excellence or they don't want to see their 
youngsters learn and perform. I don't think anyone is saying 
that we don't want to see teachers become the best trained and 
skilled folks that work with our kids.
    Yet, when we ask the question who is most responsible for 
public education and the education of our youngsters, there is 
no one simple answer. It is all of us, you know. But if it is 
all of us, then how do we create a team that is a national team 
that has common goals, a common direction?
    And I think that the word ``equity'' is really something 
that we are going to have to really look at very carefully. In 
the context of how we as States and local government fund our 
schools, how we train our teachers, how much money we put into 
our public education system, pre-K to postgraduate, we are all 
over the place, but we still have the one common sentiment, 
that is, we want to see excellence come out of it.

                            EQUITY OR PARITY

    It seems like we need to have a broader discussion about 
what we mean by equity and all the things that we are talking 
about that we expect from our system and from ourselves, what 
that term equity means, because currently we are funding all of 
our schools based upon average daily attendance, I suspect, and 
average daily attendance is about X amount of money behind each 
child.
    So we are really pursuing equal amounts and we are pushing 
higher and higher the amount looking for that thing we call 
equity, but really what we are looking at is equal amounts 
behind each child. And then Mr. Kingston knows that in his 
family there is a bunch of teachers that know that each child 
is different, each child can learn, but each child is going to 
cost a little bit different than the other child.

                       FEDERAL RULE IN EDUCATION

    So basing our finance system upon ADA, that is parity, not 
equity. And so I think that we need to look at the other 
question Mr. Kingston had asked, what is the role of Federal 
Government? And should we be looking at the Federal 
Government's participation in covering the cost of educating 
each and every child along with partnership with the States. 
Because right now the States, all 50 of them are struggling, 
and when they have to balance their budget, education is the 
one that gets cut in order to balance the budget.
    And so, you know, I think Mr. Kingston's question is still 
pertinent: What is our role? Upon what concept will we be 
partnering with States? And if we say it is equity, if we say 
equity for each and every child, then how do we know what each 
child needs? We have strategies already that exist, we have all 
the tools that exist right now, but we haven't sat back and 
looked at the stuff to put it together as a national effort.
    And I guess I would commend folks to read the report on 
equity and excellence for each child because it does address 
rural, it addresses poverty, but it doesn't address it in 
isolation of other things.

        RESPONSIBILITY FOR OUTCOMES OF SCHOOLS IN POOR DISTRICTS

    And so with the time remaining I will just close with this. 
It is interesting that we find poor-performing students in 
general and poor-performing schools, we find poor-performing 
schools in poor neighborhoods.
    My question is, I don't think cities and counties go about 
looking to create poor neighborhoods. So how do we achieve, 
what happens when we get to poor neighborhoods, what are the 
dynamics in it, and what responsibilities do local governments 
have for the outcomes of the kinds of schools we see in those 
neighborhoods?
    Is there another question that we need to couple with our 
youngsters? Is there another question that we need to couple 
with education? And I suspect that education is considered the 
infrastructure of our cities. If so, then I think the cities 
and counties ought to look at that question also, along with 
schools, so that we can achieve this thing we call equity.
    Thank you, Mr. Chairman.
    Mr. Kingston. Thank you, Mr. Honda.
    Mr. Joyce.

                    COLLEGE LEVEL REMEDIAL EDUCATION

    Mr. Joyce. Thank you, Mr. Chairman.
    Secretary Duncan, you brought up a part before that 
certainly has piqued my interest while you are here about the 
fact that we are doing retraining, if you will, of many of 
these kids who end up in college, whether it is our State 
colleges or community colleges, unfortunately.

                             STEM EDUCATION

    And I am concerned about the U.S. STEM education, our 
ability to meet the domestic demand for STEM labor. How will 
STEM proposals included in the President's 2015 Budget deliver 
effective STEM education to more students and more teachers?

                    COLLEGE LEVEL REMEDIAL EDUCATION

    Secretary Duncan. And, again, just to go back, what I gave 
you was remediation rates, to be clear, at 4-year publics in 
Massachusetts. Obviously, the remediation rates at community 
colleges would be even higher. So as you go back home to Ohio, 
see what it is at Ohio State, see what it is in community 
colleges, and it would be pretty stunning. So obviously we know 
so many of the job----
    Mr. Joyce. President Gee was very specific that that 
doesn't happen. But all those kids who go to Newark or 
Mansfield or the outlying campuses, those are the ones who are 
getting the training, but the ones at the institution itself 
are not getting trained.

                             STEM EDUCATION

    Secretary Duncan. So obviously, for so many of the great 
jobs of the future you are going to need some STEM skills, so 
there is not one simple answer here. I am a big believer in 
getting more teachers who love the STEM content areas, are 
comfortable with it, in the primary grades. This can't just be 
AP physics and calculus. So how do we recruit the next 
generation? The President has challenged us to bring 100,000 
STEM teachers there.
    We also want to create a STEM master teacher corps and have 
great STEM teachers help to mentor, not just attracting great 
talent but retaining that talent, bring them in. And then we 
are seeing some really interesting work where entire 
communities are rallying sort of STEM networks, STEM innovation 
networks, where K to 12, higher ed, and industry are partnering 
to create opportunities both for children and for teachers. So 
we would love to invest more resources in all of those areas.
    Mr. Joyce. I think it is very important. And one small 
thing I was doing is bringing high school students along with 
me and going to tour factories, quizzing them before they go 
in, what do you expect to see here? And then talk to them on 
the way out and say, what did you see here? And they are 
overwhelmingly amazed about the difference between their 
initial thoughts and then what they----
    Secretary Duncan. Those are high-wage, high-skilled jobs.
    Mr. Joyce. Correct.
    Secretary Duncan. And we want to keep them in our country 
and not have them go overseas. And we desperately need to train 
more young people to be successful there.
    Mr. Joyce. And the ability to be able to perform that job 
and make money and be able to pay for their school instead of 
coming out with such a large debt.
    Secretary Duncan. Yeah.

                COMPETITIVE VERSUS FORMULA GRANT FUNDING

    Mr. Joyce. Secondly, I would like to follow up on, you 
know, I noticed in the fiscal year 2015 request a higher 
percentage of competitive discretionary grants than the levels 
currently enacted. Can you explain the desire to move away from 
formula grant funding, and how will the Department ensure 
certain schools and students aren't left behind?
    Secretary Duncan. Yeah. I actually don't think that is 
quite accurate. And, Tom, correct me if I am wrong. I think we 
are about, as I said earlier, about 11 percent competitive, 89 
percent formula. I think we actually went slightly in the 
opposite direction. But tell me if I am wrong.
    Mr. Skelly. It is a slight increase in competitive funds in 
the 2015 request compared to what is under current law in 2014.
    Mr. Joyce. And I apologize for having misread that.
    I yield back, Mr. Chairman.
    Mr. Kingston. Thank you.
    Mrs. Lowey. And, Mrs. Lowey, I wanted to have one more 
question and then I am finished. How are you?
    Mrs. Lowey. That is fine. Just one more question.
    Mr. Kingston. Okay. Great. Thanks.
    Mrs. Lowey. Thank you very much.
    And thank you again for your leadership.

                HIGHER EDUCATION COSTS AND STUDENT DEBT

    We touched on it before, but I know we are all very 
concerned about college costs, financial aid. More than two-
thirds of students who graduated with a bachelor's degree took 
out student debt to pay for their undergraduate education. Of 
those students with loans, the average amount of student loan 
debt is $29,400, just shy of $30,000.
    A decade ago, only one-third of students who earned an 
associate degree took out student debt. Now it is up to one-
half. To make matters worse, nearly 90 percent of students 
earning associate's degree at for-profit colleges finish with 
debt. And the amount of debt increased substantially, adjusted 
for inflation. Average debt for a student earning an 
associate's degree increased from $12,100 to $17,200, a jump of 
more than 40 percent.
    Now, I know, Mr. Secretary, your Department has spent a lot 
of time trying to help students make informed choices about 
where to go to college, whether a particular school is worth 
the investment. Can you tell us if it is making a difference? 
Are students actually using the tools at their disposal? Have 
you done studies to find out what sources of information 
students use to make their college decision? I would be very 
interested in what you think you can do about this because it 
is just out of sight.
    Secretary Duncan. Yeah. So I think we still have a long way 
to go, frankly, and it is something I worry about everywhere I 
go. And it is not just disadvantaged communities. This is hard-
working middle-class families that are starting to think that 
college is for rich folks, it is not for them. And when that 
starts to happen, again, there is no upside for families or for 
our country.
    So I will come back to what we are doing specifically. But 
I always say this is about shared responsibility.
    Mrs. Lowey. By the way, I think what you just said is 
absolutely essential. I met with a group of kids, they would be 
considered middle-class kids of firefighters and police; they 
can't even go to Fordham College in New York. It is now up to 
$60,000.
    Secretary Duncan. It is staggering. The President and I 
were up in Buffalo, and the cost, it is overwhelming in some 
places. So again, shared responsibility. We have a role to 
play. I will come back.
    States have to reinvest. So many States cut back, about 40 
States cut funding to higher ed. When they cut funding to 
higher ed, what do universities do? They jack up their tuition, 
pass it on to students. And then universities have to do a 
better job of containing costs and using technology and other 
things and increasing value. So we all have a role to play.

                           PELL GRANT FUNDING

    So, you know, one of the things I am most proud of was the 
additional $40 million for Pell Grants. We did it without going 
back to taxpayers for a nickel. We are trying to do a lot more 
in the transparency side, with the score cards and other 
things. We are also doing things on the back end, income-based 
repayment, Pay As You Earn, those kinds of things to give 
students options.
    But I really worry going forward that the Ryan budget over 
the next 10 years takes all these things in a pretty dramatic 
way in the wrong direction. A huge loss of access to Pell 
Grants, you know, and other impacts there. And, again, are we 
comfortable being 12th in the world in college graduation 
rates? Is that a badge of honor? Or do we want to be first 
again? Are we comfortable having student debt double basically 
over the past, whatever it was, decade? And I worry about young 
people trying to buy a home or, you know, buy a car, or start a 
business with this mountain of debt.
    So collectively, again, we have got to cut through 
politics, cut through sound bites and ideology, work together 
to again lead the world in college graduation rates and make 
sure young people have manageable debt at the back end. So a 
lot of hard work. So I would not declare success by any stretch 
right now. We have a lot of hard work ahead of us.
    Mrs. Lowey. Well, let me just say, Mr. Chair, I think this 
is one of the biggest challenges we all face, because when an 
average kid can't afford college, even with a Pell Grant, we 
should all be concerned about that.
    So thank you very much, and thank you for your leadership 
of this hearing.
    Mr. Kingston. Well, thank you, Mrs. Lowey.

                        EARLY LEARNING PROGRAMS

    I wanted to ask about, there are 45 early learning and 
child care programs; 25 have an explicit purpose to provide 
childhood education and care and 33 permit funds to be used for 
such initiatives. It would appear to me that we would not need 
that many, and that if it was that successful, we wouldn't need 
another $75 million for a preschool initiative.
    And it would also appear to me that somebody like you who 
did so much of this kind of challenge in the bureaucracy in the 
Chicago system would be looking at this and looking at 45 and 
say, whoa, whoa, whoa, we have got to consolidate, we have got 
to cut.
    Secretary Duncan. No, we are happy to continue to do that. 
And actually, the 45 is closer to 12, so the 45 number isn't 
quite accurate. But your point is well taken.
    Mr. Kingston. Well, the 45 includes the 33 funding streams.

                       PRESCHOOL FOR ALL PROPOSAL

    Secretary Duncan. So, again, where we can consolidate, 
where we can work together. But I want to be really clear, if 
all we are doing is investing in the status quo, that is not 
going to get us where we need to go. And the goal of our Pre-K 
for All proposal is to go from about 1.1 million students 
served to about 2.2 million. We want to double. So we need to 
use every existing dollar wisely. I am absolutely with you 
there.

                 NEED FOR INCREASE IN PRESCHOOL FUNDING

    But I want to be clear to this committee and to the public 
that the only way to get to scale, as so many other nations 
have done much better than us for a long time, is we are going 
to have to increase our collective investment, and we need 
folks across the political aisle to understand that.
    Mr. Kingston. But of the 12, surely some work better than 
others. And I am wondering if you have rated the ones that are 
better. Because, you know, we would love to work with you to 
eliminate those, but you don't propose eliminating any of them.
    Secretary Duncan. Well, to be clear----

          ELIMINATION OF DUPLICATIVE AND INEFFECTIVE PROGRAMS

    Mr. Kingston. And one other, this is a pet peeve of mine, 
across all government agencies they never will rate the 
effectiveness of these programs. For example, down the hall 
from you, 47 different Federal job training programs. And, you 
know, you ask them, well, which one should be eliminated? Oh, 
they are all good.
    Secretary Duncan. Yeah. No, no, no. So to be clear, we can 
give you programs from our Department that we have eliminated 
over the past 5 years and the hundreds of millions of dollars, 
if not billions that we have saved, so hopefully you will see 
we have tried to walk the walk and be very, very clear there. 
We will continue to do that. We don't have 45, or 12, early 
childhood programs under our jurisdiction.
    As I said, Kathleen Sebelius is starting to rate Head Start 
providers in ways and move seats that has never happened 
historically, so some movement in the right direction. But I 
just want to come back to my fundamental point, that I am 100 
percent convinced we need a massive increase, a massive 
investment to create more opportunity for children who aren't 
served.

                PRESCHOOL EDUCATION RETURN ON INVESTMENT

    Mr. Kingston. No, but investment alone isn't anything. It 
has to be always return on investment.
    Secretary Duncan. Yeah. ROI.
    Mr. Kingston. And that is where I think we would want to 
have----
    Secretary Duncan. Well, again, let me just be clear, high-
quality early-childhood----
    Mr. Kingston. I have a difficult question for you in a 
minute, so I am just warming you up.
    Secretary Duncan. Let me just finish. A 7:1 ROI. And I 
would ask you guys as you fund other things across----
    Mr. Kingston. Well, yes, but, you know, I studied economics 
and I sat there and I listened to you, and I don't believe 
anybody would really bet the bank on this study.
    Secretary Duncan. So I would invite you----
    Mr. Kingston. Because it would be impossible to really 
follow that through.
    Secretary Duncan. I would invite you to invite James 
Heckman, who is a Nobel Prize-winning economist, who is 
definitely smarter than me on this stuff, may not be smarter 
than you, to come and testify and lay out----
    Mr. Kingston. Well, there are a lot of people who win Nobel 
Prizes that you wonder about sometimes. Maybe we need to bring 
him in here and ask him a few questions.
    Secretary Duncan. That is fair. And there are many other 
studies that talk about the long term. I think the evidence is 
overwhelming. The evidence is overwhelming.
    Mr. Kingston. All I want to know from you, though, is the 
return on investment. If you have got 12 programs, which ones 
are giving you the best bang for the buck, and why can't we 
eliminate some of them or the 33?
    Secretary Duncan. That is a fair question. Again, we don't 
have 12 under our jurisdiction. You asked an administration-
wide question. That is a fair question.
    Mr. Kingston. And I am going to yield to Mrs. Lowey, but I 
do have----

          INTERNATIONAL EDUCATION AND FOREIGN LANGUAGE STUDIES

    Mrs. Lowey. I can't resist. I wasn't going to ask another 
question, but when you are talking about cuts, in fiscal year 
2011, Congress made a series of dramatic cuts to a large array 
of education programs including----
    Secretary Duncan. Including early childhood.
    Mrs. Lowey [continuing]. The International Education and 
Foreign Languages Program and higher education. I happen to 
have a couple of grandkids that are bilingual, and I know what 
an advantage they have. After years of steady growth, funding 
for Title VI programs was cut by 40 percent. Now, these cuts 
have had a real impact on students, cancellation of hundreds of 
less commonly taught language classes across the country 
impacting thousands of students, and efforts to rebuild that 
funding level have been slow given broad fiscal challenges and 
the sequester.
    However, this is why I just wanted to close with this, the 
need for national resource centers, foreign language and area 
studies fellowships, the focus these programs provide on 
intensive study of world areas and foreign languages, 
particularly less commonly taught languages from regions of 
strategic importance to the Nation has only increased since 
2011.
    So the United States engages with virtually every nation 
around the globe through trade, open markets, international 
negotiations with no plan to scale back on our 
internationalization efforts given the tremendous importance 
and value our country places on being global leaders. How does 
the Department plan to strengthen and grow these programs 
moving forward?
    Mr. Skelly. The big thing we did, we got a $4 million 
increase in the 2015 budget; we had a $2 million increase in 
your appropriation in 2014. So we are, I think, headed back in 
the right direction.
    Mrs. Lowey. Is that sufficient to meet our international 
obligations?
    Mr. Skelly. We could always spend more money, but that is 
what we have in the budget.
    Mrs. Lowey. Does it meet the needs out there now?
    Mr. Skelly. There are a number of needs around the country. 
We had a deputy for international education, Clay Pell, who was 
in for a couple of months, and he thought we needed all kinds 
of instruction, even in languages they speak in Indonesia. We 
don't do enough there. There are all kinds of languages that we 
could expand into.
    Secretary Duncan. Just to be clear, none of these things, 
whether it is early childhood education or IDEA funding or AP 
classes or international studies, in none of these is it 
sufficient to meet the need, not even close.
    Mrs. Lowey. I am glad we closed with that because----
    Mr. Kingston. Oh, we are not closed yet.
    Mrs. Lowey. Oh.
    Mr. Kingston. I have to ask Secretary Duncan a hard 
question in a minute, but you still have the time.
    Mrs. Lowey. I just want to say, I am not going to say 
increase the language classes at the detriment of pre-K or Head 
Start. We are the United States of America and we should be 
able to give our kids a solid foundation, and then at a certain 
point in their education we should prepare them for 
international opportunities which create jobs, because this is 
one of the areas that is providing the most jobs, the best 
investments. And I hope we think about that as we are preparing 
this budget, Mr. Chairman. Thank you.
    Mr. Kingston. Thank you, Mrs. Lowey. And I guess I would 
not be a good Republican conservative if I didn't say part of 
the legacy we have to remember to these kids is keeping the 
fiscal house in order, so that is the balance. But I do want 
to----
    Mrs. Lowey. Well, I can give you a list of things that I 
would cut, Mr. Chairman----
    Mr. Kingston. I think we need to do that.
    Mrs. Lowey [continuing]. But it wouldn't be in education.
    Mr. Kingston. Well, I think we should look at all of them 
and measure the budget----
    Mrs. Lowey. And it wouldn't be Pell Grants.

               GRADUATION RATES OF PELL GRANT RECIPIENTS

    Mr. Kingston. Which tees me up for my one of my questions, 
which isn't the hard question, Secretary. On Pell Grants, I am 
appalled at the graduation rates, and Ms. DeLauro actually 
mentioned it in her opening statement. And I don't need the 
answer right now, don't expect the answer, but I would like it 
on a timely basis, the graduation rate with Pell Grants and the 
number of years, because it appears to me that it is 
appallingly low. And that would be one thing that everyone on 
all philosophical spectrums should say we need to get more for 
our money out of a Pell Grant.
    Secretary Duncan. Yes, couldn't agree more. And again, part 
of the challenge is, you have to look downstream, to how many 
of those young people are graduating from high school and yet 
are not ready, and they are burning Pell Grants on remedial 
classes.
    So that is a problem. The solution is more complex than 
ever. And I would say the vast majority of those kids are 
entering college not actually ready to do college-level work, 
and that is why high standards, college and career-ready 
standards, are so desperately needed in our country.

                Graduation Data on Pell Grant Recipients

    Senate Report 113-71 directed the Department of Education to submit 
a report to the House and Senate Appropriations Committees containing 
enrollment and graduation information for Pell Grant recipients for the 
2012-2013 award year. The Department expects to release its report by 
the congressionally mandated deadline of May 19, 2014.

                         STUDENT ATHLETE UNIONS

    Mr. Kingston. Okay. Hard question: You were a student 
athlete, union or nonunion?
    Secretary Duncan. It is a really hard question. And I am 
not as up to speed as I should be, and obviously, we don't 
really have a clear play there. I have been talking to a few 
folks. The NCAA, we have pushed them very hard to raise 
graduation rates. As you know, Connecticut, that just won the 
national championship, couldn't compete a couple years ago 
after winning the national championship because we pushed the 
NCAA to put some requirements in there. Thought it was 
impossible. New president, new AD, new coach. Guess what? Their 
academics are together and they just won a championship. These 
things aren't in conflict.
    For me, it has to be about students first, athletes second, 
and in many universities that is not the case. So it is a long 
conversation. Coaches' incentive structures are all around 
wins, not around academic performance. So boards are complicit 
in this, university presidents are complicit in this. You have 
college coaches making $7 million. Something is out of whack 
there.
    And so I think for me it raises the really important issue 
that these things are out of whack and some fundamental and 
deep reform is needed to make sure that folks just aren't going 
to college making money for the universities, not graduating, 
having nothing to show for it. And a number of young people I 
grew up playing with on the south side of Chicago had that 
exact experience and came home with nothing. This one is pretty 
personal to me.
    Mr. Kingston. Well, that is my question.

                       CHAIRMAN'S CLOSING REMARKS

    And, Mrs. Lowey, if you are through, we will consider this 
committee adjourned.
    Thank you very much, Mr. Secretary.
    Secretary Duncan. Thank you.
    [The following questions were asked to be submitted for the 
hearing record:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                         W I T N E S S E S

                              ----------                              
                                                                   Page
Duncan, Hon. Arne................................................   129
Perez, Hon. T. E.................................................     1

                                  [all]
</pre></body></html>
